<html>
<title> - FOREIGN POLICY PRIORITIES IN THE FY11 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 111-778]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-778

   FOREIGN POLICY PRIORITIES IN THE FY11 INTERNATIONAL AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations







<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html






                  U.S. GOVERNMENT PRINTING OFFICE
  63-232 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        














                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary R., Secretary of State, Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senators:
        John F. Kerry............................................    40
        Richard G. Lugar.........................................    69
        Russell D. Feingold......................................   109
        Jim Webb.................................................   114
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    40

                                 (iii)

  

 
   FOREIGN POLICY PRIORITIES IN THE FY11 INTERNATIONAL AFFAIRS BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Menendez, 
Cardin, Casey, Webb, Shaheen, Kaufman, Lugar, Isakson, Risch, 
DeMint, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Madam Secretary, we are delighted to welcome you back here 
before the committee. If I can just say quickly, as soon as we 
have a quorum, Madam Secretary, we are going to interrupt for a 
goal that I know you will support wholeheartedly, which is to 
get a bunch of State Department nominations out of here. 
[Laughter.]
    And a couple of legislative items. So if you don't mind, we 
will interrupt to do that. This was a meeting that we had 
scheduled during the snowstorm. So it obviously didn't take 
place.
    I don't think any of us could think of a time in our 
history when we have had a greater need for energetic diplomacy 
to make the case for America globally. And we appreciate your 
incredibly hard work and your many travels in the effort to do 
just that, and we welcome the chance to hear from you today.
    The international affairs budget is the backbone of our 
civilian efforts worldwide. And from fighting HIV/AIDS to 
supporting our aid workers and our diplomats on the front-line 
states like Afghanistan, Pakistan, and Iraq, this budget 
secures the tools that we need for a more effective foreign 
policy.
    I think the Secretary would join me in agreeing that the 
funds we have are not all that many of us wish we could have. 
But we are living in a difficult fiscal environment, and they 
are, nevertheless, vitally needed for our national security.
    As Defense Secretary Gates said in expressing his regret 
that America effectively abandoned Afghanistan after the 1980s, 
``If we abandon these countries once we are in there and 
engaged, there is a very real possibility that we will pay a 
higher price in the end.''
    It is with this history in mind and the lessons learned the 
hard way that we turn to the budget today to have this 
discussion. This year's total international affairs budget 
request of $58.5 billion represents a 2.8-percent increase over 
fiscal year 2010 amounts, including this year's supplemental. 
This money is a fraction of a fraction--just 1.4 percent--of 
the overall budget of our country.
    We are discussing just one-sixteenth of our national 
security budget, and compare that with the 2011 Defense budget 
of $708 billion. It is clear, at least to this Senator, that 
our foreign policy is somewhat out of balance.
    This year's budget represents the beginning of our efforts 
to change that and to move funds that had migrated elsewhere 
back to the State Department budget. One-quarter of the 
additional $6 billion in this budget for Iraq, Pakistan, and 
Afghanistan is for programs previously funded through the 
Defense Department, including Iraqi police training and the 
Pakistan Counterinsurgency Capability Fund. As we grow our 
civilian capacity, we are going to have to defend civilian 
budgets for programs that are literally vital to our security 
no matter how they are funded.
    As we discussed last year, I believe that Congress ought to 
get back into the business of writing authorizing legislation. 
Senator Lugar and I have recently introduced legislation 
authorizing the State Department's management and operations 
and passed the Foreign Assistance Revitalization and 
Accountability Act out of this committee.
    Madam Secretary, I am pleased to support your budget 
request for robust funding for the international affairs 
budget, and I look forward to hearing from you, as I know all 
the members of the committee do here, on a full range of 
foreign policy challenges, which is always what these hearings 
take advantage of.
    For my part, if I can just say very, very quickly, I am 
really pleased to see that this budget includes a 38-percent 
increase in funding to address international climate change, 
especially in the wake of Copenhagen. I want to just say 
something about that.
    A lot has been said about what wasn't accomplished at 
Copenhagen. But the fact is that all the parties who went there 
knew there wasn't going to be, nor was there an expectation of 
a final treaty or agreement. What was accomplished has not 
received the attention that it deserves.
    The Copenhagen Accord united the world's foremost emitters 
and most of the rest of the nations behind an unprecedented new 
commitment to reduce emissions and report on their progress. 
And for the first time, nations agreed to financing targets. We 
were able to convince others to take action in large part 
because we made commitments ourselves.
    President Obama told the world, ``I am confident that 
America will fulfill the commitments that we have made--cutting 
our emissions in the range of 17 percent by 2020, and by more 
than 80 percent by 2050 in line with final legislation. We have 
charted our course, we have made our commitments, and we will 
do what we say.'' And those are the words of the President.
    As a country, we have put our credibility on the line, and 
I look forward to working with members of this committee and 
others, as we are now with Senator Graham, Senator Lieberman, 
and others, to get a comprehensive energy, jobs, energy 
independence, pollution reduction, and climate bill through the 
Senate.
    Madam Secretary, I am eager to hear your thoughts about how 
you think we can keep our word on the range of issues, not just 
from the Copenhagen Accord, but the adaptation assistance and 
the other issues. Needless to say, there are more issues on the 
table perhaps than at any time in recent memory, all of them 
consequential--from Iran to North Korea, the Middle East--and 
you are engaged in all of them. We look forward to having a 
good discussion with you about them today.
    Let me just thank you again on behalf of the country. I 
think all of us are appreciative of your extraordinary 
expenditure of energy. And we are particularly grateful to your 
Department and others for the emergency response to Haiti. It 
has been a tremendous effort.
    I want to thank many of the people that we have worked with 
directly who have helped families through a very difficult 
period, some in Massachusetts, and elsewhere. We are grateful 
to you and to our country, really, for the response. It has 
been a remarkable response and, I think, appropriate.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
Secretary Clinton. We are pleased to have the opportunity to 
examine not only the State Department budget, but also the 
priorities and policies reflected in its numbers.
    Our discussion of the foreign affairs budget comes at a 
time of great domestic economic stress. Many American families 
are dealing with lost jobs, falling income, and declining 
security. Our Nation is also attempting to address a national 
debt situation that limits our policy options and could have 
grave economic consequences in the near future. In this 
context, our foreign affairs budget must efficiently deal with 
our most immediate problems, as well as address negative trends 
that could undermine the breathing space necessary to promote 
domestic recovery and solvency.
    We should start with the recognition that secure 
international conditions are inherently fragile. We have to 
expect and prepare for international political, economic, and 
security shocks such as wars, terrorist attacks, energy 
disruptions, and even natural disasters, as we have seen in 
Haiti. World events can undercut our own economy's ability to 
recover and necessitate emergency expenditures that put further 
pressure on the national budget. This is especially true at a 
time of global economic stress. We know from history that 
societies living with severe economic conditions often do not 
make good political choices. Economic desperation can spawn 
ethnic rivalries, demagogic governments, extremism, and violent 
conflict within and between nations.
    The United States is heavily engaged in Afghanistan, Iraq, 
and Pakistan. These front-line states will require substantial 
resources, and it is vital that these funds are used 
effectively. Each of these countries presents unique and 
difficult transparency challenges. If our investments are to be 
successful, we must ensure that strong implementation, 
monitoring, and review mechanisms are in place that can account 
for the vast amounts projected to be spent in the coming years.
    Beyond areas of heavy diplomatic and military presence, the 
most critical expenditures are those that prevent problems from 
spiraling into crises. In my judgment WMD proliferation, energy 
insecurity, and global food shortages are the underlying 
threats most likely to create the type of instability that can 
lead to conflict and thereby derail our domestic agenda. I know 
the President and Secretary Clinton share my concern with these 
problems.
    I appreciate that additional funding is being devoted to 
the State Department's nonproliferation and energy diplomacy 
activities. Countering the spread of biological, nuclear, and 
chemical threats requires robust engagement around the globe, 
and Department nonproliferation experts are making important 
contributions in the former Soviet States, Iraq, and elsewhere. 
State Department efforts to expand the Nunn-Lugar programs in 
front-line states will only grow in the years ahead. Likewise, 
bolstering multilateral nonproliferation mechanisms, such as 
the International Atomic Energy Agency is a vital contribution 
to meeting the threats of WMD.
    The Foreign Relations Committee has paid much attention to 
the impacts of energy security on our foreign policy. I am 
encouraged that more emphasis is being given to energy concerns 
at high levels of the State Department. Our energy crisis is 
not defined by any single threat. Our current energy mix 
produces near-term concerns of foreign oil supply manipulation 
and price volatility, which will grow over time. Wasted 
economic gains from attainable energy efficiencies are a drag 
on economic recovery. We are also concerned about the possible 
crises that could occur if dramatic climate change takes hold. 
While some threats share solutions, others require us to 
prioritize policies commensurate with the relative immediacy of 
these threats.
    I especially appreciate the strong and visible commitment 
that Secretary Clinton has made to addressing global hunger. 
Unless nations work together to reverse negative trends in 
agricultural productivity, we may experience frequent food 
riots and perhaps warfare over food resources. We almost 
certainly will have to contend with mass migration and 
intensifying global health issues stemming from malnutrition.
    With these factors in mind, Senator Casey and I introduced 
the Global Food Security Act last year. We are hopeful that it 
will serve both as a practical starting point for improving the 
efficiency of U.S. and global efforts in this area and as a 
rallying point for those who agree that food security should 
play a much larger role in our national security strategy.
    The Lugar-Casey bill, which was passed by the Foreign 
Relations Committee on May 13, 2009, is the product of more 
than 2 years of study involving numerous foreign country visits 
and consultations with agriculture and development experts.
    Over the course of the last year, the administration, under 
Secretary Clinton's leadership, has undertaken its own 
intensive study of food security. As we have compared notes 
with administration officials, it has become clear that the 
Secretary's Global Hunger and Food Security Initiative has 
reached many of the same conclusions as we reached on the most 
efficient ways to expand food production and address hunger. 
Both the Lugar-Casey bill and the Global Hunger and Food 
Security Initiative focus on increasing agricultural 
productivity and incomes, promoting research and technology, 
being attentive to the special role of women farmers, and 
emphasizing the nutritional needs of children. Both initiatives 
would construct partnerships with host country governments, 
indigenous organizations, institutions of higher learning, and 
the private sector. I look forward to working with Secretary 
Clinton to pass the Global Food Security bill.
    I would also mention the importance of fixing our foreign 
assistance programs. If we are to avoid inefficient 
experimentation, USAID must have a decisionmaking role and the 
capacity to evaluate programs and disseminate information about 
best practices and methods. These goals are reflected in the 
bill that Senator Kerry and I introduced last year, S. 1524, 
the Foreign Assistance Revitalization and Accountability Act.
    I am eager to review the State Department's Quadrennial 
Diplomacy and Development Review and the National Security 
Council's Presidential Study Directive on Development when they 
are ready. But in the meantime, Congress should be offering its 
own ideas on how to improve our Government's development 
capacity. And the Kerry-Lugar foreign assistance reform bill 
has strong support in the aid community and is cosponsored by a 
bipartisan group of 24 Senators, 11 of whom are members of the 
Foreign Relations Committee. This level of backing for a bill 
related to foreign assistance is extremely rare. The bill has 
garnered wide support because it strengthens USAID and 
emphasizes greater evaluation and transparency of our foreign 
assistance programs to ensure we maximize the dollars that are 
available. I am hopeful that the executive branch will 
recognize that a bill cosponsored by a majority of the Senate 
Foreign Relations Committee and nearly a quarter of the full 
Senate should be given substantial weight in its review 
process.
    We appreciate very much that Secretary Clinton is with us 
today. We look forward to our discussion on these and other 
matters.
    And I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    We do have a quorum now. Let me move quickly to the agenda 
so we can get to the Secretary's testimony.

    [Recessed.]

    The Chairman. Madam Secretary, thank you for letting us do 
that, and we look forward to your testimony. I appreciate it.

   STATEMENT OF HON. HILLARY R. CLINTON, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you very much, Mr. Chairman, 
Senator Lugar, members of the committee. It is a real pleasure 
to be back here in the Senate, to be with all of you and 
participate in this important hearing.
    When I was last here to discuss our budget, I emphasized my 
commitment to elevating diplomacy and development as core 
pillars of American power. And since then, I have been 
heartened by the bipartisan support of this committee and the 
rest of Congress.
    I want to thank the chairman and the ranking member and all 
of the members for your bipartisan support in moving State 
Department nominees. One hundred fourteen were confirmed in 
2009. We are now looking to get up and get nominated for your 
consideration the leadership team at AID, and we are very 
grateful for the expeditious support, and we hope they can move 
quickly when they hit the floor. But I thank you very much, Mr. 
Chairman.
    And let me also take this opportunity to express 
appreciation on behalf of the men and women who work every day 
at the State Department, at USAID, here in our country and 
around the world to put our foreign policy in action.
    The budget we are presenting today is designed to protect 
America and Americans and to advance our interests and values. 
Our fiscal year 2011 request for the State Department and USAID 
totals $52.8 billion. That is a $4.9 billion increase over 
2010.
    But as the chairman has pointed out, of that increase, $3.6 
billion will go to supporting efforts in front-line states--
Afghanistan, Pakistan, and Iraq. Other funding will grow by 
$1.3 billion, which is a 2.7-percent increase that will help 
address global challenges, strengthen partnerships, and ensure 
that the State Department and USAID are equipped with the right 
people and resources.
    Over the past 6 weeks in Haiti, we have been reminded yet 
again of the importance of American leadership. I am very proud 
of what our country has done, and we will continue to work with 
our Haitian and international partners to address ongoing 
suffering and transition from relief to recovery.
    But I am also acutely aware that this is a time of great 
economic strain for many of our fellow Americans. As a former 
Senator, I know what this means for the people you represent 
every single day.
    So, for every dollar we spend, as Senator Lugar said, we 
have to show results. That is why this budget must support 
programs vital to our national security, our national 
interests, and our leadership in the world, while guarding 
against waste, duplication, irrelevancy. And I believe that we 
have achieved those objectives in this budget.
    Now, these figures are more than numbers on a page. They 
tell the story of challenges we face and the resources needed 
to overcome them. We are fighting two wars that call on the 
skill and sacrifice of our civilians, as well as our troops.
    We have pursued a dual-track approach to Iran that has 
exposed its refusal to live up to its responsibilities and 
helped us achieve a new unity with our international partners. 
Iran has left the international community little choice but to 
impose greater costs for its provocative steps, and we are now 
working actively with our partners to prepare and implement new 
measures to pressure Iran to change its course.
    We have also achieved unprecedented unity in our response 
to North Korea's provocative actions, even as we leave the door 
open for a restart of the six-party talks. And we are moving 
closer by the day to a fresh nuclear agreement with Russia, one 
that advances our security while furthering President Obama's 
long-term vision of a world without nuclear weapons.
    With China, we seek areas of common purpose while standing 
firm where we differ. We are making concrete our new beginning 
with the Muslim world. We are strengthening partnerships with 
allies in Europe and Asia, with friends in our hemisphere, and 
with countries around the world, from India to Indonesia to 
South Africa, Brazil, and Turkey. And we are working, under the 
leadership of former Senator George Mitchell, to end the 
impasse between Israelis and Palestinians.
    At the same time, we are developing a new architecture of 
cooperation to meet transnational global challenges like 
climate change and the use of our planet's oceans. With regard 
to the latter, I want to reiterate my support for U.S. 
accession to the Convention on the Law of the Sea. Our country 
stands to gain immensely from this treaty. Everything we know 
from what we are picking up with respect to other countries' 
use of the tools under the Law of the Sea demonstrates that we 
will lose out in economic and resource rights, in terms of 
environmental interests, and national security.
    In so many instances, our national interest and the common 
interest converge. We are promoting human rights from Africa to 
Asia to the Middle East, the rule of law, democracy, Internet 
freedom. We are fighting poverty, hunger, and disease, and we 
are working to ensure that economic growth is broadly shared, 
principally by addressing the role of girls and women.
    And I want to applaud the chairman and the subcommittee 
chairwoman, Barbara Boxer, for putting this issue on the map of 
the Foreign Relations Committee.
    Now, our agenda is ambitious because our times demand it. 
America is called to lead. I think we all believe that. And 
therefore, we need the tools and the resources in the 21st 
century to exercise that leadership wisely and effectively. We 
can bury our heads in the sand and pay the consequences later, 
or we can make hard-nosed, targeted investments now. Let me 
just highlight three areas where we are making significant new 
investments.
    First, the security of front-line states. In Afghanistan, 
we have tripled the number of civilians on the ground. 
Civilians are embedded with our troops in Marjah, in the combat 
operations going on. As soon as an area is cleared, they are 
part of the American team, along with our international allies, 
who go in to hold and build.
    Our diplomats and development experts are helping to build 
institutions, expand economic opportunities, and provide 
meaningful alternatives for insurgents ready to renounce 
violence and join their fellow Afghans in the pursuit of peace.
    In Pakistan, our request includes $3.2 billion to combat 
extremism, promote economic development, strengthen democratic 
institutions, and build a long-term relationship with the 
Pakistani people. That is the vision of the Kerry-Lugar-Berman 
initiative, and this includes funding for that. And I want to 
thank you again, Mr. Chairman and Senator Lugar, for your 
leadership.
    Our request also includes a 59-percent increase in funding 
for Yemen, Senator Feingold, to help counter the extremist 
threat and build institutions and economic opportunity.
    In Iraq, we are winding down our military presence and 
establishing a more normal civilian mission. Our civilian 
efforts will not, and cannot, mirror the scale of our military 
presence, but rather, they must provide assistance consistent 
with the priorities of the Iraqi Government.
    So our request includes $2.6 billion for Iraq. These are 
resources that will allow us to support the democratic process 
and ensure a smooth transition to civilian-led security 
training and operational support.
    As these funds allow civilians to take full responsibility 
for programs, the Defense budget for Iraq will be decreasing by 
about $16 billion. That is a powerful illustration of the 
return on civilian investment and illustrates the point that 
the chairman was making that this is really part of the 
security budget for the United States and should be seen as 
part of that whole.
    We are blessed with the best troops in the world, as we 
have seen time and again. But we also need to give our civilian 
experts the resources to do the civilian jobs, and this budget 
takes a step in that direction. It includes $100 million for a 
State Department complex crisis fund, replacing the 1207 fund 
through which the Defense Department directed money toward 
crisis response. And it includes support for the Pakistan 
Counterinsurgency Capability Fund, which previously fell under 
the Defense Department as well.
    Secretary Gates and I are working literally hand in hand 
and are committed to having a seamless relationship between the 
Defense Department and the State Department and USAID to 
further American security.
    The second major area is investing in development. And this 
budget makes targeted investments in fragile societies, which, 
in our interconnected world, bear heavily on our own security 
and prosperity. These investments are a key part of our effort 
to get ahead of crisis rather than just responding to it, 
positioning us to deal effectively with threats and challenges 
that lie ahead.
    The first of these is in health. Building on our success in 
treating HIV, malaria, and tuberculosis, our Global Health 
Initiative will invest $63 billion over 6 years, starting with 
$8.5 billion in FY11, to help our partners address specific 
diseases and, equally importantly, build strong, sustainable 
health systems as they do.
    This administration has also pledged to invest at least 
$3.5 billion in food security over 3 years, and this year's 
request includes $1.6 billion, of which $1.2 billion is funded 
through the State Department. And I greatly appreciate the work 
that Senator Lugar and Senator Casey have done to help target 
the United States effort when it comes to global hunger and 
food security. So this funding will focus on countries that 
have developed effective, comprehensive strategies where 
agriculture is central to prosperity and hunger remains 
widespread.
    On climate change, we could not agree with the chairman 
more. Therefore, we have requested $646 million to promote the 
United States as a leader in green technology and to leverage 
other leaders' cooperation, including through the Copenhagen 
Accord, which, for the first time--to underscore the chairman's 
point--brings developing and developed countries together.
    This is such an important initiative. We need leadership 
from the rest of the world. This is an opportunity for us to 
push this initiative and to ensure that we have support to give 
to core climate change activities and to spread the burden 
among other countries so that they share part of the 
responsibility in meeting this global challenge.
    The budget also includes $4.2 billion for humanitarian 
assistance programs. Our efforts in Haiti have made clear that 
State and USAID must be able to respond quickly and 
effectively.
    All of these initiatives are designed to enhance American 
security, help people in need, and give the American people a 
strong return on their investments. Our aim is not to create 
dependency. We don't want to just pass out fish. We want to 
teach people to fish. And we want to help our partners devise 
solutions they can sustain over the long term. And essential to 
this is a focus on advancing equality and opportunity for women 
and girls. They are the key drivers for economic and social 
progress.
    And that brings me to the third area that I want to 
highlight. None of this can happen if we do not recruit, train, 
and empower the right people for the job.
    The State Department and USAID are full of talented, 
committed public servants. But unfortunately, we have too often 
failed to give them the tools they need to carry out their 
missions on the ground. Rather than building their expertise, 
we have too often relied on contractors, sometimes with little 
oversight and often with greater cost to the American taxpayer.
    This budget will allow us to expand the Foreign Service by 
over 600 positions, including an additional 410 positions for 
the State Department and 200 for USAID. It will also allow us 
to staff the stand-by element of the Civilian Reserve Corps, a 
critical tool for responding to crises.
    Now, while deploying these personnel generates new expenses 
in some accounts, it does reduce expenses in others by changing 
the way we do business. We are ending an overreliance on 
contractors and finding opportunities to save money by bringing 
these functions into Government and improving oversight.
    So, Mr. Chairman, one thing should be very clear from this 
budget. The State Department and USAID are taking a lead in 
carrying out the United States foreign policy and national 
security agenda. As we finish the first Quadrennial Diplomacy 
and Development Review and as the White House finishes the 
coordination of the Presidential Directive, we have a unique 
opportunity to define the capabilities we need and then to 
match resources with priorities.
    The QDDR will help ensure that we are more effective and 
accountable. And I want to thank all of you for your individual 
contributions on so many of these issues that are important not 
only to your constituents, but to our country and the world.
    And Mr. Chairman, I look forward to continuing to work 
closely with this committee, and I would be pleased to take 
your questions.
    [The prepared statement of Secretary Clinton follows:]

   Prepared Statement of Secretary of State Hillary Rodham Clinton, 
                  Department of State, Washington, DC

    Chairman Kerry, Senator Lugar, and members of the committee, it is 
a pleasure to be with you today. When I was last here to discuss our 
budget, I emphasized my commitment to elevating diplomacy and 
development as core pillars of American power. Since then, I have been 
heartened by the bipartisan support of this committee and the rest of 
Congress. Let me take this opportunity to thank you, on behalf of the 
men and women who work every day around the world to put our foreign 
policy into action.
    The budget we are presenting today is designed to protect America 
and Americans and to advance our interests. Our fiscal year 2011 
request for the State Department and USAID totals $52.8 billion--a $4.9 
billion increase over 2010. Of that increase, $3.6 billion will go to 
supporting efforts in ``frontline states''--Afghanistan, Pakistan, and 
Iraq. Other funding will grow by $1.3 billion, a 2.7-percent increase 
that will help address global challenges, strengthen partnerships, and 
ensure that the State Department and USAID are equipped with the right 
people and resources.
    Over the past 6 weeks in Haiti, we have been reminded yet again of 
the importance of American leadership. I'm proud of what our country 
has done, and we continue to work with our Haitian and international 
partners to address ongoing suffering and transition from relief to 
recovery.
    This is a time of great economic strain for many Americans. As a 
former Senator, I know what this means for the people you represent. 
For every dollar we spend, we have to show results. That is why this 
budget must support programs vital to our national security, our 
national interests, and our leadership in the world, while guarding 
against waste. I believe it achieves those objectives.
                             our priorities
    These figures are more than numbers on a page. They tell the story 
of challenges we face and the resources we need to overcome them.
    We are fighting two wars that call on the skill and sacrifice of 
our civilians as well as our troops. We have pursued a dual-track 
approach to Iran that has exposed its refusal to live up to its 
responsibilities and helped us achieve a new unity with our 
international partners. Iran has left the international community 
little choice but to impose greater costs for its provocative steps. We 
are now working actively with our partners to prepare and implement new 
measures to pressure Iran to change its course.
    We have also achieved unprecedented unity in our response to North 
Korea's provocative actions, even as we leave the door open for a 
restart of six-party talks. And we are moving closer to a fresh nuclear 
agreement with Russia--one that advances our security while furthering 
President Obama's long-term vision of a world without nuclear weapons.
    With China, we are seeking areas of common purpose while standing 
firm where we differ. We are making concrete our new beginning with the 
Muslim world. We are strengthening partnerships with allies in Europe 
and Asia, with friends in our hemisphere, and with countries around the 
world, from India to Indonesia to South Africa, Brazil, and Turkey. And 
we are working to end the impasse between Israelis and Palestinians.
    At the same time, we are developing a new architecture of 
cooperation to meet global challenges like climate change and the use 
of our planet's oceans. With regard to the latter, I want to reiterate 
my support for U.S. accession to the Convention on the Law of the Sea. 
Our country stands to gain immensely from the treaty--in terms of 
economic and resource rights, in terms of environmental interests, in 
terms of national security.
    In so many instances, our national interest and the common interest 
converge, and so from our own hemisphere to Africa, Asia, and the 
Middle East, we are promoting human rights, the rule of law, democracy, 
and Internet freedom; we are fighting poverty, hunger, and disease; and 
we are working to ensure that economic growth is broadly shared.
    Our agenda is ambitious because our times demand it. America is 
called to lead--and we need the tools and resources to exercise our 
leadership wisely and effectively. We can bury our heads in the sand 
and pay the consequences later, or we can make hard-nosed, targeted 
investments now--addressing the security challenges of today while 
building a foundation for security and prosperity in the future.
    Let me now highlight the three areas where we are making 
significant new investments.
                         investing in security
    First, the security of frontline states.
    In Afghanistan, we have tripled the number of civilians on the 
ground, and this presence will grow by hundreds more with the $5 
billion in this budget. Our diplomats and development experts are 
helping build institutions, expand economic opportunities, and provide 
meaningful alternatives for insurgents ready to renounce violence and 
join their fellow Afghans in the pursuit of peace.
    In Pakistan, our request includes $3.2 billion to combat extremism, 
promote economic development, strengthen democratic institutions, and 
build a long-term relationship with the Pakistani people. This includes 
funding of the Kerry-Lugar-Berman initiative, and I want to thank you, 
Mr. Chairman and Senator Lugar, for your leadership on this 
legislation. Our request also includes a 59-percent increase in funding 
for Yemen, to help counter the extremist threat and build institutions 
and economic opportunity.
    In Iraq, we are winding down our military presence and establishing 
a more normal civilian mission. Our civilian efforts will not and 
cannot mirror the scale of our military presence, but rather provide 
assistance consistent with the priorities of the Iraqi Government. Our 
request includes $2.6 billion for Iraq--resources that will allow us to 
support the democratic process and ensure a smooth transition to 
civilian-led security training and operational support. As these funds 
allow civilians to take full responsibility for programs, the Defense 
budget for Iraq will be decreasing by about $16 billion--a powerful 
illustration of the return on civilian investment.
    We are blessed with the best troops in the world, as we have seen 
time and again in today's wars. But we also need to give our civilian 
experts the resources to do civilian jobs. This budget takes a step in 
that direction. It includes $100 million for a State Department complex 
crises fund--replacing the 1207 fund through which the Defense 
Department directed money toward crisis response. And it includes 
support for the Pakistan Counterinsurgency Capability Fund, which 
previously fell under the Defense Department as well.
                        investing in development
    The second major area is investing in development. This budget 
makes targeted investments in fragile societies--which, in our 
interconnected word, bear heavily on our own security and prosperity. 
These investments are a key part of our effort to get ahead of crises 
rather than just responding to them, positioning us to deal effectively 
with the threats and challenges that lie ahead.
    The first of these investments is in health. Building on our 
progress treating HIV, malaria, and tuberculosis, our Global Health 
Initiative will invest $63 billion over 6 years, starting with $8.5 
billion in FY11, to help our partners address specific diseases and 
build strong, sustainable health systems as they do so.
    The administration has also pledged to invest at least $3.5 billion 
in food security over 3 years, and this year's request includes $1.6 
billion, of which $1.2 billion is funded through the State Department. 
This funding will focus on countries that have developed effective, 
comprehensive strategies, where agriculture is central to prosperity 
and hunger remains widespread.
    On climate change, our request of $646 million seeks to promote the 
United States as a leader in green technology and to leverage other 
countries' cooperation--including through the Copenhagen Accord, which 
for the first time brings developed and developing countries together 
on this challenge. This is part of the administration's total request 
of $1.4 billion to support core climate-change activities in developing 
nations.
    Our request also includes $4.2 billion for humanitarian assistance 
programs. Our efforts in Haiti have made clear that State and USAID 
must be able to respond quickly and effectively to human tragedies.
    These initiatives are designed to enhance American security, help 
people in need, and give the American people a strong return on their 
investment. Our aim is not to create dependency, but to help our 
partners devise solutions they can sustain over the long term. 
Essential to this is a focus on advancing equality and opportunity for 
women and girls, who are the key drivers of economic and social 
progress in the developing world.
                investing in the right people and tools
    That brings me to our third area of investment. None of this can 
happen if we do not recruit, train, and empower the right people for 
the job.
    The State Department and USAID are full of talented and committed 
public servants, but we have too often neglected to give them the tools 
they need to carry out their missions on the ground. Rather than 
building their expertise, we have too often relied on contractors, 
sometimes with little oversight.
    This budget will allow us to expand the Foreign Service by over 600 
positions, including an additional 410 positions for the State 
Department and 200 for USAID. It will also allow us to staff the 
standby element of the Civilian Reserve Corps, a crucial tool for 
responding to crises.
    While deploying these personnel generates new expenses in some 
accounts, it will reduce expenses in others by changing the way we do 
business. We are ending an overreliance on contractors and finding 
opportunities to save money by bringing functions into government and 
improving oversight.
                           a year of results
    One thing should be very clear from this budget: the State 
Department and USAID are taking a lead in carrying out the United 
States foreign policy and national-security agenda. As we finish the 
first Quadrennial Diplomacy and Development Review, we have a unique 
opportunity to define the capabilities we need and to match resources 
with priorities. This budget aligns our investments with the strategic 
imperatives of our time.
    The QDDR will also help ensure that we are more effective and 
accountable. Jack Lew, the first Deputy Secretary of State for 
Management and Resources, has put his skill to work in developing this 
budget and in reviewing it over and over to make sure that every item 
is economical and effective.
    At a time of change and challenge at home and abroad, these 
investments will enhance the security of Americans, assure the future 
American leadership, and help build the foundations of peace, 
stability, and prosperity in the years ahead. I look forward to working 
with all of you as we move forward, and I would be pleased to take your 
questions.

    The Chairman. Thank you very much, Madam Secretary.
    We will do 7-minute rounds.
    Recently, I came back from Pakistan, and one of the things 
that they repeatedly brought to my attention was the fragility 
of the economy, but also the sort of balancing act that they 
have to perform, which you are well aware of, in terms of their 
public opinion, their relationship with the United States, and 
what they are being called on to do.
    They pointed out that they are about to undergo another 
round of IMF negotiations. And the pressures already of the IMF 
restraints have been significant in terms of price increases 
and other things that their citizens are feeling. I wonder if 
you would comment on what other steps we might contemplate that 
can have an impact?
    We have a very significant amount of money going in. We 
have got additional assistance, the $3.2 billion you have 
talked about. But it strikes me that there is a broader 
economic challenge and a provision of services challenge to 
their people that is going to have a profound impact on the 
outcome of what is happening in western Pakistan and, 
ultimately, Afghanistan.
    And you are no stranger, Madam Secretary, to our thinking 
that what happens in Pakistan is going to be almost as 
important, if not far more important to the outcome of 
Afghanistan and some of what happens on the ground in 
Afghanistan. Therefore, should we be thinking about a free 
trade agreement or a broader trade agreement or something that 
is going to send a stronger signal from us about the economic 
possibilities?
    Or should we work with the IMF to make sure that the next 
round doesn't result in unpalatable, unacceptable pressures on 
their citizens so that we undo the good that we are trying to 
do in all of these other efforts, I wonder?
    Secretary Clinton. Well, Chairman Kerry, you have asked one 
of the most important questions that we have to figure out how 
to answer. To the credit of the Pakistani Government and 
President Zardari, they have complied with the IMF conditions. 
They raised the price of wheat. They have raised the price of 
electricity. They have demonstrated a political will which has 
resulted in some positive economic outcomes for them.
    But they have a very difficult road to negotiate ahead of 
them for several reasons, and I will tell this committee what I 
told a group of Pakistani business leaders with whom I met when 
I was there. It was a very large, prestigious group, 
representing a broad cross-section of the Pakistan economy. And 
I told them that we did need to do more to promote trade, and I 
think the ROZs, the reconstruction opportunity zones, that 
legislation has been pending in the Senate. That would send a 
very strong signal to Pakistan. It would use trade instead of 
aid to promote economic growth.
    We have committed to some large signature energy projects 
because part of their economic challenge is keeping the power 
on and keeping those factories humming. And so, I have ordered 
a redirection of our aid so that we produce results that are in 
line with the needs and aspirations of the Pakistani people.
    I think we should explore additional opportunities that 
might increase more trade, remove more barriers. We could try 
it for a limited period of time, see what the results are, but 
I think the Pakistanis have to do more as well.
    And I told the business group, after we had finished 
talking about the aid we give and the support we are giving and 
the Kerry-Lugar initiative, Pakistan has one of the lowest tax 
rates in the world. They don't tax income. They don't tax land, 
and a lot of the wealth is held in these huge feudal estates.
    Some of you might have seen a program on television last 
night showing the failure to build schools, to staff schools, 
to equip schools. They have no public education system to speak 
of, and it is because the very well off, of whom there is a 
considerable number, do not pay their fair share for the 
services that are needed in health and education primarily.
    So I think there is more we could do and more the 
international community could do. But increasingly, Senator 
Kerry, I am looking for ways that the IMF, the World Bank, the 
United States as a donor, other donors can say to countries 
that want our help, ``You have a lot of rich people''--and 
those rich people make a lot of money out of their country, and 
yet the people of their country are mired in poverty--``And you 
are going to have to raise your tax GDP percentage rate from 7 
percent to 9 percent.''
    You know, United States, we fluctuate between 16 and 22 
percent. They don't have the resources or the opportunity to do 
that. But we can't continue to allow these countries' elite not 
to do their fair share for the people of their countries.
    The Chairman. Well, to their credit, I will say they are 
now in the midst of a significant legislative initiative and 
government initiative to do exactly that. And I know some of it 
is at your urging and other people's urging.
    One last question so I don't overly abuse the time here. 
But this is sort of a macroquestion that I would like to ask 
you. As you travel around as Secretary of State, you are 
engaged in any number of efforts to leverage our interests 
globally, whether it is arms control or economic interests or 
counterterrorism, et cetera, et cetera.
    I don't want to draw you into a fight. But the gridlock 
here in Washington and the inability of us to leverage our own 
economy and to begin to show the world signs of economic 
strength, I have certainly run into many questions as I travel 
around, ``Where is America going?''
    And I would like to know if you could maybe share with this 
committee--which is the appropriate place to think about this, 
or at least start to--as you talk to people, to what degree is 
our domestic situation, our financial situation, our lack of 
cohesion with respect to responses affecting our status and 
leverage and position as we try to pursue our interests on a 
global basis?
    Secretary Clinton. Well, Senator, you travel also, and you 
encounter the same questions and, to some extent, anxiety that 
I do as I travel. The world wants the United States to lead, 
even if that is not what they tell you or what they say to 
their own press. But they want us to lead. They look to us. 
They also look to us as the world's oldest democracy, and they 
want to see us produce results and solve problems.
    So I do think that we have to do a better job in 
demonstrating what we know is our core strength, which is this 
extraordinary country that we all love and have the privilege 
of serving. It is capable of doing anything once we put our 
minds to it.
    But I think that this is not a partisan issue. It is not an 
executive versus legislative issue. It is really an American 
issue. And you mentioned climate change at the very beginning 
of your remarks, and I cannot say how important it would be--I 
cannot overstate it that we do what we can to show that we are 
a leader in this area.
    I would say for political reasons, global political 
reasons, some of you may have read accounts of the President 
and I kind of crashing a meeting that the Chinese, the Indians, 
the Brazilians, and the South Africans were having without us 
to try to figure out how they could avoid some of the 
questions, the hard questions we were asking. But at the end of 
a tough negotiating session, they agreed to this Copenhagen 
Accord.
    And this accord is the first time in probably since post-
World War II that there has been any international agreement 
and the very first time that developing and developed countries 
have assumed the kind of equal responsibilities to show up, 
sign up, report, and verify what they are going to do. So the 
political imperative for the United States to lead, to be seen 
as leading, to manage this incredibly complex, interconnected 
world I think is absolutely paramount.
    Second, on the facts on climate change, I know that Senator 
Kerry, Senator Boxer, others of you have been really leading on 
this. This clean energy economy is going to be captured by 
other countries.
    I mean, the idea that we, the intellectual capital of the 
world that invented so many of these component parts and 
processes, could be outflanked and outproduced and outgenerated 
in terms of income by other countries, led principally by 
China, is deeply disturbing to me. This is an industry of the 
future, and we have jobs that are going to go by the wayside if 
we are not prepared to get in there.
    Now, to me, the domestic progress that was made in 2009 
with passing a House bill and what Senator Boxer did and what 
you are doing on a bipartisan basis gives us a foundation. But 
this is a political issue, and this is an economic issue.
    People also know it is an environmental issue and a moral 
issue, but I focus on what are the strategic interests that the 
United States has? We have to continue to show leadership on a 
global issue, and we have to get our economy moving in a 
direction where we are going to reap the benefits.
    The Chairman. Thank you very much, Madam Secretary.
    Senator Lugar.
    Senator Lugar. Madam Secretary, I have three short items 
and two longer ones. I will commence with the short ones. First 
of all, I very much appreciate your commendation of the efforts 
of your Department and, likewise, our shared efforts in 
crafting the Lugar-Casey bill on food security. I am hopeful 
that the recent work between your staff and the staff of this 
committee will continue----
    Secretary Clinton. Yes.
    Senator Lugar [continuing]. Intensively in the days and 
weeks ahead. Perhaps the chairman will entertain another 
hearing on the suggestions we have both made, so we can move 
this along. The Lugar-Casey bill has passed out of our 
committee, and I think it has broad support in the Congress as 
a whole.
    Second, I just note that the budget calls for 8 to 10 
American centers of public diplomacy, and it is not clear where 
those would be located. You will have to determine that.
    The Chinese, according to our records, have now established 
60 Confucius centers here in the United States, but they are 
permitting only four of our centers to be built in China. I 
call this to your attention so that you may consider potential 
negotiations with Chinese friends as we try to extend this 
important idea of diplomacy centers.
    Furthermore, I appreciate your mention of the Law of the 
Sea Treaty. I have just come from a conference in which Russia 
and Russian aspirations were discussed. It was pointed out that 
with the melting of the Arctic, huge oil reserves, perhaps 
larger than those of Saudi Arabia have been uncovered there. 
The Russians immediately sent a ship to the area and planted a 
flag. This was a grandiose gesture. It does not establish that 
they are going to be drilling shortly.
    But the fact is that this is going to be an area of huge 
contention, and there is a need to have some structure in place 
where American interests can come to the fore. The issue has 
always been sovereignty with regard to that, and sovereignty is 
the issue. But we have got to pin down our sovereignty. It is 
very important.
    Secretary Clinton. That is exactly----
    Senator Lugar. Let me just bring up the issue of plans to 
construct a new Embassy in London. In the past few days news 
reports and drawings of our proposed new $1 billion Embassy in 
London have been in the media. The thought is that the sale of 
three U.S.-owned properties in London, including Grosvenor 
Square Embassy, would net us at least $1 billion as an offset. 
Furthermore, we are refusing to pay the value-added tax 
assessed by Great Britain of 17 percent.
    How is the financing of this undertaking going? And what 
comments can you make regarding the need for the new $1 billion 
building, as well as this dispute over the value-added tax?
    Secretary Clinton. Thank you so much, Senator Lugar.
    Just very briefly, our staff looks forward to continuing to 
work with yours and that of this committee, and we want to 
deepen our partnership on global hunger and food security.
    On the Confucius centers, the Chinese Government provides 
each center with $1 million to launch, plus they cover 
operating expenses that exceed $200,000 per year. We don't have 
that kind of money in the budget. So we are limited in the 
numbers that we
can do. And we are also raising the issue of reciprocity with 
Chinese officials. So we are very aware of the concerns that 
you have pointed out.
    Thank you for what you said about the Law of the Sea. I 
could not agree with you more. The Law of the Sea provides 
commercial rights to the mining of what is in the seabeds of 
the territories that are claimable under sovereignty provisions 
in the treaty.
    I believe, with all my heart, that we are going to be so 
sorry if we don't get this up and going. And I know that you 
and the chairman are committed to doing so. And if there is 
more that we need to do from the administration side, Mr. 
Chairman, I will get it done. You give me the date, and we will 
have the people here to testify because I want everybody on the 
committee and the Congress to know what is at stake here.
    Finally, on the London Embassy, the construction of the 
Embassy is estimated at between $500 million to $700 million. 
It is self-financed because we are selling, I forget, maybe 11 
sites that we currently own because we are consolidating 
everything in one place. We have sold the old Grosvenor Square 
Embassy, although we will inhabit it until we move to the new 
Embassy.
    We have--also we are selling the Navy annex. We are going 
to realize a significant return on these sales, and the 
estimated cost of the construction, as I said, $500 million to 
$700 million. The site predeveloped was $426 million. The VAT 
is $46 million. So when you add it all up, because of the 
expense of doing business in London, among other reasons, it is 
going to be around $1 billion.
    And we are going to work very hard to get the VAT 
exception, but we are not coming in for any appropriations. 
This is really consolidating sites and becoming more efficient. 
And it will also be a green building, which we value. We think 
that is a great signal to send.
    Senator Lugar. Let me ask a final question, this one 
regarding the budget for Pakistan. There is obviously a 
submission for considerable expenditures this year. But I just 
want to inquire as to how expenditures are going from the 2010 
budget.
    The reason I ask this is that it appears expenditures are 
going slowly, and there are arguments as to how much should be 
channeled through NGOs as opposed to Pakistani officials, 
whether they be local, regional, or national. What are your 
feelings on the general progress of expenditures, whether they 
are part of the Kerry-Lugar $1.5 billion or otherwise?
    Secretary Clinton. We are making progress, Senator. But we 
are trying to be very thoughtful about how we distribute this 
money because it is a significant investment in Pakistan. We 
have spent money already on some of the energy projects, which 
we think are paying off, both in terms of what they are doing 
for the people of Pakistan, but also because we are connected 
to them.
    It is challenging because we do want to go through 
Pakistani institutions and NGOs wherever we can. But they have 
to be vetted, and we have to feel that they are going to 
perform in a way that I can come before this committee and 
report to you is in keeping with our efforts.
    So we can give you a very thorough readout of where the 
money is in the pipeline. But we have been spending a lot of 
time--and Jack Lew, I think, has talked with this committee 
about that--in making sure that we are spending it right, or as 
right as we can make it.
    Senator Lugar. That would be very helpful to keep us up to 
date. It is challenging, as you say, but it is critical in 
terms of maintaining the confidence of the American people in 
appropriations of this size with Pakistan and Afghanistan.
    Thank you very much.
    Secretary Clinton. Thank you.
    The Chairman. Thanks, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you again, Mr. Chairman, for 
holding this hearing. And Madam Secretary, just before I ask 
you some questions, I would just like to note that your 
identification of the 150 account as a national security budget 
is absolutely right on the mark.
    A stronger State Department is vital to our Nation's 
security, as is expanding and strengthening our work in such 
areas as economic development, good governance, respect for 
human rights, respecting the rule of law, and conflict 
resolution. By ensuring these programs are well funded, we can 
help our foreign partners combat the recruitment and operation 
of al-Qaeda while also strengthening and protecting our Nation 
here at home. So I appreciate that very much.
    Madam Secretary, on a number of subjects, I have noted that 
enhancing our diplomatic capacity is vital to our Nation's 
security. At the same time, as you well know, with skyrocketing 
deficits, we have to look at ways to eliminate wasteful or 
inefficient spending. And I think one glaring example of 
wasteful spending is a program that has for years now been 
found to be mismanaged and ineffective: Radio and TV Marti at 
the Broadcasting Board of Governors.
    Given the multiple GAO reports highlighting the many 
problems that plague the Office of Cuba Broadcasting and the 
urgent national security and human rights priorities we face 
around the world, can you please tell me why the administration 
wants to continue funding Radio and TV Marti near previous 
levels in FY 2011, and does this allocation of resources really 
match our national security and human rights priorities?
    Secretary Clinton. Well, Senator, we are taking a hard look 
at all of our aid programs for Cuba. Frankly, my goal is to be 
effective in what we spend so that it actually assists those 
Cubans who are fighting for freedom, who are standing up 
against the abuses of the Cuban Government. And we are looking 
at everything.
    I mean, I can't come before you and say that any program is 
sacrosanct because I want to be sure that we are getting our 
money's worth. And with new forms of communication and new ways 
of getting information into Cuba to help support the efforts of 
people on the ground, I think we have to look at this 
expenditure like every other one.
    Senator Feingold. Appreciate that answer.
    On a very different topic, in Africa, let us say a bit 
about our policy toward the Lord's Resistance Army, or the LRA, 
the rebel group from northern Uganda that is now operating 
across three countries--northeastern Congo, Southern Sudan, and 
the Central African Republic. It continues to kill at an 
alarming rate.
    As you probably know, I have authored a bill that now has 
63 cosponsors and which requires more strategic attention and 
resources to help address this violence. And Madam Secretary, 
without sort of getting into all the weeds of this, how does 
responding to and seeking to end the LRA's reign of terror 
throughout the region fit into the fiscal year 2011 budget? And 
does the administration have any kind of a specific plan and 
dedicated resources to help address this issue?
    Secretary Clinton. Senator, we are deeply concerned and 
share your views about protecting civilians who have been 
suffering at the hands of the Lord's Resistance Army now for 
years in Southern Sudan and the DRC and Central African 
Republic. We have provided support to improve the effectiveness 
of military responses to the LRA. We have helped to support and 
supply some of the militaries in the area.
    Thus far, $6.4 million has been provided. Additional funds 
will be notified to Congress soon. Resources have come from 
reimbursements from the U.N. for U.S. support for peacekeeping 
operations. We believe our support of these operations has 
helped to degrade the capacity of the LRA.
    We have encouraged the military forces seeking to defeat 
the LRA and the U.N. peacekeeping missions in the region to put 
a very high priority on civilian protection. There needs to be 
better coordination, information, and intelligence-sharing. As 
you know, we tried that once, very unfortunately, not to the 
result we were seeking. But we are going to continue to work 
with existing militaries and U.N. peacekeepings.
    I want to be specific here because we have also provided 
assistance for civilian victims in the DRC, CAR, Southern 
Sudan--$1.7 million for NGOs in Southern Sudan, $1.1 million to 
the International Organization for Migration for relocation 
efforts in Southern Sudan, $1 million to the World Food 
Programme for U.N. humanitarian air service in Central African 
Republic, and of course, contributions to the UNHCR.
    You know, I have been following the Lord's Resistance Army 
for more than 15 years. I just don't understand why we cannot 
end this scourge. And we are going to do everything we can to 
provide support we believe will enable us to do that.
    Senator Feingold. Thank you for that commitment.
    Madam Secretary, I have concerns about supplemental 
spending bills, given that they fall outside of the normal 
budget process. But in this case, I would like to ask about the 
INCLE funds requested for Pakistan in the FY 2010 supplemental, 
the majority of which will go toward training and other support 
for Pakistani police, including to do such things as to better 
confront the spread of extremism.
    Given the documented problems of police abuse in Pakistan 
from your own State Department human rights report, including 
allegations of torture, rape, and extrajudicial killings and 
continuing impunity for such crimes, and given the latest 
report's caution that ``corruption within the police was 
rampant,'' what efforts are being taken to ensure that our 
assistance to the police forces does not inadvertently end up 
fueling the spread of extremism, rather than addressing the 
problems we sought to address?
    Secretary Clinton. Well, Senator, this is something that we 
are very focused on because, obviously, we have both legal and 
moral requirements as to how money that we provide to anyone is 
expended and what is done under the rubric of that kind of aid 
program. And what we have done is provide training, provide 
support to the Pakistanis so that they understand what we 
expect from them, what we are looking to see.
    We have worked with the Pakistani military to try to better 
create more accountability, and we have asked that they respond 
whenever any issue is raised with us. I can't sit here and say 
that we know everything that is going on. But we are making a 
concerted effort to try to provide more oversight and expect 
more accountability in these funds.
    Senator Feingold. Thank you so much, Madam Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    I appreciate your professionalism in representing our 
country all over the world. The more I delve into foreign 
policy, the more I believe you probably have the hardest job in 
the administration.
    A couple of points. First, I want to thank you for your 
leadership in Honduras. As you know, that was a situation that 
appeared to be moving out of control, and I think you and your 
Department have got it on a good track, trying to restore 
relationships within and around Honduras. I get very good 
reports there from what the State Department is doing.
    Let me just mention a couple of things. In Iran, obviously, 
that is a big issue. My concern is timing. You have, I think, 
taken an international leadership role in, I think, raising the 
pressure levels in Iran. But in my conversations with people in 
Israel and their concern that--well, my concern is that we may 
be only a few months away from some type of action that could 
destabilize the region.
    And I don't sense in the Congress the urgency of timing 
here of what we need to do and how quickly. And again, I 
appreciate you taking the sanction idea a step further, but I 
would like to hear a comment there and just ask for your 
comment in a few other areas.
    One, and you have mentioned, and several others have 
mentioned, human rights. And I have long been a supporter of 
engagement with countries like China and trade with China, but 
it seems increasingly over the last year or two that human 
rights, religious freedom in China, Egypt, India, Vietnam, 
other countries, more and more reports that there is less 
religious tolerance, that there is more problems. And perhaps 
that is just a matter of what gets to the news, but I am 
hearing from a lot of people directly in my office that are 
suggesting a deteriorating situation.
    And meeting with people from Georgia, a lot of 
representatives, again I hear a concern that our emphasis is 
more on Russia and even to the point of them not getting 
equipment they need for basic protection, such as parts for 
their rifles. So some pretty important concerns there, 
specifically on Georgia.
    So if I could just ask you to comment on the urgency and 
timing of Iran, possible scenarios there, and just maybe your 
perception of human rights, as well as a comment on Georgia?
    Secretary Clinton. Thank you so much, Senator.
    On Iran sanctions, we are intensely engaged with countries 
around the world. In the last month, I attended the London 
conferences on Afghanistan and Yemen and held numerous 
bilateral meetings with countries to lay out evidence about 
Iran to urge that they join with us on the pressure sanctions 
track.
    I just came back from Saudi Arabia and Qatar and have also 
met last week with the Prime Minister of Turkey. I will be 
going next week to Latin America, including Brazil.
    So we are--and it is not just I. It is the top levels of 
the State Department are engaged very, very directly in working 
the need for sanctions. We are beginning the process in the 
Security Council in New York, where language is being hammered 
out based on the work that has been done by the Treasury 
Department and the State Department in coordination.
    We are targeting a lot of these proposed sanctions against 
the Revolutionary Guard, which we believe is playing an 
increasingly important role in the politics and the economy of 
Iran. So we are working it as hard as we can.
    I have to say that we have been heartened by the positive 
response from Russia. They, I think, in their response prove 
the wisdom of the President's policy of engagement. We have 
made it clear from President Obama's inauguration that we will 
reach out our hand if the other side unclenches its fist. And 
our very clear commitment to engagement has created space for a 
lot of these countries to now consider supporting sanctions 
that they might not have otherwise because we have demonstrated 
the strategic patience to exhaust the international efforts of 
convincing Iran to do the right thing without sanctions.
    So I think, Senator, we are very focused on this. We hope 
that the next 30 to 60 days will see a sanctions resolution 
emerge in New York, and we also have made clear with others of 
our allies and partners that whatever comes out of New York, we 
may pursue bilateral or multilateral sanctions on top of 
whatever can be the result of the Security Council 
deliberations. So this is the highest priority for the Obama 
administration.
    On human rights, I share your concern. It is a kind of good 
news/bad news story. I mean, we see breakthroughs and positive 
actions, and then, unfortunately, we do get evidence of 
backsliding, discrimination, oppression, violence that is 
religiously based.
    We are working with a number of Muslim majority countries 
to devise an alternative to their proposal of defamation of 
religion, which we reject because we think that in a robust 
society, free expression should be protected. But we also 
recognize the sensitivity of criticizing or undermining the 
religious feelings and attitudes of people.
    So we are looking to see if there is a way to come up with 
a resolution that will suit our constitutional concerns, and we 
are working hard with a number of countries to do that. But we 
speak out vigorously against human rights abuses and, in 
particular, religious freedom and discrimination complaints and 
will continue to do so.
    And finally, with respect to Georgia, Georgia remains a 
high priority to this administration. We have had a number of 
high-profile visits to Georgia--Vice President Biden, Deputy 
Secretary Steinberg, Special Representative Holbrooke. We have 
had a very clear message that we are supporting the Government 
of Georgia.
    For the FY11 budget, we are requesting $90.1 million in 
aid, which is an overall increase of 8 percent from the FY10 
level of $73.77 million. The bulk of that will be trying to 
help the Georgians sustain their work in democracy, to enhance 
public confidence within their own country and in the region in 
their direction. We also are continuing to provide funding for 
nonproliferation, antiterrorism, demining, and related 
programs, and we are heavily supporting their military 
deployment to Afghanistan with new equipment, new training.
    So I think that what we are doing is a very positive story, 
and we stand up for Georgia in many international settings 
against the very strong attitudes expressed by their Russian 
neighbors.
    Senator DeMint. Thank you much. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator DeMint.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    And Secretary Clinton, I just want to say that I think all 
of America is very proud of the job you are doing.
    Secretary Clinton. Thank you.
    Senator Boxer. And I think you are just being so effective, 
and I was really glad to hear that expressed in a bipartisan 
way today.
    I want to talk to you about women in Afghanistan. And just 
yesterday, Senator Casey, Senator Wicker, and I held a hearing, 
which our chairman sanctioned, to examine the status of females 
in Afghanistan. And what we discussed with your wonderful 
Ambassador Verveer and with Dr. Sima Samar, who I know you are 
aware of, it was not good. It was alarming.
    Today, the life expectancy of an Afghan woman is 44 years. 
Can you imagine--44? Afghanistan has the second-highest 
maternal mortality rate in the world. One out of every five 
children born in Afghanistan dies before the age of 5, and over 
half of all marriages in Afghanistan are forced or involve 
girls under the age of 16.
    Yesterday, we talked about a forced marriage of an 11-year-
old girl to a man 20 years her senior. And this child set 
herself afire to get out of the situation, and it is just--it 
just touches your heart. She is now back with her own family.
    But here is what I wanted to discuss with you. We all know 
how hard our military is working right now. Oh, Lord, we all 
pray this is a success. And we all know that reconciliation is 
what we are trying to achieve to get these Taliban to give up 
their ways.
    And what worries some of us is that women could be used as 
a bargaining chip in the reconciliation process, unless they 
are at the table at every single stage. Because we can't forget 
these are the same Taliban who required the windows of Afghan 
homes to be painted over to conceal the fact that there was a 
woman inside and who take pride today in throwing acid in the 
faces of Afghan girls.
    Now we know you are a tireless champion for women around 
the world, and we also know you have worked hard to raise this 
issue of women being at the table in this reconciliation 
process. But I thought I would use today as an opportunity to 
get you to commit to us and to the Afghan women that you work 
to ensure that these women are given a clear, transparent, and 
meaningful role at every level of the reconciliation process--
to protect their right to education, to health care.
    Because you know that they are not allowed to see a male 
doctor, and that is why so many of them die in childbirth 
because it is considered--they are shunned if they see a male 
doctor. And there are no female doctors anymore. There are 
some, but there are not as many as there once were. So, so many 
of them are dying in childbirth. And they need to have freedom 
of movement, and they need to be free of violence.
    So will you make that commitment to fight to get them into 
a key decisionmaking role in the reconciliation process? And 
will you personally reach out to President Karzai, because I 
know you have a close relationship with him, to make sure that 
this happens?
    Secretary Clinton. The answer is yes to both, Senator 
Boxer. It is a very deep, longstanding concern of mine, which I 
share with you.
    In our regional stabilization strategy for Afghanistan and 
Pakistan, we lay out how we wish to advance the rights of 
Afghan women and girls with key initiatives that we are 
pursuing. And I would hope that this could become part of the 
record, Mr. Chairman, the entire report.
    The Chairman. Without objection.

[Editor's note.--The report ``Afghanistan and Pakistan Regional 
Stabilization Strategy'' was too voluminous to include in this 
printed hearing. It will be retained in the permanent record of 
the committee.]

    Secretary Clinton. But on the specifics with respect to 
women, I am not going to sugarcoat how hard this is. This is a 
very difficult challenge that we are making common cause with 
the women and girls of Afghanistan. I am very proud of the work 
that Ambassador Verveer is doing.
    I have personally spoken several times about this to 
President Karzai, and I will continue to advocate, as I did at 
the London conference, to make sure that women are included in 
the political process. Any kind of reconciliation or 
reintegration effort has to take into account the rights of 
women, and we are going to do everything we can to try to 
protect and advance that.
    Senator Boxer. Thank you. Thank you so much.
    My second question kind of dovetails on Senator DeMint's on 
Iran. Just recently, the IAEA released a report stating that it 
found extensive evidence of activities by Iran's military 
``related to the development of a nuclear payload for a 
missile.''
    And this is chilling to all of us. Iran's behavior not only 
poses a grave security threat to Israel and the greater Middle 
East, but also to efforts to stop the proliferation of nuclear 
materials and weapons around the globe. And I am very pleased 
that the administration is focused like a laser beam on this.
    And I know you recently traveled to the region to discuss 
the threat from Iran and that national security adviser James 
Jones traveled there, Mike Mullen, Vice President Biden. And in 
addition, the U.S. Government announced a new set of sanctions 
on Iran's Islamic Revolutionary Guard.
    Now I understand you are seeking a set of new sanctions 
through the U.N. Security Council, which will require the 
support of all five permanent members, including China. So I 
want to ask you about China.
    You were recently in Saudi Arabia, which is now exporting 
more oil to China than ever. Reports have suggested that Saudi 
Arabia may be able to provide China the stable supply of oil it 
needs, thus reducing China's reliance on Iranian oil. And this, 
in turn, could make China more willing to support sanctions 
against Iran.
    Do you feel better about the situation with China? Do you 
feel that this diplomacy of yours at the U.N. could yield the 
right outcome?
    Secretary Clinton. Well, Senator, we are working at it 
every single day. And the IAEA report gave us one more piece of 
evidence to present to doubting countries about conclusions 
regarding Iran's nuclear ambitions.
    We also are making the argument in public that China's 
dependence on oil from the gulf should cause it to make a 
strategic calculation to support sanctions because, in the 
absence of pressure that changes the Iranian efforts to obtain 
a nuclear weapon, there will be an arms race in the gulf, and 
that will further destabilize the gulf. It could lead even to 
conflict, which could dramatically undermine the delivery of 
oil from the gulf. So our argument, joined by other countries, 
including some in the gulf, to China is that if you are 
concerned about your market access to the Arabian Gulf for oil, 
then you should join the rest of the world in sanctions.
    And we were very successful when nobody thought that we 
could get China on board for the North Korean sanctions, 1874 
out of the Security Council. And even today, the South Africans 
stopped a ship carrying North Korean weapons bound for the 
Congo to cause more terrible violence and kill even more people 
there.
    Because we got the international community behind us and 
that is what we are seeking and we are making that argument 
vigorously, and lots of people are joining us to try to 
convince China to join with the rest of the world.
    Senator Boxer. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your service to our country.
    Yesterday, Orlando Zapata Tamayo, a Cuban prodemocracy 
human rights activist and political prisoner who was first 
incarcerated during the 2003 crackdown on dissidents in Cuba, 
died following a hunger strike protesting the Castro regime's 
brutal abuses. Amnesty International recognized him as a 
prisoner of conscience, and it is in his memory and the 
sacrifice that he made and hundreds of others of political 
prisoners who languish in Castro's jails that I want to ask you 
about some concerns I have with reference to how we are 
pursuing our Cuba democracy programs.
    I sent a letter in January to Administrator Shah, who I 
have not heard an answer from yet, asking what is the intent of 
an e-mail that they sent to the grantees and contractors for 
programs in Cuba? Basically, that e-mail suggested, as the 
Department has suggested, that groups not travel to Cuba to 
conduct our democracy programs there, and that is a real 
concern.
    Now there are some people have suggested that the United 
States only provide support to the Cuban people, when every 
single activity under these programs is specifically sanctioned 
by the Castro regime. It is naive to think that independent 
groups would be allowed permission from the Castro regime to 
carry out those activities when even members of this committee 
who have sought visas to visit human rights activists and 
political dissidents inside of Cuba as part of an agenda have 
been denied those visas by the regime in a clear attempt to 
stop anyone who wants to visit those entities, those 
individuals inside of Cuba.
    So I would not expect the regime to welcome anyone to help 
engage with human rights activists, political dissidents, 
independent journalists in trying to promote civil society 
inside of Cuba.
    So we have a long history in the United States of 
supporting groups around the world in groups who have lived 
under the iron fist or behind what was the Iron Curtain. We 
have done that in Eastern Europe. We did that with Lech Walesa. 
We did it with Vaclav Havel. We did it with Alexander 
Solzhenitsyn. We did it with so many others, and we did not 
seek permission from those countries in the world.
    For some reason, it seems to me that when it comes to Cuba, 
the recent actions by the regime to arrest an American citizen 
have totally frozen our actions. And I have even noticed that 
in the 2011 budget request stating what our democracy programs 
would do, a critical statement that existed in the 2010 request 
was eliminated.
    So my question is, Are we going to have a permanent freeze 
on having entities that are trying to create peaceful change 
for civil society inside of Cuba? Is that the policy of the 
State Department?
    Secretary Clinton. No, Senator. Let me first express the 
U.S. Government's sympathies to the family, friends, and 
supporters of Orlando Zapata Tamayo.
    We were concerned about his welfare. We raised this with 
the Cuban delegation during the migration talks. We urged that 
he be given medical attention and care, and we are deeply 
distressed by his death during a hunger strike on behalf of his 
rights and to send a signal of the political prisoner situation 
and oppression in Cuba, where we think there are in excess of 
200 other prisoners of conscience.
    We are very supportive of the work that we believe should 
be done to support those people of conscience inside Cuba. As I 
said earlier, we are trying to figure out the best ways to be 
effective in doing that. We are currently reviewing the risks 
in the wake of the baseless arrest of Mr. Gross in Cuba so that 
people who are traveling in furtherance of the mission of 
advocating for freedom, providing services, providing supplies 
and material to Cubans will take the necessary precautions when 
traveling.
    This is an issue of great importance to us. We do want to 
do everything we can to try to assist Cubans who are struggling 
against a continuing, longstanding regime of oppression. So we 
are not in any way taking a position against travel or against 
the kind of actions that we think will produce positive 
results. But we are engaged in a very intense review so that 
what we do we think will have greater chances of being 
successful.
    Senator Menendez. Well, I appreciate your answer. However, 
let me just say that the e-mail that came out of AID and the 
statements that have come out subsequently have basically 
chilled any activity in the promotion of the democracy programs 
that the President in his own budget put again, which we are 
pleased to see.
    But at the end of the day, if a regime, whether that be in 
China, whether that be in any other country in the world, can 
ultimately deter the United States from its engagement of human 
rights activists and political dissidents, then that pillar of 
our diplomacy crumbles.
    Secretary Clinton. I know. But that is not what we are 
doing.
    Senator Menendez. Well, I would like to see--I would like 
to see what we are doing because right now we are not doing 
very much. So I will follow up with that. I hope we get a 
response from the administrator.
    I would like to ask you two other questions. One is Senator 
Kerry, Lugar, Corker, and myself have written legislation with 
reference to reforming our foreign assistance institutions. You 
mention the Quadrennial Defense and Diplomacy Review. I would 
like to know where we are at? When can we expect to see some 
tangible changes? What might these changes look like?
    And my second question is, as you know, there are more than 
40,000 Turkish troops occupying Cyprus. No one in the world 
accepts the proposition that they are there to protect Turkish 
Cypriots from Greek Cypriots, and even the European Parliament 
on February 10 passed a resolution calling for the immediate 
withdrawal of Turkish troops from Cyprus.
    Yet, Madam Secretary, America's Ambassador to Turkey, 
Ambassador Jeffrey, very recently said in a newspaper interview 
that Turkey has ``security concerns on Cyprus.'' Certainly, he 
can't be supporting this rationale for keeping Turkish troops 
on Cyprus. Did he misspeak?
    Secretary Clinton. Well, first, with respect to foreign 
assistance, the QDDR will be finished this summer. We look to 
it to help us coordinate with this committee and with the 
Congress on the foreign assistance reforms that we believe 
should be undertaken. Our goal is to enhance the capacity and 
effectiveness of American foreign assistance, to better 
coordinate among the various aspects of the American Government 
that provide assistance.
    We have everything from USDA to Treasury with its funding 
of the international financial institutions to, of course, 
State, to USAID and other entities as well. We want to more 
clearly state the mission, more clearly resource that mission.
    The White House is currently simultaneously conducting its 
own review of development, bringing in all the other 
stakeholders because, of course, we are only looking at State 
and USAID. But I think that many of our findings will be very 
much in line with the direction and the aspiration that this 
committee has set forth in the legislation.
    With respect to Cyprus, we strongly support the continuing 
negotiations under U.N. auspices for a bizonal, bicommunal 
resolution on Cyprus. We have been heartened by some of the 
intense consultations going on between the Cypriot and Turkish 
Cypriot leadership, but there is a long way to go.
    And I think that--I can't speak for our Ambassador, but I 
assume he was stating the opinion of the Turkish Government. 
That is something that we do not ascribe to because we want to 
see the entire Cyprus situation resolved. But we certainly 
understand that is the stated position of the Turkish 
Government, not the American Government.
    The Chairman. Thank you, Senator Menendez.
    Let me just say so the record reflects it, Senator 
Menendez, that the committee has taken note formally--I spoke 
on the floor in December about our efforts to try to review the 
democracy promotion programs. And we all agree that the goals 
are laudable, and we want to help the Cuban people, but we also 
want to make sure that we are doing the most effective things 
and that the programs are working.
    So we are looking at that. We are going to work with the 
administration. I think it is important to try to just look at 
it and evaluate it. And we are going to continue our review, 
and we will work with you and with the Secretary to try to 
measure this.
    Senator Menendez. Mr. Chairman, if I may, I appreciate 
that. But what I am concerned about is turning a page that we 
have never permitted in our history, which is having an 
oppressive regime anywhere in the world tell us how we are 
going to ultimately engage in our democracy programs. And that 
is the core.
    We all want to see the most effective democracy programs, 
but for anyone to expect that we will get a stamp of approval 
from a regime to pursue it----
    The Chairman. Nobody expects that, Senator. And I think 
that you are, in a sense, postulating a subjective criteria 
that doesn't exist here. There is no stamp of approval 
necessary. We will do what we think is in our best interests, 
and I am confident the administration will do that and want us 
to do that.
    It is simply a question of measuring the effectiveness of 
what we are doing against all outcomes, and I think we need to 
do that. So we will work with you. We will have a good dialogue 
about it.
    Senator Menendez. And I am happy, as long as we do that 
worldwide, Mr. Chairman.
    The Chairman. We probably should. And I think that is 
important.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your testimony today and 
your work.
    I was thinking, as we were preparing for this hearing, that 
one area of our discussion that often doesn't get enough of 
attention is the budget itself and the management of a huge 
enterprise that the State Department is. And I have always 
believed whatever level of government we are talking about that 
the strength of any government, especially the U.S. Government, 
can only be maintained by the strength or integrity of its 
agencies and the management of those agencies.
    And I know it is difficult enough to deal with the issues 
that you are confronted with, but you also have to run a big 
agency, and we are grateful for the way you have managed that 
and the team you have put in place to help you do that.
    I was also struck by something that you said in your 
testimony on the section on development, where you highlighted 
the areas of development that the State Department is focused 
on, whether it is health or food security or climate change and 
clean technology jobs. But the last section of that, I thought 
we cannot say this enough. And I am quoting here. ``These 
initiatives are designed to enhance American security, to help 
people in need, and, third, to give the American people a 
strong return on their investment.'' Often, when--and you know 
this from traveling our country. You know this from your work 
in the Senate that when people are confronted with the 
question, ``How do we save money?''--an important question 
these days--they often point to cutting foreign aid as a 
bonanza, as a place where we can save all kinds of money that 
the reality we know is otherwise.
    I was noting that the international affairs budget is about 
1.4 percent of the total budget of the United States, despite 
all of the--I guess the perceptions or misperceptions that 
somehow there is a lot of areas to eliminate. And I think you 
are demonstrating that every day that we can't at this time in 
our history, especially in light of our security concerns, do 
that.
    Let me ask you about two or three areas. One involves our 
domestic economy and the horrific recession that so many 
families have lived through. Pennsylvania has a lower 
unemployment rate, but 560,000 people out of work. And you 
mentioned that in the opening, you mentioned the challenge of 
our domestic economy in the opening comments you made.
    Sometimes that connection between the international affairs 
budget and the investments we make around the world may not 
seem to translate into the domestic economy. But I note here 
that since 2005, the U.S. Export-Import Bank, which is funded 
through the international affairs budget, has financed $3.06 
billion in exports from Pennsylvania, supporting 223 companies, 
112 communities. There are other examples as well.
    But I would like to have you talk about that because it is 
not something that we talk about enough, and I think there is a 
story to tell here that the American people don't often hear.
    Secretary Clinton. Well, Senator Casey, I can't thank you 
enough for asking that question because I think you are 100 
percent right.
    I obviously believe that what we are doing is part of our 
security, and I think that case is certainly more 
understandable for people today since 9/11 than it might have 
been beforehand. But I also think it is essential to our 
economy.
    You illustrate one example of that, the Export-Import Bank. 
We really believe that we can do even more through the Ex-Im 
Bank, and I am going to try to encourage that approach. 
Somebody asked me what I would like to do. I said I would like 
to put Ex-Im Bank on steroids because I think it does so much 
good work for American companies, and I want American 
businesses to know that.
    We are also working on a much more extensive export-driven 
strategy that the President has announced and has spoken about 
with business leaders. I have asked Under Secretary Bob Hormats 
to lead our efforts inside the State Department because we 
think there is more we can do. We can do more on our own. We 
can do more in partnership with the Commerce Department, and we 
intend to do that. And to reach out particularly to small and 
medium-size businesses about how they can export, more lessons 
that perhaps can be conveyed to them, work with more chambers 
of commerce in partnership on this issue.
    We want to do more to highlight American business. We are 
in an economic competition, as we are in every other aspect of 
the world today, and American business needs to have a partner 
in the U.S. Government. Other businesses from other countries 
have a strong partnership with their government, whether it is 
state-owned enterprises from China or private companies from 
Europe. They often have much more support from their 
governments than we have in recent years given to our 
businesses.
    So I think in many ways we can do more to impress upon the 
American public the importance of what happens at the State 
Department in opening doors and in working with other 
Government agencies here in the United States to promote jobs 
in America.
    Senator Casey. Thank you very much.
    And maybe one more area before--I have got about a minute 
left. But it is on nonproliferation. I was giving a speech 
yesterday about the topic generally, and I especially 
appreciate the approach that you have taken and your team, the 
President, the Vice President, from a position of strength that 
our No. 1 objective and No. 1 obligation is the security of the 
American people. And one of the fundamental goals of the 
nonproliferation strategy is to have a safe, secure, and 
effective nuclear arsenal.
    I wanted to have you talk about that in the context of not 
just the--I guess not just the funding and the investments we 
have to make in this budget to make sure that we have a safe 
and secure and effective arsenal, but also in the context of 
our broader security agenda.
    Secretary Clinton. Well, I appreciate your recognition that 
this budget and, of course, President Obama are committed to 
our safe and secure nuclear arsenal, but at the same time, the 
President's vision of a world without nuclear weapons. And some 
have asked me how can those two coexist? And I said, well, they 
can only coexist.
    I mean, realistically, we know that the goal of a nuclear 
weapons free world is off in the distance. So what are the 
steps we need to take in order to move toward that? And in his 
Prague speech outlining his vision, as well as in the State of 
the Union, the President made clear that as long as nuclear 
weapons exist, the United States will maintain a safe, secure, 
and effective nuclear deterrent.
    Infrastructure repair is critically important in order to 
sustain our nuclear security enterprise. And therefore, the 
budget request supports programs that are important to 
implementing all of the President's nuclear security agenda. 
What can we do to fund the stockpile support activities that 
enhance our deterrent, that make deeper reductions through 
negotiations like what we are involved in with Russia on START? 
How do we make the case to the Senate surrounding the 
Comprehensive Test Ban Treaty? How do we fund the Defense 
Nuclear Nonproliferation Program?
    There is just--every piece of this fits together. So it is 
an issue that, of course, Senator Lugar has been a champion of 
for a very long time, but I think you are so right to be 
raising this issue in audiences that you speak to. Because it 
is one of the most important issues confronting humanity, and 
we are trying to walk the line of being committed to a goal of 
zero, but being smart about how we protect and maintain our 
deterrent now.
    So that is the tension, but we think it is the realistic 
way forward.
    Senator Casey. Thank you very much.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Clinton, thank you very much. We very much 
appreciate your leadership. I particularly want to underscore 
how important your statements about American foreign policy 
priorities including human rights have been received 
internationally.
    Senator Wicker and I were recently in an international 
meeting of the OSCE, and your statements particularly about the 
importance of human rights, but also that we are going to 
evaluate our own performance was very well received, and it has 
helped us. And I encourage you to continue with your strong 
commitment in that area.
    I want to talk about the direction of our foreign aid 
program. I strongly support what you are trying to do, 
including providing more resources and more aggressive use of 
our involvement internationally. But I am concerned about our 
Government partners when there is a significant leakage of 
funds because of corruption.
    Corruption is a problem in so many places in the world. And 
when we try to provide a partner with money and that money gets 
used for other than its intended purpose, we are not only 
denying the taxpayers of our own country the accountability 
that is demanded, but we are denying the purpose for which the 
foreign assistance was being made available.
    I also mention in this context the Extractive Industries 
Transparency Initiative, which Senator Lugar and I are 
encouraging a much stronger participation by the United States 
in the EITI. As you know, oil wealth and mineral wealth for 
many countries is a curse because it fuels corruption rather 
than development within a country. And I would just encourage 
you, as we go through foreign assistance reform, to make sure 
that we have strong accountability built into the programs and 
an expectation that there must be progress in dealing with the 
corruption issues among our partner countries.
    Secretary Clinton. I could not agree more, Senator. First, 
thank you for your continuing work with the OSCE. We view that 
as an important forum. We are trying to become more engaged and 
involved. We have a new Ambassador teed up to go. So we are 
very much focused on what we need to do to support the broad 
initiative, broad agenda of the OSCE.
    On the question of corruption, this is the cancer that eats 
away at societies, and it is particularly apparent in these 
resource-rich societies where it is the oil curse. You know, 
when you go to a country like Nigeria, whose social indicators 
are falling despite the increase in oil wealth, and the 
corruption is so endemic that people are just discouraged and 
turned off by their own country's efforts, it is so distressing 
because think of what could be done properly managed.
    So we are doing several things. We are working very hard in 
support of anticorruption initiatives internationally. The U.N. 
has some efforts underway. We want this to be a topic in other 
multilateral fora, including the OSCE, where I think it could 
be quite important.
    We are also pushing the Extractive Transparency Initiative 
because we agree with you that this mineral wealth should be 
protected as much as possible so that the revenues flowing from 
it are used for the benefit of the people. And we look forward 
to working with you and others on how we enhance the tools that 
we have on the Extractive Industries Transparency Initiative.
    I think we have to think outside the box, so to speak. How 
do we get more accountability? And I think we have to have more 
conditions-based aid. I know that a lot of people see aid as 
something that America should do, and in certain instances, 
like in the aftermath of Haiti, I agree with that. But it is 
always a choice.
    There are many priorities in the world that we could spend 
the hard-earned taxpayer dollars on. And so, when we are 
looking at aid, I think we have to have more of an approach 
that says what are you going to do in return for that aid? And 
how do we prevent the diversion? What are the techniques that 
we use?
    Some of the diversion is straight-out corruption. It goes 
into people's pockets. It goes into Swiss bank accounts. But 
some of it is diversion so that if we are putting money into a 
health program, then the government takes their money out of 
the health program. So we are not getting additive. And you 
wonder why we are never getting ahead because we keep putting 
money in. Other partners keep putting money in. We have to 
enhance the contributions from the local communities.
    A simple example is when we used to give away malaria nets, 
they weren't as effective as when we made people pay just a 
little, tiny something for it. So there is a lot of best 
practices and good lessons learned that we are trying to apply 
in our aid programs going forward, and the more we can enhance 
transparency of all kinds--and I will just end with this 
because I could go on about it.
    But we are trying to use technology as an anticorruption 
tool. So when we help to fund cell phones going into the hands 
of people, they then can do mobile banking. So, for example, in 
a country like the Democratic Republic of Congo, where there is 
no banking system, where there are very few roads in the entire 
country, in order to pay the military, a bag of money starts 
off in Kinshasa, and by the time it gets to the troops in Goma, 
there is nothing left.
    But if we can set up a mobile banking system, we cut out 
the middle people. And one of the biggest differences we could 
make with our aid investments is helping to build transparent, 
anticorrupt e-government systems. And some countries are very 
open to that, and we are working with them. And we are also 
sending this sort of little SWAT team we have of high-tech 
young people around the world, working to enhance these 
programs. But we are taking this anticorruption campaign very 
seriously.
    Senator Cardin. Well, I appreciate that response. There is 
nothing wrong with conditioning aid because Americans expect 
there is accountability in the use of our taxpayer dollars.
    Secretary Clinton. That is right.
    Senator Cardin. So we have a right to expect that the 
countries are fighting corruption. I would also add to that 
list the gender issues, that they are integrating women into 
the programs. You have been a leader on that and gives us a 
chance to advance that issue.
    Let me, in the minute I have left, I want to just continue 
to raise the concern of the refugees from Iraq that are in 
Syria and Jordan. There was a student at Goucher University in 
Baltimore who was an Iraqi refugee living in Syria that was 
fortunate enough to be able to make it to the United States, 
his story about so many people in his family that didn't make 
because of the refugee status.
    We have a responsibility in regards to the people who are 
still refugees from the Iraq conflict, and I would just urge 
you to continue our attention to get Iraq, the region, and the 
international community, along with the United States, focused 
on how we can help the lives of those people.
    Secretary Clinton. We completely agree with that, and we 
have a concerted effort that is looking at how we can do more 
to help Iraqi refugees and try to resettle them back in Iraq, 
if that is their choice.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin. As chairman, I 
want to thank you for your terrific diligence in pursuing the 
Helsinki Commission efforts. You have been a real leader at 
that, and we appreciate it enormously.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And welcome, Secretary Clinton. We are delighted to have 
you here and very much thank you and appreciate the leadership 
that you are providing to the Department of State and to our 
diplomatic efforts all around the world. Thank you.
    Last week, I had the opportunity to travel to the Balkans 
with Senator Voinovich, who, as I am sure you know, is quite a 
hero in the Balkans, just as former President Clinton is. And 
it was remarkable to see the progress that has been made there.
    But as you know, that region still is the missing piece as 
we seek to see a Europe that is whole and free and at peace. 
And Bosnia, in particular, I think remains a concern. I was 
pleased to see your recent speech about the future of NATO and 
the commitment to leave the door open for prospective NATO 
members who meet the alliance's criteria.
    I hope and I appreciate the leadership that you are 
providing to say to those countries in the Balkans that if they 
can achieve the alliance's criteria, they will be welcomed as 
members of NATO, and I wonder if you could speak to that?
    Secretary Clinton. Well, first, Senator, as I expressed to 
Senator Voinovich earlier in the Foreign Operations 
Appropriations Subcommittee, thank you for going to southern 
Europe and the Balkans. There is a lot of unfinished business 
there. We can be proud of the role that the United States 
played, but we can't rest on any laurels because there are 
still some volatile situations that have to be addressed.
    With respect to NATO membership, I believe strongly in 
leaving the door open. I also believe it needs to be left open 
for the European Union, although we have no direct role in 
that. And I think it is particularly important for Bosnia.
    Now we have been trying to persuade Bosnia-Herzegovina to 
do the necessary constitutional reform that will enhance the 
prospects for unity and not division within that country. And 
some people have argued, well, that should be the carrot that 
is held out to them so that if they do the constitutional 
reform, then they can get into the MAP process for NATO. Others 
have said, no, let them in and then don't let them become 
members until they do it.
    However you look at it, I think that we want Bosnia to be 
looking toward Europe. We want Bosnia to stay united. We want 
Bosnia to be integrated into the Euro-Atlantic Alliance. So we 
are constantly trying to figure out what is the best way to 
achieve that. And the door remains open. When they begin to 
walk through it, that is something we are still trying to work 
out.
    Senator Shaheen. Well, we heard some real concern on the 
part not just of Bosnia, but some of the other countries in the 
region about enlargement fatigue, particularly when it comes to 
the EU. But also I think with respect to NATO concern that 
perhaps there were other reasons why their MAP process was not 
viewed favorably at this point.
    So I hope that the administration will continue to remain 
engaged with the EU to keep an open process and an open effort 
to encourage the countries of the Balkans to consider future 
membership. And maybe you could talk about what we are doing to 
try and encourage that to continue?
    Secretary Clinton. Senator, we are encouraging the European 
Union to do more to demonstrate the benefits to Bosnia of 
European integration and to work with the Government of Bosnia 
to try to understand what it must do to be eligible for EU 
membership. There are other countries that are also seeking 
that kind of path. Serbia, which I think is very important, to 
be focused on Europe and the West.
    So it has been one of my highest priorities in terms of our 
European policy. I am not satisfied with where we are because I 
think that there has been changes going on in Europe with post-
Lisbon. There was a desire on the part of the Europeans to kind 
of take care of their own business first, but we are keeping 
them focused on the Balkans.
    We have a lot of work to do, and we don't want to see any 
moves to break up Bosnia. And we worry about that a lot. So 
this is a long list of concerns. But the NATO piece of it I am 
watching very closely because I share your concerns that we 
want Bosnia-Herzegovina to feel like they are welcome. And they 
may not be there yet, but with a little bit more effort they 
could be.
    Senator Shaheen. Thank you. I appreciate that.
    And let me just be clear when I was referring to concern 
over enlargement fatigue in the EU, it wasn't just in Bosnia-
Herzegovina that we heard that. It was in Serbia and the other 
parts of the Balkans. So I think that is a very real concern 
and one that we should continue to pursue with our friends in 
the EU.
    With respect to NATO, as I said, I very much appreciated 
the speech that you gave recently on NATO. As the strategic 
concept draft is being developed, what are your main priorities 
for that new concept?
    Secretary Clinton. Well, as I spoke about in my speech and 
as Secretary Gates reiterated the following day, we believe 
that NATO must continue to be a strong, effective alliance in 
the 21st century, just as it was in the 20th. And we have to 
take a hard look at how we are defining our roles and 
responsibilities within NATO. We have to reform NATO so that it 
is more streamlined, more manageable than many people believe 
it is now.
    We have to look at what the sort of out-of-area challenges 
are--from piracy to cyber terrorism--and figure out what 
response we are going to have. We have to determine the way 
forward on missile defense, which we think is critical to 
NATO's future. There is just a long list of what are new 
responsibilities for NATO to assume.
    But Madeleine Albright is chairing the strategic concept 
committee and doing an excellent job. So I think we will get a 
good result out of that work, and then it will be up to the 
member countries to hammer out the actual content of it.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Senator Kaufman, the perpetual winner of the patience 
award.
    Senator Kaufman. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. I, frankly, don't know how you 
do this. [Laughter.]
    Really, I watch sometimes the amount of travel and then 
trying to run the State Department at the same time, it is an 
incredible challenge. And I really appreciate your service in 
doing this.
    These are really tough times for us economically. But I am 
very pleased to see that the administration has decided to have 
a sizable increase in Department of State funding. I mean, I 
have traveled to Afghanistan and Iraq several times, and our 
troops are magnificent. But when you are there, you have to 
kind of be not thinking to say, how do we stop this from 
happening before it happens?
    And I think that anyone that thinks about that, for having 
a strong, smart, big Department of State can act as an 
incredible prevention so we don't have to send our magnificent 
troops out there and put them in harm's way and go through what 
we go through today. And I know that you have no better 
supporter in this, and it is really a great time, and that is 
Secretary of Defense Gates. I mean, he really is articulate 
about it.
    So I noticed that in this bill, you mention in your 
statement that the complex crisis fund, the Pakistan 
Counterinsurgency Capability Fund is being transferred from DOD 
to State. Can you talk a little bit about why that makes sense 
in light of the roles of State and Defense?
    Secretary Clinton. Well, thank you so much, Senator 
Kaufman. Thank you for your service to this committee before 
you were a member of it.
    Secretary Gates, before I ever was Secretary of State, 
understood from his many decades in Government service, and 
particularly over at the Defense Department now, that our 
national security was out of balance at the end of the first 
decade of the 21st century. We had come to rely so heavily on 
our military, and it wasn't just for their being warriors on 
behalf of our security, but they were doing development, 
reconstruction, humanitarian projects, just so much.
    And they are so good at it, and they have more than, what, 
12 times the resources that the State Department and USAID do. 
But it wasn't the kind of balanced national security policy 
that is in the long-term interest of the United States. So 
Secretary Gates started sounding this alarm 2 years ago, and I 
am very grateful for his support.
    So what we are trying to do is to rebalance by moving back 
and maybe for the first time into the State Department and 
USAID what were known as ``1206 funds,'' the kind of pre- and 
post-conflict work that should be led by civilians. There is a 
lot of room for partnership with the military, but we have got 
to train up a civilian capacity to be able to do this work.
    And look at what is happening in Iraq. It is a perfect 
example. We have a deadline to withdraw our troops. It is a 
deadline negotiated with the Iraqi Government. So we are 
expected to leave.
    But the Iraqi Government has certain requests that it has 
made of us. One of them is to do advanced-level police and law 
enforcement training. The military has been doing that. They 
have all the resources. They have the helicopters. They have 
the hardened facilities. We don't have any of that.
    So if we are going to have a chance of getting in and doing 
what is expected of us, we have to have the resources to plan 
for and then execute and deliver on what that mission is. So I 
think that this is not easy to do, and we are asking for some 
additional resources to be able to do it.
    But even with our just--our Civilian Response Corps is in 
the infancy, but we sent people to Haiti. We sent people to 
Afghanistan. We are beginning to have more expeditionary 
personnel and the resources to match.
    There will always be a role for the military in 
humanitarian assistance, as we saw in Haiti. We could not have 
done what was done absent our military being there in force. 
But we have got to be better positioned to do our part on the 
civilian side, and that is what we are attempting to achieve.
    Senator Kaufman. That is great. Can you talk a little bit 
about public diplomacy and how you see the future of public 
diplomacy in your budget and what you are doing in terms of new 
ideas and things that we can do to encourage public diplomacy?
    Secretary Clinton. I would strongly encourage the committee 
members who are interested in public diplomacy to get a 
briefing from our new Under Secretary for Public Diplomacy. You 
know, this is not faulting anyone because when we merged USAID 
and all the other public diplomacy elements of our Government 
that had done so well during the cold war in the late 1990s 
into the State Department, they were still independent 
agencies. The mission was not clear.
    To give the Bush administration their due, they tried to 
figure out how best to do this. It is really hard, and it is 
not a PR job. It is not a propaganda job. It is a management 
job. We have enormous resources spread around the world. We 
need a clear line of communication and a message that is 
repeated over and over again. And let me just give you two 
quick examples.
    When we went into Haiti, it was a joint military-civilian 
operation, but obviously, the military had a much bigger 
footprint. There were some media outlets around the world who 
immediately put a negative picture out there of the United 
States. And the attitude previously was, well, what can you 
expect from these countries? They are anti-American or their 
outlets are anti-American.
    We said, no, we are going to go right at them, and we did. 
We called them up, and we said that is wrong. That story is 
unfair. We will give you people who you can talk to. So we are 
actively engaging with even outlets and countries that are not 
always considered friendly to our interests. We can't leave 
these stories just out there to become conventional wisdom.
    In Pakistan, there were a number of stories, and our 
Embassy personnel had historically been told not to respond. If 
there is a story, don't respond to it. Well, that is not the 
way modern communications work.
    So we are--every single day, we monitor what is said on the 
public media. We need to know what is being said to people in 
countries where we are operating. And then if we think they are 
saying something that is not true about the United States, we 
try to get in there with an alternative point of view.
    So our Under Secretary, Judith McHale, came from Discovery. 
So she was a media executive, not an advertising person or a PR 
person. So she knows how to look at this systematically. And 
that is what we are trying to do, to change the message, to 
change the urgency.
    When I was in Qatar, I met with the board of Al Jazeera. We 
are putting people on there. We are responding. This is one of 
the most powerful media presences in the world that we are 
engaged with. So we are not saying, well, what can you expect? 
We are saying, no, you can do better. We will give people to 
talk. We will give you somebody to get on that television show 
and put out the American point of view.
    Now we are not going to change their perspective overnight, 
but we are not going to let it go unanswered either.
    Senator Kaufman. Well, March 10, Under Secretary McHale is 
coming. We are having a hearing on public diplomacy with former 
Under Secretary Lieberman, Hughes, and Glassman.
    Secretary Clinton. Great.
    Senator Kaufman. So I think this is absolutely incredibly 
important as we look at the world. It is a much more complex 
world, and how we handle public diplomacy is key.
    Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    I think what the Secretary just said is terrific, and I am 
delighted to hear it, as I am sure we all are.
    Just a few quick wrapups before we close off, unless 
Senator Lugar has additional questions. But can you just share 
with us very quickly the current status of the plans to assess 
and assist on the Haiti rebuild?
    Secretary Clinton. Yes. First, there will be a donors 
conference on March 31 that the United States is cohosting with 
the U.N. and other major donor countries at the U.N. in New 
York. We have been engaged with the EU, with lead countries 
like France and Brazil and others who have put forward--and 
Canada--significant contributions. But every country in our 
hemisphere has contributed something. And so, we are working to 
enhance those contributions.
    There is an effort underway to coordinate the Haitian 
Government and the United Nations with the United States and 
other donors through a development authority that the Haitian 
Government would set up and run, but which would be given lines 
of accountability from the donor countries as well.
    As you know, Mr. Chairman, we had a plan, a well-developed 
plan that we had worked on with our Haitian partners prior to 
the earthquake, and we are working to implement that, as part 
of the recovery, with certain changes. For example, focusing on 
agriculture is one of the big issues we are trying to further.
    So we will give you in probably about 2 to 3 weeks a very 
thorough report. We will also include all the information we 
have about what other countries are doing because this----
    The Chairman. Who is heading this up for the State 
Department?
    Secretary Clinton. Well, Raj Shah is the lead person named 
by the President and my chief of staff, Cheryl Mills, is our 
State Department contact.
    The Chairman. Is there going to be one single person 
coordinating all of it?
    Secretary Clinton. Well, right now, Raj Shah is the 
designated director.
    The Chairman. Right now, you say that.
    Secretary Clinton. Yes.
    The Chairman. And the timing of a supplemental request, any 
sense of that?
    Secretary Clinton. We hope within the next few weeks.
    The Chairman. OK. On the QDDR and the coordination with the 
Presidential study, are we going to have two different concepts 
here, or what is going to happen?
    Secretary Clinton. Well, that is certainly not our 
intention. We are working very hard to coordinate those and to 
have one voice coming from the administration. Now there will 
be other elements in the PSD because of the IFIs and Ex-Im and 
all the rest of it. But we want the general concepts to be 
adopted administration wide.
    The Chairman. And finally, just on the PCCF, which is going 
to come to you guys directly this time. But last year, when it 
came to you, you funneled it directly over to the Defense 
Department again. And as we try to redo this, I guess that 
doesn't make sense. Is that going to happen this year, or are 
you up and ready to----
    Secretary Clinton. We are up and ready. We are going to be 
administering it this year.
    The Chairman. Terrific. That is great to hear.
    Do you mind? Senator Risch just quickly wanted to make a 
comment, I think.
    Senator Risch. Very briefly. Thank you, Mr. Chairman.
    Secretary Clinton, as you know, the people who were held 
recently in Haiti as a result of their travel there to attempt 
to assist some children in Haiti, most of them were from Idaho. 
And as a result of that, they were held for some period of 
time. Their families in Idaho were very stressed over the 
situation that they were being held at.
    And I just want to thank you on behalf of them. Your team, 
both the team that you assigned here in Washington, DC, and the 
team that was on the ground in Haiti, particularly Ted Coley 
from your operation and Catherine Farrell, who was on the 
ground there in Haiti, were very, very helpful to the people in 
Idaho and were very responsive when some of us from the 
congressional delegation jumped in and attempted to assist 
those people.
    As you know, many Americans are unaware of the difficulties 
they face when they get ensnared in the criminal system in 
other countries, and it can be very befuddling. They don't 
understand why they don't have the same constitutional rights. 
They don't understand that the facilities in which they are 
being held aren't up to the same type of facilities here in the 
United States.
    But your organization was very, very responsive. I want to 
thank you for that. When the media asked me, I told them 
Secretary Clinton runs a tight ship, particularly in these 
kinds of instances. So I wanted to pass that on to you.
    We have also received communication from some of the 
families, thanking us and thanking your organization. So I 
wanted to pass that on to you. Thank you so much for what you 
did.
    Without any reference to what the facts of the situation 
were there or what actually happened as far as the factual 
situation, just as far as what the State Department was able to 
do, you did. And we are appreciative of that. Thank you.
    Secretary Clinton. Thank you very much. And I will pass on 
those kind words, Senator.
    The Chairman. Thank you, Senator Risch. I appreciate it.
    Senator Lugar.
    Senator Lugar. Secretary Clinton, I have just three quick 
items that I will mention, and I ask for your comment on any of 
them.
    First of all, the policy statement that you gave in your 
speech at the Newseum on Internet security and cyber security 
was just tremendously important. I am curious as to whether 
there are any available budget figures or additional positions 
that that would buttress the position that you took.
    Second, we have worked actively in this committee on the 
PEPFAR program, and I think there has been recognition by the 
former Global AIDS Coordinator, Mark Dybul, and the present 
one, Eric Goosby, and others that we cannot treat our way out 
of these problems. Prevention is terribly important.
    I have concerns that prevention efforts might be in for 
reduction in the budget. I ask that you take a look at 
prevention strategies and explain the rationale for potentially 
reducing the program. I do know that the program does continue 
on a very broad scale and it treats patients in a very humane 
way.
    And finally, I am just curious, given the outcome of the 
election in Ukraine, what new initiatives we might be pursuing 
there. Obviously, many of the things we have attempted to do 
there have been frustrated largely by problems within the 
administration of the government. That may still be the case, 
but hope springs eternal.
    Clearly, the affairs in Crimea are very important. So just 
as a sidebar, I wanted to raise a thought about that.
    Secretary Clinton. Thank you, Senator.
    We are very serious about implementing a robust 
comprehensive Internet security, cyber security policy. It has 
got many aspects to it. We are reorganizing within the State 
Department so that we can be more effective in the whole arena 
of cyber security and better interact with our intelligence 
community, Defense Department, and others who are similarly 
focused.
    With respect to our efforts to open up the Internet and 
keep it open to protect the freedom of expression and the 
virtual freedom of assembly in countries like Iran, we are 
going after this with intense focus. We are providing funding 
to groups. We are working with private sector partners that 
often have the intellectual property and the access that is 
needed. It would be perhaps of some interest to you and other 
members of the committee to give you a classified briefing at 
some point in the future.
    And on our prevention and treatment efforts, we are 
attempting to maintain and certainly fulfill our obligations on 
the treatment side, even increasing. But we are moving more 
aggressively on the prevention side and in building systems. So 
I will give you an answer in detail about that because Eric 
Goosby has given a lot of thought to how we can best do that, 
and partnering with some countries that were not our partners 
to any great extent before, like South Africa, where we are now 
very deeply engaged in helping them.
    And finally, on Ukraine, Gen. Jim Jones will lead our 
delegation to the inauguration tomorrow, and we are going to 
begin exploring what we can do. We want to be responsive and 
supportive of this free, fair, and credible election process, 
which has led to a new President.
    It is difficult. We have to wait to see how the government 
is formed and what their attitudes might be. But we want 
Ukraine to know the United States stands ready to be a positive 
partner with them for the future.
    Senator Lugar. Surely the idea that the new Ukrainian 
President is going to Europe first and to Russia second was a 
significant statement.
    Secretary Clinton. That is right.
    Senator Lugar. Maybe offers some promise.
    Secretary Clinton. I agree. I agree.
    Senator Lugar. Thank you.
    The Chairman. Madam Secretary, as we wrap up, I wanted to 
give you just a chance to perhaps say a word, if you want to, 
about one issue before the Congress, before us and you right 
now, and that is the conference on the Iran sanctions bill.
    Deputy Secretary Steinberg wrote us expressing concerns 
that the legislation would ``weaken rather than strengthen 
international unity and support for our efforts.'' I know you 
have submitted a number of proposed changes at this point. So 
do you want to just share what you might hope would come out of 
the Congress and why at this moment?
    Secretary Clinton. I appreciate this opportunity, Mr. 
Chairman. We very much support congressional action. We want a 
very broad global sanction regime that isolates Iran, 
encourages it to change its strategic calculus, and we think 
that there can be a very good partnership between the Congress 
and the Obama administration in order to achieve that.
    Our goal is to support the purpose and principles of the 
congressional bills that have been passed that are now in 
conference, but to work closely with you with some suggestions 
about how they would better fit into our agenda in the Security 
Council, in the multilateral world, to give the President some 
flexibility so that we can come out of the legislative process 
with a really strong tool and not just a statement of concern 
that won't really dovetail with what we are trying to achieve.
    So we have a team led by Assistant Secretary Rich Verma 
ready and willing to work with the Congress, the conference 
committee, in order to explore how we can come out with the 
best result.
    The Chairman. Good. Well, I appreciate your comments on it. 
We tried within the Senate before the passage to get some of 
that done. It wasn't possible. But hopefully, in the 
conference, we can get there, and I appreciate what you are 
trying to do.
    Thank you so much. I think you have covered an incredible 
amount of ground and done so with clarity. And we are 
enormously appreciative of how comprehensive the afternoon has 
been. So thank you very, very much.
    Secretary Clinton. Thank you so much, Senator.
    The Chairman. We stand adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this hearing, and, Madam 
Secretary, thank you for being here.
    We meet at a time of great potential and great challenge on the 
world stage.
    The nation of Haiti remains foremost in our thoughts, as the 
Haitian people struggle to recover and rebuild in the wake of a 
devastating earthquake.
    Our European allies face new economic challenges, and with the rise 
of new powers around the world, we face a newly competitive global 
economic landscape.
    In the Middle East, despite the good work of our witness and 
Senator Mitchell, the Israeli-Palestinian peace process remains 
tenuous, with serious and direct American involvement needed to enact 
and implement an agreement.
    And even as our troops begin to come home from Iraq, our new 
strategy is beginning to take hold in Afghanistan, where our mission 
requires as much of our diplomatic resources as of our military 
resources.
    Madam Secretary, we have much to discuss. And I look forward to 
hearing from you on all of these issues.
    But I'd like to use a few moments here, if I could, to talk about 
Latin America.
    I just returned from a trip to Panama, Costa Rica, El Salvador, 
Honduras, and Nicaragua. These are five different countries, but the 
challenges they face, and potential opportunities are tied together, 
and tied to America.
    I've often said that Latin America isn't our backyard. Instead, we 
share a neighborhood, and as good neighbors know, our collective 
futures are tied to one another.
    Central America is plagued, for example, by public insecurity 
related to increased drug trafficking--and America plays an 
unfortunately huge role in that problem due to the demand for narcotics 
in our country.
    That public insecurity is endemic to the region--as are the related 
issues of economic inequality. And while our neighbors can't look to us 
to solve all of their problems, America must be part of the solution,
    Our country rightly focuses on border security, to keep harmful 
elements out. But we need to extend the definition of border security 
to include keeping drug money and arms from flowing from the United 
States to the region.
    More in line with the State Department's jurisdiction, we need to 
revitalize and refocus the Merida Initiative. Senator Leahy and I 
fought to include funding for training and prevention programs, along 
with other important civil society initiatives critical to a holistic 
attack on the drug problem. It is important that this funding remain 
strong, and that we get it to the countries that need it.
    We also need to give USAID more flexibility--and more authority--to 
perform its critical development function under Merida, especially with 
regards to civilian capacity and rule of law programs.
    And we need to encourage our partners in the region to think of the 
problem as one that affects the entire region. Our approach to Latin 
America has too often overlooked the importance of treating this region 
as a region, rather than as a collection of unrelated nations. And 
other countries, concerned with maintaining sovereignty, have made the 
same mistake.
    That means we are missing opportunities to improve our 
neighborhood. But I have confidence in this administration, led so ably 
by Secretary Clinton, to make course corrections where necessary so 
that we can tackle not only the challenges in Latin America, but the 
wide range of challenges we face on the global stage.
    And I look forward to discussing them with you today.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                   Submitted by Senator John F. Kerry

    Question. There has been a lot of discussion of the need to empower 
and transfer responsibility to local Afghans after the military has 
secured areas. Yet, too often, the critical legs of counterinsurgency--
governance and development--are not in place to capitalize on security 
gains.

  <bullet> Can you give us examples of where ``clear, hold, build, and 
        transfer'' has worked, especially in the south? Particularly 
        the last part--the transfer?
  <bullet> The pool from which future Afghan civil servants can be 
        drawn is far too shallow. For starters, decades of civil war 
        have left a whole generation vastly undereducated. What can we 
        do to overcome this lack of human infrastructure?

    Answer. Our civilians and military personnel are working closely 
with Afghan partners to provide security, governance, and development 
in areas where there had been only Taliban control and brutality. Our 
training programs for both security forces and civilians are creating 
conditions that will enable full Afghanization, when we can be 
reasonably certain that the changes we are creating with our Afghan 
partners are sustainable by the Afghans. In other, more secure parts of 
the country, we have cooperated with Afghan Government officials and 
civil society to enable greater Afghan control of governance, security, 
and development. We will follow that same approach in the south, when 
there is a minimum baseline of security required to allow the 
cooperation with the Afghan civilian authorities to continue to move 
toward transfer.
    Thirty years of war has taken a heavy toll on Afghan Government 
capacity. Since 2002, USAID and our Provincial Reconstruction Teams 
have invested hundreds of millions of dollars in education projects in 
Afghanistan to expand access to basic education by training teachers, 
constructing and rehabilitating schools, distributing supplies, and 
offering accelerated learning programs to out-of-school youth, 
particularly girls, who were denied an education under the Taliban. 
USAID is also supporting higher education and nonformal literacy and 
productive skills education for both youth and adults, as well as 
supporting capacity development for Afghanistan's Ministry of 
Education. School enrollment is now at the highest level in 
Afghanistan's history, with approximately 6 million students in 
school--an estimated 35 percent of them being girls.
    While our education efforts will take time to bear fruit, we are 
also focusing on near term solutions to assist Afghan Government 
institutions directly. We are increasing significantly the number of 
civilian technical advisers in key central government ministries and in 
the provinces and district centers to help make Afghan Government 
institutions more visible, effective, and accountable. We are working 
to certify Afghan ministries and institutions so that they can receive 
direct U.S. assistance, thereby enhancing ministerial capacity, 
improving the effectiveness of our assistance, and decreasing reliance 
on contractors.
    We also are expanding subnational capacity-building efforts, 
focused mainly in key population centers in the East and South, through 
new civ-mil initiatives such as the District Development Working Groups 
and District Support Teams. We at the same time, we are focused on 
programs that give Afghans a greater stake in their government, like 
the National Solidarity Program.
    We are continuing our support for capacity-building in governance 
and development through our Provincial Reconstruction Teams and 
District Support Teams in the countryside. Our civilian and military 
personnel from these teams have been working hard over the last few 
years to develop and enhance the capabilities of local government 
officials including provincial governors, district subgovernors, 
provincial-level officials representing their ministries back in Kabul, 
Provincial Councils, and Provincial Development Councils. Through our 
investment in time and effort, we are developing a cadre of local 
government personnel who are increasingly capable of running government 
affairs at the provincial level.
    This top-down, bottom-up, whole-of-government approach is designed 
to build human capacity at all levels of government in Afghanistan, and 
also ensure that the next generation of Afghan Government officials 
possess the capabilities they need to perform their duties and serve 
the Afghan people.
    With respect to the first part of your question, we do not yet have 
an example of a successful ``transfer'' in the south. We are just now 
engaging in a major way in Afghanistan's south, as that region has 
heretofore been under the primary responsibility of our U.K. and 
Canadian allies, with support from other allies and partners, and us. 
The Marjah operation will be an excellent test case for our clear, 
hold, build, and transfer approach. We should not expect to see quick 
successes in this regard. As you rightly alluded to in your question, 
war has ravaged Afghanistan for the last three decades. Our efforts to 
help the Afghans to extend governance into the south and east will be 
somewhat groundbreaking in that government presence has been rather 
thin in those regions over the last 30 years, and even farther back in 
history. It will be critical that we remain flexible and properly 
resourced and manned, and that our Afghan counterparts work with us 
throughout this process. Sustained security will be critical to 
transfer.

    Question. With Kai Eide stepping down from UNAMA this spring and 
with the United States and NATO stepping up its commitments this year, 
civilian leadership in Afghanistan is more important than ever. UNAMA's 
mandate has always been more moral, lacking the executive authority to 
really tackle donor coordination issues, for example. For 8 years now, 
there has been an uneven and uncoordinated civilian effort with 
multiple Afghanistan envoys, ambassadors, assistance coordinators, and 
aid agency representatives running around in Kabul with no one clearly 
in charge to coordinate the massive international effort.

  <bullet> How can we effectively tackle problems of civilian 
        leadership among international partners of Afghanistan?
  <bullet> Should we be more willing to place our own development 
        efforts under greater international control?

    Answer. Our allies and partners are sustaining and, in many cases, 
increasing their military and financial commitments in Afghanistan, 
often in the face of deep public opposition. There is broad 
international consensus to empower the Afghan Government by aligning 
international assistance with Afghan priorities and, where possible, 
channel assistance through the Afghan Government. UNAMA, working 
closely with key reformers in the Afghan Government, has developed a 
strategy to integrate donor activities on the ground in accordance with 
shared objectives and in coordination with the Afghan National 
Development Strategy (ANDS). Our international partners have greatly 
improved their coordination and information-sharing. We firmly believe 
that the new U.N. leadership and NATO civilian leadership recognize the 
need to enhance donor coordination efforts in Afghanistan and they have 
begun to do so.
    With regard to U.S. development assistance, considerable progress 
has been made in the past year. We work closely with our international 
partners in every developmental sector. The appointment of Ambassador 
Anthony Wayne as the Coordinating Director for Development and Economic 
Affairs (CDDEA) in Kabul (June 2009) has greatly enhanced our ability 
to manage USG assistance. In addition, Ambassador Wayne has been 
working closely with his Afghan counterparts to certify different 
Afghan ministries, so that they may receive direct USG assistance. He 
also leads Embassy efforts to coordinate our assistance programs with 
the Afghan Government, UNAMA, and bilateral and multilateral donors.

    Question. The Ministry of Rural Rehabilitation and Development 
(MRRD) runs the successful National Solidarity Program (NSP), a program 
in which the United States and others have invested hundreds of 
millions of dollars. The new MRRD Minister confirmed by Parliament is 
Jarullah Mansouri --a political pick who lacks competence and 
experience to run programs like NSP. Mansouri has made public comments 
suggesting he plans to scale back NSP drastically, which would 
jeopardize perhaps the greatest success story we have in Afghanistan 
and the lives of millions.

  <bullet> How will the administration work with the new MRRD Minister 
        to make sure programs like NSP are not jeopardized?

    Answer. Minister Mansoori was confirmed in President Karzai's 
second round Cabinet submission on January 16, 2010, and has stated 
that he strongly supports the National Solidarity Program. Minister 
Mansoori has stressed he would be guided by two principles during his 
tenure: national inclusion-allowing participation of the Afghan people 
to develop a sense of ownership in Ministry-led programs; and a focus 
on sustainability and capacity-building. Both are key elements of the 
National Solidarity Program.
    The USG is working closely with MRRD and other donors including the 
World Bank to ensure that programs like the NSP are not jeopardized. On 
Wednesday, March 3, Minister Mansoori led an NSP monthly donors meeting 
where he reaffirmed his support to the program.

    Question. Pakistan Security Assistance.--The Department is also 
requesting funds in the $140 million International Narcotics and Law 
Enforcement account line for Pakistan, to support ``an expanded border 
security aviation fleet.''

  <bullet> What exactly are we planning to buy, and how much is it 
        going to cost?
  <bullet> How has it been coordinated with the other security 
        assistance we are providing?

    Answer. The Bureau for International Narcotics and Law Enforcement 
(INL) plans to use $42.5 million of the $140 million FY 2011 request 
for the aviation program. However, INL does not plan to use FY 2011 
funds to procure additional aircraft. Funds will provide maintenance, 
support, and operating expenses for the USG-established Ministry of 
Interior Air Wing (50th Squadron), including five additional Huey IIs 
that were added to the program in 2009 (through reprogramming of funds) 
and those INL anticipates purchasing with FY 2010 funds (four Huey II 
helicopters). In addition, funds will support the positioning of 
aircraft at a forward operating location (FOL) in the North West 
Frontier Province (NWFP) which INL plans to establish with FY 2010 
funds. This will allow the Air Wing to more efficiently conduct 
operations in the FATA and NWFP a critical element of support to law 
enforcement as it works to ensure continued security once military 
operations have concluded in these areas. In total, the FY 2011 request 
is needed to provide maintenance, support and operating expenses for 
the current fleet of 17 aircraft, including 14 Huey II helicopters and 
3 Cessna Caravans, in addition to the 4 Huey II helicopters which will 
be procured with FY 2010 funds, for a total of 21 aircraft.
    These aircraft remain a powerful tool for Pakistani law enforcement 
by performing critical surveillance functions; supporting operations 
against traffickers, criminals, and militants; and playing a role in 
the interdiction of illegal drug and weapons shipments. The operational 
tempo in 2009 was the highest in the history of the program and 
requests for aviation support to law enforcement agencies under the MOI 
is only expected to grow throughout FY10.
    INL support is coordinated with DOD and other USG entities through 
the Narcotics Affairs Section (NAS) at Embassy Islamabad, an Embassy 
Border Coordinator, as well as other coordinating mechanisms in 
Washington and in Pakistan.

    Question. In Secretary Clinton's Executive Budget Summary for 
FY2011, she writes that the State Department and USAID ``have 
identified a limited number of joint high priority performance goals 
that reflect both agencies' high priorities and will be a particular 
focus for the two agencies from now through FY 2011.'' On Afghanistan 
and Pakistan, the goal is to ``strengthen the host country capacity to 
effectively provide services to citizens and enhance the long-term 
sustainability of development efforts by increasing the number of local 
implementers that can achieve a clean audit to clear them to manage 
civilian assistance funds.''

  <bullet> Please describe what steps the administration will take in 
        Afghanistan and Pakistan to achieve this commendable goal. What 
        type of program monitoring and evaluation will be taken to 
        measure success?

    Answer. We recognize from our attempts to strengthen the host 
country capacity to provide services that some ministries fare better 
than others. We have a system for certifying ministries to receive U.S. 
funds directly which we will expand in both countries. We are using 
fewer big contractors, reducing the bureaucratic layers through which 
our assistance flows, ensuring that more assistance money actually 
reaches those in need. And we are dramatically increasing the numbers 
of USAID officers and inspectors to monitor our aid.
    Additionally, President Karzai has announced several measures to 
reduce corruption and create a climate more conducive to achieving this 
goal, including: the simplification of administrative systems through 
the anticorruption commission, thus reducing the opportunity for 
corruption and improving basic services for the population, and the 
streamlining of international donor coordination through the Afghan 
Government. In terms of progress, Afghanistan has established its Major 
Crimes Task Force and is creating a commission against corruption.
    Several U.S. agencies work with a range of Afghan counterparts on 
training and building such capacity. There is also a crucial role to be 
played by the Afghan people themselves--through civil society 
organizations, media debate, and Parliament and other institutions--to 
set out what they need from their government and what they will be able 
to give in return.
    On Pakistan, as is consistent with best practices in international 
development, U.S. assistance will be directed increasingly through a 
broad range of Government of Pakistan institutions, as well as local 
nongovernmental organizations (including the private sector) with the 
capacity to implement programs effectively and accountably. This 
approach will help increase host country ownership, and U.S. commitment 
to building a long-term partnership with the Afghan Government and 
people.
    Procedures are being developed in Pakistan at both the national and 
provincial levels for channeling resources through governmental 
agencies with the capacity to implement programs effectively. 
Implementation letters for the provincial governments have been drafted 
and are under review. The USAID mission in Pakistan has also begun 
conducting preaward surveys of governmental and nongovernmental 
institutions that will likely be recipients of U.S. assistance 
resources.
    The U.S. Government will provide funds to the Pakistani Government 
and qualified Pakistani organizations through a variety of mechanisms: 
direct sector budget support; direct funding for federal government 
projects and programs; direct funding for provincial government 
projects and programs; direct funding to Pakistani NGOs; direct funding 
to Pakistani contractors; multidonor trust funds; and public-private 
partnerships. Where appropriate, such as for technical assistance to 
the Government of Pakistan and assistance in sectors where Pakistani 
entities do not have the proficiency or sufficient capacity, the U.S. 
Government will engage U.S and international firms and NGOs.
    This transition will take time. Current activities being 
implemented via U.S. firms and NGOs will not be terminated before 
systems are in place to provide services via Pakistani organizations in 
an accountable manner. Moreover, a ramp-up of infrastructure programs 
will require a short-term increase in the need for architectural and 
engineering, monitoring and evaluation services, and other specialized 
U.S.-based experts.

    Question. Pakistan Security Assistance.--The Department's budget 
request for FY 2011 includes $1.2 billion for the Pakistan 
Counterinsurgency Capability Fund (PCCF) and another $296 million for 
Pakistan in Foreign Military Financing (FMF)--not counting the hundreds 
of millions of dollars in reimbursements for Pakistani counterterror 
operations that we will likely pay with Coalition Support Funds. This 
higher funding trend really started with last summer's supplemental 
request; so that in the last two fiscal years Congress has already 
provided a combined $1.1 billion for the Pakistan Counterinsurgency 
Fund, and more than $500 million for Foreign Military Financing.

  <bullet> (a) What measures have you used to evaluate the effort's 
        progress, how much ground have gained in the last year on those 
        measures, and how much farther do we have to go?

    Answer (a). Foreign Military Financing (FMF) and the Pakistan 
Counterinsurgency Fund/Pakistan Counterinsurgency Capabilities Fund 
(PCF/PCCF): FMF and PCCF help Pakistan improve its counterinsurgency 
capabilities and modernize equipment. Specifically, FMF builds our 
long-term security relationship with Pakistan, including its will to 
fight violent extremism, while PCCF provides Pakistan with focused 
capabilities to support immediate counterinsurgency operations along 
the Afghanistan-Pakistan border. FMF has provided Pakistani security 
forces with air mobility and enhanced communication capabilities, and 
increased border security capacity.
    We are building our relationship with the Pakistanis in this area. 
Progress is evident in a number of areas. For example, over the past 
year, Pakistan's counterinsurgency operations in the Khyber-Pakhtunkhwa 
(formerly North West Frontier Province) and tribal areas have increased 
in scope and improved in quality, in large part due to U.S. assistance. 
However, the challenge we and the Government of Pakistan faces in 
combating extremism cannot be understated. We will only achieve success 
through sustained effort and continued funding of security assistance 
programs is integral to ensure progress.
    We measure progress through a number of ways, to include such 
metrics as: a significant reduction in insurgent safe havens and 
prevention of their return; acceptance by Pakistan's security forces of 
U.S. training; and increased cooperation to share information in 
support of operations against terrorist groups. The Exchange on Defense 
Planning also provides the opportunity for the United States to engage 
with Pakistan's military on strategic planning and procurement.

  <bullet> (b) How well are you able to track exactly how Pakistani 
        security forces are making use of the equipment we have been 
        providing them?

    Answer (b). The equipment has been procured through U.S. security 
assistance is critical to the fight. For example, the F-16 is used 
almost exclusively by the Pakistanis to target insurgents in the 
Khyber-Pakhtunkhwa and the Federally Administered Tribal Areas (FATA). 
According to the Pakistan Air Force, Pakistan flew 891 F-16s sorties 
between August 2008 and August 2009. Additionally, the Pakistan Navy 
has used its P-3 aircraft to conduct interdiction efforts to patrol its 
borders and to support Combined Task Force 150 (CTF-150), the 
multinational naval patrol force that engages in marine monitoring and 
interdiction activities in support of Operation Enduring Freedom and 
Operation Iraqi Freedom. Also, equipment like night vision goggles, has 
allowed Pakistan's security forces to operate at night which is a 
significant advantage over insurgents.

  <bullet> (c) How much longer do you plan this level of funding to 
        train and equip Pakistan's security forces?

    Answer (c). PCCF is designed to respond to changing operational 
requirements on the ground, it is difficult to predict, the level of 
counterinsurgency assistance that may be required in future years. 
Reiterate the scope of the challenge we and they are facing, making 
clear that it is likely that we will have PCCF needs in outyears.

    Question. The Obama administration has gone to some lengths to 
emphasize that the United States is not in the nation-building business 
in Afghanistan despite the investment of billions in economic 
assistance, including a $3.8 billion request for FY 2011. On January 
25, at a talk before the Center for American Progress, National 
Security Advisor Jim Jones emphasized again that we were not involved 
in ``nation building'' in Afghanistan, but rather ``capacity building."

  <bullet> How does the Obama administration define ``nation 
        building''? Is the United States currently involved in nation-
        building anywhere, and if so, please provide specific examples?
  <bullet> How does the Obama administration define ``capacity 
        building''? How does it apply in the Afghanistan context?
  <bullet> How does ``capacity building'' differ from ``nation 
        building'' in Afghanistan?
  <bullet> Is the United States involved in ``capacity building'' in 
        Pakistan? ``Nation building''? Please explain how the framework 
        of our Pakistan assistance strategy differs from our economic 
        assistance strategy for Afghanistan, given the similar 
        institutional weaknesses and other similarities in both 
        countries.

    Answer. As the administration has said publicly, we are 
accelerating the hunt for al-Qaeda and its extremist allies in 
Afghanistan through a surge in troops. Simultaneously, we are 
accelerating training for the Afghan National Security Forces and 
capacity-building assistance for the Government of Afghanistan. Both 
efforts will allow the Afghan Government to take the lead in 
Afghanistan. Neither effort is an open-ended commitment.
    Nation-building normally connotes development for development's 
sake or the type of wholesale recovery assistance the United States 
applied to Germany and Japan in the post-World War II era. We are doing 
neither in Afghanistan. The Afghan people and government are building 
Afghanistan, and the nature of the future Afghan state will be defined 
by the Afghans themselves. We are building their capacity to build 
their nation themselves. Building Afghanistan's capacity to stand on 
its own and provide for its own security is in our national interest. 
It will ensure that Afghanistan is never again a safe haven for 
terrorists targeting the United States.
    In terms of capacity-building in Afghanistan and its 
implementation, our strategy reflects the urgency President Obama has 
directed to reverse negative trends in the region. It consists of the 
following key elements, which are integrated and synchronized with 
military activities to achieve short-, medium-, and long-term 
objectives. The success of civilian programs depends on an improving 
security environment in Afghanistan.
    Reconstruction and Development: Job creation is critical to 
undermine extremists' appeal in the short term and for sustainable 
economic growth in the long term. Our top reconstruction priority is 
implementing a civilian-military (civ-mil) agriculture redevelopment 
strategy to restore Afghanistan's once vibrant agriculture sector. This 
will help sap the insurgency of fighters and of income from poppy 
cultivation. Creating links to cross-border trade, while also 
increasing the Afghan Government's capacity to secure its borders and 
increase customs revenue, will support sustainable long-term economic 
growth and job creation in the agriculture and other sectors. 
Simultaneously, we are sustaining efforts to build the Afghan 
Government's capacity to provide improved health and education 
services.
    Improving Governance: Our governance efforts are helping to develop 
more responsive, visible, and accountable institutions in Kabul, 
particularly at the provincial, district, and local level, where most 
Afghans encounter their government. We continue to increase the number 
of civilian technical advisers in key central government ministries, as 
well as provincial capitals and district centers, to partner with 
Afghans in this capacity building effort. We also are supporting the 
Afghan Government's reinvigorated plans to fight corruption, with 
measures of progress toward greater accountability.
    Rule of Law: Justice and rule of law programs focus on creating 
predictable and fair dispute resolution mechanisms to eliminate the 
vacuum that the Taliban have exploited. Our rule of law efforts 
complement ISAF's expanded emphasis on training capable Afghan National 
Police and support Afghan-led anticorruption efforts.
    Advancing the Rights of Afghan Women: Investing in women helps 
advance our civilian stabilization efforts and strengthen Afghan 
communities' capacity to withstand the threat posed by extremism. 
Sustaining and expanding critical gains in women's rights and 
empowering Afghan women is also critical to unleashing the full 
economic potential of the Afghan people. Integrated into our 
programming are key initiatives focused on: women's security; women's 
leadership in the public and private sector; women's access to judicial 
institutions, education, and health services; and women's ability to 
take advantage of economic opportunities, especially in the 
agricultural sector.
    Focused Civilian Assistance: The President's resource request for 
our strategy includes a sizable amount for civilian assistance to 
implement our programs. Aligned with our national security objectives, 
civilian assistance helps to build Afghan capacity in key areas and 
also reassure Afghans that our commitment is long term. We are 
decreasing reliance on large contractors and increasing our direct 
assistance to select Afghan ministries we have certified for 
transparency and accountability. Recognizing that we cannot abandon 
Afghanistan as we did in 1989 following the Soviet withdrawal, our 
civilian effort must be sustained beyond our combat mission so 
Afghanistan does not become a safe haven for al-Qaeda.
    Expanded Civilian Presence: Accompanying an increase in civilian 
assistance is an ongoing, significant increase in civilian experts--
beyond the tripling of deployed U.S. civilians that occurred over the 
past year, from 320 civilians on the ground in Afghanistan in January 
2009 to over 950 on the ground today. Civilian experts partner with 
Afghans to enhance the capacity of government institutions and help 
rehabilitate Afghanistan's key economic sectors.
    In terms of capacity-building in Pakistan, we are partnering with a 
nation with much greater capacity and a more developed infrastructure 
than in Afghanistan. We are working with the international community in 
helping Pakistan overcome the political, economic, and security 
challenges that threaten its stability, and in turn undermine regional 
stability. And we seek to build a long-term partnership with Pakistan 
based on common interests, including a recognition that we cannot 
tolerate a safe haven for terrorists whose location is known and whose 
intentions are clear.
    We are making a sizable, long-term commitment of economic 
assistance, consistent with the landmark Kerry-Lugar-Berman legislation 
that authorized $7.5 billion in U.S. civilian assistance over 5 years, 
with the following objectives:

  <bullet> Helping Pakistan address immediate energy, water, and 
        related economic crises, thereby deepening our partnership with 
        the Pakistani people and decreasing the appeal of extremists;
  <bullet> Supporting broader economic and democratic reforms necessary 
        to put Pakistan on a path toward sustainable job creation and 
        economic growth, which is necessary for long-term Pakistani 
        stability and progress; and helping Pakistan build on its 
        success against militants and the elimination of extremist 
        sanctuaries.
    Additional U.S. assistance is helping Pakistan build a foundation 
for long-term development and strengthen ties between the American and 
Pakistani people. Both are demonstrating that the United States is 
committed to addressing problems that affect the everyday lives of 
Pakistanis. Where security and capacity allows, the United States 
Government will provide assistance through Pakistani implementers to 
enhance the long-term sustainability of our efforts. As in Afghanistan, 
the security environment, particularly in the North West Frontier 
Province and Federally Administered Tribal Areas, will impact the 
success of some assistance programs. A particular emphasis in those 
areas is strengthening Pakistani communities against extremism in part 
by assisting marginalized citizens, including women and youth.

    Question. Last year Congress provided separate funding to begin 
reversing the deferral of our contributions to international 
organizations until the very end of the fiscal year. But this year's 
budget request does not explicitly request additional funding to 
continue that effort.

  <bullet> Are you seeking funding to continue the process of reversing 
        our deferral of payments to international organizations--
        particularly those carrying out key national security missions 
        such as the International Atomic Energy Agency, the 
        Organization for the Prohibition of Chemical Weapons, and the 
        North Atlantic Treaty Organization?
  <bullet> If you haven't requested such funds, why not?

    Answer. The Department did not include a specific request for funds 
for reversing deferral in the FY 2011 budget. The administration had to 
make many difficult decisions during the FY 2011 budget process, 
balancing competing priorities within the constrained level of the 
Department's overall budget request for State Operations.
    The Department anticipates completing the process of reversing 
deferral at the Organization for the Prohibition of Chemical Weapons 
(OPCW) and the North Atlantic Treaty Organization (NATO) with funds 
available for this purpose in FY 2010. If any FY 2010 funds still 
remain after reversing deferral at OPCW and NATO, the funds would go to 
beginning the process of reversing deferral at the International Atomic 
Energy Agency.

    Question. The President's budget requests $350 million to fund 
voluntary U.N. organizations and agencies, representing a 10 percent 
decrease from FY10. Among those organizations receiving decreases in 
funding is the U.N. Development Program.

    Answer. The FY 2011 President's Budget includes $350.55 million for 
voluntary contributions through the International Organizations and 
Programs account. Due to the constrained overall budget level, the FY 
2011 request for this account is a slight decrease from the FY 2010 
request level of $356.66 million. The FY 2011 request for the U.N. 
Development Program, however, is the same level requested in FY 2010.

    Question. What are your plans for nominating someone to fill the 
position of Representative of the United States to the United Nations 
for U.N. Management and Reform?

    Answer. We share the committee's view of the importance of U.N. 
budget and reform issues, including increasing the efficiency and 
effectiveness of U.N. programs and ensuring budget discipline. The 
administration is currently considering candidates for the position of 
Representative of the United States to the United Nations for U.N. 
Management and Reform to help advance this agenda. The USUN Management 
and Reform Section is currently being led by Ambassador Joseph Melrose 
(retired).

    Question.

  <bullet> Please describe the transition between the U.N. procurement 
        task force and its integration into the OIOS. How many 
        investigators from the Procurement Task Force have been hired 
        by OIOS? Is the investigations department of the OIOS [in] 
        operation? How many investigations are currently ongoing? Why 
        did the U.N. not renew funding for the Procurement Task Force?
  <bullet> Robert Appleton, who headed to the Procurement Task Force, 
        applied to be OIOS's director of investigations more than a 
        year ago. But after a hiring panel selected him and 3 other 
        finalists from a pool of 73 candidates, another board recently 
        decided to restart the process, because all 4 finalists were 
        American males, according to U.N. officials in media reports. 
        What is the process of hiring a director of investigations? 
        What is the status of Robert Appleton's candidacy? What steps 
        is USUN and IO taking to ensure this position is filled and 
        that OIOS is operational and continues the investigative work 
        started by the Procurement Task Force?
  <bullet> The U.N.'s investigative and oversight chief Inga-Britt 
        Ahlenius is being accused of systemic mismanagement and 
        favoritism in a letter from her staff, copied to Secretary 
        General Ban Ki-moon and all staff of her Office of Internal 
        Oversight Services.
  <bullet> Please comment on the overall effectiveness of the head of 
        OIOS, Inga-Britt Ahlenius.

    Answer. Following the General Assembly's decision to transfer the 
Procurement Task Force's (PTF) functions and caseload into the Office 
of Internal Oversight Services (OIOS) Investigations Division (ID) in 
December 2008, Undersecretary General Inga-Britt Ahlenius established, 
with our strong support, a distinct unit within the ID to handle 
financial, economic, and administrative misconduct cases and the 
remaining PTF cases. This new headquarters unit was to be staffed with 
at least eight permanent investigators headed by a Unit Chief at the P-
5 level (senior investigator). Initially, three former PTF staff were 
hired full-time to this unit. An additional nine people (eight of whom 
were former PTF staff) were hired temporarily to help with the PTF 
transition. According to OIOS, six former PTF staff are currently 
employed with OIOS, four of them elsewhere in the ID. Currently, there 
are 50 investigators and 214 open active investigations (32 of which 
are former PTF cases) within the ID. The U.N. did not renew funding for 
the PTF as it was meant to be a temporary body to deal immediately with 
a vulnerable area of procurement and financial fraud within the 
Secretariat following the oil-for-food scandal.
    The process of hiring the director of investigations begins with 
advertisement of a vacancy announcement on the U.N. Web site. Once the 
announcement closes, a short list of selected candidates is developed 
by the head of OIOS based on the recommendations of a panel of experts 
established to assist the head of OIOS. The final selection or 
selections by the head of OIOS are submitted to the Secretary General 
for his approval and appointment.
    In the fall of 2008, OIOS Head Inga-Britt Ahlenius selected Robert 
Appleton as the best candidate following a unanimous recommendation by 
the panel and presented him as her choice to be the next director of 
investigations. The Secretary General rejected the appointment because 
of the failure of Ms. Ahlenius to follow the U.N. rules generally on 
recruitment and appointment of senior level officials which includes a 
requirement to submit three final candidates, one being a woman. The 
vacancy was then readvertised, and following another selection process, 
Mr. Appleton was again submitted by Ms. Ahlenius to the SYG as the most 
qualified candidate, but again she refused to submit three candidates, 
one being a woman. Unfortunately, the Secretary General and Ms. 
Ahlenius still have not reached agreement over this appointment. 
Ambassador Rice has raised this issue directly with the Secretary 
General and Ms. Ahlenius, and continues to press for robust and 
vigorous work on investigations.
    Ms. Ahlenius was appointed to head OIOS in July 2005 due to her 
extensive experience in the area of audits and strong reputation for 
promoting high ethical standards and transparency. She has been at the 
forefront of the U.N. in promoting these goals. However, despite her 
strong principles and background in audits, her management of the OIOS 
has not been effective in the area of investigations. Ms. Ahlenius 
relied heavily on Mr. Appleton and his expertise when he served as 
chairman of the PTF. When the PTF ended and Mr. Appleton departed, the 
management of investigations suffered.

    Question. In January 2011, Southern Sudan is scheduled to hold a 
referendum on the question of unity or separation under the terms of 
the Comprehensive Peace Agreement. Over the next 10 months, Sudan--both 
North and South--must continue to work to complete critical 
arrangements over borders, citizenship, revenue, and other critical 
issues. At the same time, Southern Sudan must prepare for the 
challenges of potential independence while confronting growing violence 
within its own borders. Please summarize the contours of U.S. support 
for Southern Sudan.

  <bullet> How much are we providing in assistance and what are our 
        goals for FY 2010 and FY 2011? Given the urgency of the 
        timeline on the ground there, how much of this assistance can 
        be expected to be programmed prior to January 2011?

    Answer. The promotion of a peaceful and stable Sudan, whether as a 
unified state or two separate entities coexisting peacefully, and full 
implementation of the Comprehensive Peace Agreement (CPA) continue to 
be top United States Government (USG) priorities within the Sudan 
Strategy. In FY 2010, the USG is focused on ensuring stability, as well 
as promoting security and the rule of law in Sudan. Whether the 
decision is independence or to remain a semiautonomous region of a 
unified Sudan, our assistance is designed to help the Government of 
Southern Sudan (GOSS) prepare to govern responsibly.
    The USG spent approximately $900 million in FY 2009 humanitarian 
assistance funding in Sudan and eastern Chad related to Darfuri 
refugees. The nonhumanitarian budget for FY 2009 assistance to Sudan is 
$376.7 million. For FY 2010, the USG budget for nonhumanitarian 
assistance to Sudan is $427.8 million. Because humanitarian assistance 
is allocated on a worldwide, as needed basis throughout the year we do 
not yet have the humanitarian budget totals for Sudan for FY 2010 or FY 
2011. For FY 2011, the administration has requested $439.9 million in 
nonhumanitarian assistance for Sudan.
    Though the operating environment is uncertain for the coming year, 
it is anticipated that the FY 2009 funding and a significant portion of 
the FY 2010 funding will be programmed in the lead up to the January 
2011 referenda. Given the urgency of the January events, every effort 
will be made to program the resources as quickly as possible. Of the FY 
2010 funding, approximately $20 million is going to support the January 
2011 referenda or referenda related programs. While FY 2011 funds will 
not likely be available prior to the referenda, the FY 2011 budget 
request for nonhumanitarian assistance of approximately $439.9 million 
will be critical to support the above initiatives in Southern Sudan, 
the Three Areas of Abyei, Blue Nile, and Southern Kordofan, and 
possibly other vulnerable regions in Sudan following the referenda, 
regardless of outcome. In order to prepare Southern Sudan for the 
potential of independence or permanent semiautonomous unification with 
the North, USG assistance is focused on improving peace and security, 
increasing capacity for just and democratic governance by the (GOSS), 
investing in the needs of the people of Southern Sudan, and providing 
the necessary tools and training to foster economic growth. 
Additionally, the USG envisions that significant humanitarian 
assistance will continue to be needed over FY 2010 and FY 2011 to 
address ongoing humanitarian needs. The USG is continuing to provide 
assistance for reintegration of southern Sudanese returnees and 
refugees from the Democratic Republic of Congo currently in Southern 
Sudan. The USG partners with the U.N. High Commissioner for Refugees 
(UNHCR), which is involved in ongoing contingency planning in the 
leadup to the January 2011 referendum.
    In FY 2011, the USG will also address the threat of new or renewed 
conflict by increasing attention and funding for conflict prevention 
and mitigation programs that focus on peace dividends, local solutions 
to community conflict, successful implementation of important political 
processes, and the peaceful mediation by state authorities of local 
conflict. Support will be provided for efforts to resolve post-2011 
issues, including cross-border development, security and movement, 
interethnic relationships, and oil security.
    A key USG objective for FY 2010 and FY 2011 is the 
professionalization and training of the GOSS military and the Southern 
Sudan Police Services (SSPS). In particular, the USG recognizes the 
significance of assisting the SSPS with strategic planning, training, 
literacy, resources, and infrastructure development so that they can 
develop the capacity to mitigate security threats and enforce the rule 
of law. The transformation of the GOSS military and police forces are 
crucial to promoting the long-term stability and security of Southern 
Sudan. Another key goal of the FY 2010 and FY 2011 budgets is 
supporting just and democratic governance in Southern Sudan. More 
specifically, USG assistance will contribute to existing efforts to 
strengthen core government institutional development and build capacity 
at the various levels of government, facilitate consensus-building, 
strengthen the post-elections legislative assembly, and strengthen 
civic participation in the interim and post-CPA periods. Our funds will 
enable the government to expand the delivery of services and deepen the 
accountability, transparency, and responsiveness of key government 
institutions in the South, as well as the Three Areas. In FY 2011, we 
will build on existing programs to improve key public sector executive 
functions in the GOSS and strengthen anticorruption efforts, financial 
governance, civil service reforms, and GOSS efforts toward 
decentralization. USG assistance will also go toward promoting greater 
civil society involvement, civic education, and government 
responsiveness to the views of Southern Sudanese constituents.
    The USG is committed to assisting the GOSS invest in its people by 
engaging local stakeholders in rebuilding health and education systems 
at central, state, and county levels. Our FY 2011 budget is focused on 
health care delivery in target areas, specifically through the 
strengthening of maternal and child health services and the expansion 
of access to high-quality voluntary family planning and reproductive 
health care services and information. USG assistance will support 
interventions that target priority health threats, improve potable 
water and sanitation resources, nutrition, and reduce the burden of 
infectious diseases, particularly HIV/AIDS, malaria, tuberculosis, 
polio, and neglected tropical diseases. In order to address these 
goals, the FY 2011 budget will support improvements in six health 
system components: health governance in administration, human 
resources, health management information systems, financial management, 
logistics, and service delivery.
    In terms of education, the USG will continue to work on affecting 
systemic changes at the subnational, state, and county levels for more 
equitable gender-based policies and practices in education. Funds will 
be used for formal and nonformal education activities to improve the 
quality and access of basic educational services, particularly for 
girls and women. USG assistance will provide teacher training, 
curriculum reform and development, and government capacity-building to 
plan, budget, administer, and manage education delivery, all in an 
effort to help build long-term sustainability of Southern Sudan 
educational services.
    Last, USG funds for FY 2010 and FY 2011 will be focused on 
improving economic capacity and business opportunities across Southern 
Sudan to rebuild a growing private sector economy, especially 
agriculture-based, which is critical to increasing jobs for the 
unemployed youth and increasing nonoil revenues for the GOSS. USG 
assistance will build and improve roads in order to facilitate local 
and regional trade and service delivery; we will also enhance modern 
energy services in the key towns of Southern Sudan. In order to meet 
our economic growth objective, USG assistance will seek to create an 
enabling and fiscally disciplined environment for business and new 
employment opportunities, as well as to improve the capacities of the 
GOSS in fiscal management, policy, regulatory matters, budget planning, 
and procurement. We will provide technical assistance and business 
training to Sudanese construction firms for rebuilding the country, and 
we will promote private sector development by supporting 
entrepreneurship through microfinance lending, assistance with land-
reform policies, and establishing new agriculture activities. In terms 
of agricultural production, expansion, and reform, the underlying 
objective of U.S. assistance will be to improve overall food security.

    Question. The Global Health Initiative (GHI) calls for 
substantially increased spending, programmatic development, and 
monitoring and evaluation. Will additional staffing, with funding, be 
provided for posts to carry out these expanded duties?

    Answer. In addition to the efficiency gains we fully expect through 
improved GHI coordination and collaboration, we are currently reviewing 
the staffing patterns at USAID to ascertain what changes are necessary 
to support the GHI in both the field and Washington. In addition, the 
GHI Plus countries will have access to the GHI Reserve Fund and can 
request funds based on what is most needed on the ground, whether that 
be additional technical assistance, management, or other staffing 
needs. Finally, we will continue building the USAID workforce through 
the Development Leadership Initiative (DLI), employing new health 
officers through this program to further strengthen the Agency's 
capacity to execute, monitor and evaluate health programming.

    Question. I am concerned about a $50 million cut in proposed 
support for the Global Fund to Fight AIDS, Turberculosis, and Malaria 
from the enacted level for FY 2010. At the same time, the Consultation 
Document for the GHI offers little information on how implementers of 
this plan will work with the Global Fund. Please describe the planned 
interaction between the U.S. Global Health Initiative and the 
multilateral Global Fund.

  <bullet> Could you explain the rationale for this cut from the 
        enacted level for FY 2010?

    Answer. Global AIDS Coordinator Eric Goosby, who serves as the U.S. 
Government Global Fund Board Member, has consulted with Global Fund 
Executive Director Michel Kazatchkine about the GHI. Deputy Global AIDS 
Coordinator Ann Gavaghan held consultations with other Board donor and 
implementing bloc delegation members about the GHI at the Global Fund 
Board meeting in November 2009 in Addis Ababa, Ethiopia. The GHI 
Consultation Document outlines the broad themes for interaction between 
the U.S. GHI and multilateral donors, including the Global Fund: 
``Strengthening and leveraging other efforts: The GHI is built on the 
recognition that improving global health outcomes is a shared 
responsibility. The needs are too vast and the challenges too great for 
any one country or organization to address alone. The U.S. Government 
will join multilateral efforts involving the United Nations and others 
to make progress toward achieving Millennium Development Goals 4, 5, 
and 6. Indeed, a key principle of the GHI is to strengthen and leverage 
key multilateral organizations, global health partnerships, and private 
sector efforts . . . the GHI will strengthen the U.S. Government's 
already close collaboration with the Global Fund . . . the GHI will 
emphasize accountability for achieving substantive outcomes and 
rigorously monitor impact without increasing the reporting and 
administrative burdens on partner countries. Indeed, harmonizing and 
reducing these reporting requirements is a key element of the GHI's 
approach to monitoring and evaluation.''

    Question. Multidrug resistant (MDR) TB represents a grave and 
growing health threat globally and potentially in the United States as 
well. Enhancing laboratory capacity is a critical component of 
addressing MDR-TB and a core feature of health systems strengthening as 
outlined in the GHI. The designated target in the GHI, of detecting and 
treating 57,200 multidrug resistant cases of TB, however, is 
significantly lower than the objective set out in the Lantos-Hyde 
legislation to support the diagnosis and treatment of 90,000 new MDR 
cases by 2013. Please explain the rationale for this lower target and 
the practical implications of this and other differences regarding 
targets for tuberculosis between the GHI and Lantos-Hyde.

    Answer. We established conservative targets that took into account 
the impact of currently available diagnostics and drugs. The treatment 
of 57,200 cases of MDR TB in USAID priority countries represents a 
significant increase compared to the mere 6,000 cases of MDR TB that 
were treated according to international standards globally in 2008. 
However, these targets could be surpassed substantially with the 
introduction of new technologies and enhanced donor contributions to 
the Global Fund and other TB control programs. We are working with 
public-private partnerships on the development and introduction of new 
diagnostics and drugs, and once clinical trials and country level 
evaluations are completed, we anticipate that these new tools will help 
to accelerate TB case detection and shorten treatment duration. In 
addition, country level evaluations of more rapid tests for MDR TB are 
already underway in numerous countries, and the clinical trials on 
several new drugs to treat TB are promising. These developments could 
substantially increase our impact.

    Question. Climate Change.--The United States recently associated 
itself with the Copenhagen Accord and pledged to reduce greenhouse gas 
emissions in the range of 17 percent by 2020. There are now over a 
hundred countries associated with the Copenhagen Accord, of which 
approximately 60 countries have voluntarily inscribed carbon pollution 
reduction pledges.

  <bullet> (a) What are the next steps in implementing this Accord and 
        what role do you see the administration playing in these 
        efforts?
  <bullet> (b) How does the administration plan to deliver on its 
        contribution to the global climate finance goal of $100 billion 
        annually by 2020? Recognizing that this finance goal will be 
        reached through a combination of support from both the public 
        and private sectors, what mechanisms do you find most promising 
        for mobilizing these sectors?
  <bullet> (c) Do you believe that domestic legislation is necessary to 
        fulfill our mitigation commitment? How would failure to pass 
        legislation impact the implementation of the Copenhagen Accord 
        and the ability of the global community to achieve necessary 
        reductions?

    Answer (a). To date, 120 countries have associated with the 
Copenhagen Accord, accounting for more than 80 percent of global 
greenhouse emissions. We will continue to encourage countries to 
associate with the Accord and inscribe their commitments to mitigate 
their greenhouse gas emissions. At the same time, we are now working 
with partners in a variety of fora to operationalize all elements of 
the Accord, including the provisions on mitigation, transparency, and 
financing.
    Answer (b). In Copenhagen, in the context of meaningful mitigation 
actions and transparency on implementation, we committed to working 
with other developed countries to jointly mobilize USD$100 billion a 
year by 2020. We anticipate continued scaling-up of public financing 
through bilateral and multilateral channels, particularly to support 
adaptation, capacity-building, and other developing country climate 
priorities, as well as work to reduce barriers to market-based 
approaches.
    However, private sector finance driven by carbon markets is 
anticipated to account for the majority of funding flows to mitigate 
greenhouse gas emissions. While governments cannot direct private 
capital, creating the right incentive structure can help accelerate an 
already strong trend toward low-carbon investment. Domestic mitigation 
targets will be essential in directing investment flows toward low-
carbon alternatives in each sector, and efficient and liquid carbon 
markets will be important in transmitting the carbon price signal 
throughout the economy.
    Strong federal legislation with a cap-and-trade component could 
significantly assist our efforts to meet these climate finance 
objectives--in particular, through auctioning set-asides and 
international offset provisions.
    Answer (c). The administration supports the passage of 
comprehensive clean energy and climate legislation to bolster the 
American economy, enhance our national security, set the United States 
on a path to reduce our greenhouse gas emissions and be a leader in 
clean energy technology. Failure to pass legislation would negatively 
impact the leadership position of the United States in the climate 
negotiations and the ability of the global community to achieve 
necessary greenhouse gas reductions.

    Question. Last year, when asked about modernizing the U.S. foreign 
assistance apparatus, you responded that it was something you would 
pursue vigorously. Since that hearing, you authorized the Quadrennial 
Diplomacy and Development Review, meant to provide ``short-, medium-, 
and long-term blueprint for our diplomatic and development efforts'' 
and guidance on ``how we develop policies; how we allocate our 
resources; how we deploy our staff; and how we exercise our 
authorities.'' In a similar vein, the White House announced a 
Presidential Study Directive on Global Development Policy meant to be a 
whole-of-government review of U.S. development policy.

  <bullet> What legislative outcomes do you expect to come from the 
        QDDR? Will requested legislation be similar in scope to S. 
        1524--the Foreign Assistance Revitalization and Accountability 
        Act, passed out of this committee last November?

    Answer. The QDDR addresses many aspects of the Foreign Assistance 
Revitalization and Accountability Act and shares its overarching 
objective of strengthening the capacity of USAID and State to establish 
and implement effective global development policies and programs [note: 
the QDDR does not deal with other agencies]. During Phase 2 of the 
QDDR, task forces are being instructed to identify any legislative 
changes that would be necessary to implement their recommendations. 
Thus, while it is possible that some QDDR recommendations will require 
legislative action, it is premature to determine whether or not that is 
the case. The QDDR's recommendations will also be reflected in the FY 
2012 budget request. We look forward to engaging with you and hearing 
your views on the QDDR Phase 2 priority areas.

    Question. Relationship Between the Department of Defense and the 
State Department.--In the FY11 budget request, the State Department 
asks Congress to fund three items (``to begin to rebalance roles 
between DOD and State'') that in past years have been entirely or 
largely funded through the DOD budget: Pakistan Counterinsurgency 
Capability Fund ($1.2 billion), Iraq Police Training ($295 million), 
and the USAID Complex Crises Fund for reconstruction, security and 
stabilization activities ($100 million).
    Pakistan Counterinsurgency Capability Fund (PCCF). The Department 
is requesting $1.2 billion for the PCCF and another $296 million for 
Pakistan in Foreign Military Financing (FMF). Could you cite some 
specific examples to explain why you need the PCCF because FMF would 
not work? Could you explain how the two accounts will be managed and 
executed differently? Last year when Congress provided the State 
Department $700 million for the PCCF, the Department transferred all of 
the money as soon as it got it, in one fell swoop, to the Defense 
Department for it to manage. Are you going to do the same thing this 
time? How will it be different?

    Answer. The Pakistan Counterinsurgency Capability Fund (PCCF) is 
designed to complement Foreign Military Financing (FMF), not replace 
it. Both tools are designed to support our foreign policy objectives. 
PCCF is designed to focus funds on a specific country--Pakistan--with a 
specific need--enhancing counterinsurgency (COIN) capability. It 
authorizes assistance for the full range of Pakistani security forces 
relying upon selected Foreign Assistance Act authorities as well as the 
FMF authority under the Arms Export Control Act. FMF will enhance the 
ability of Pakistan's military to mitigate against existing and 
emergent threats, participate in international stability operations, 
and meet its legitimate defense needs. Our use of FMF to support 
Pakistan's COIN requirements will be targeted toward providing 
capabilities that bridge the immediate requirements met by PCCF to more 
enduring transformational solutions.
    The Department is continuing to develop our oversight and 
management procedures for PCCF with the goal of preserving the 
flexibility and agility needed to support the requirements in the field 
while ensuring that this is truly a State Department-managed program. 
Both State and DOD are committed to the successful implementation of 
PCCF as a State Department-managed program in FY 2011 with the goal 
being a seamless transition of the program. A major difference in the 
management of PCCF will be increased State Department oversight and 
involvement throughout the execution process, which will ensure that 
this major assistance program aligns with our broader foreign policy 
objectives in Pakistan.
    As is true with FMF and the Pakistan Counterinsurgency Fund (PCF), 
DOD will continue to be the primary program executor. We are currently 
engaged in discussions with our DOD counterparts over how best to 
manage PCCF so that it preserves the flexibility and agility needed to 
support requirements in the field.

    Question. Complex Crises Fund.--The administration has requested 
$100 million for the Complex Crises Fund which it will use in a similar 
manner to DOD's $100 million section 1207 authority--to respond to 
emerging or unforeseen crises through support for reconstruction, 
security, or stabilization. Who will administer this fund? What 
criteria will guide which projects will be funded? Will this replace 
section 1207 funds?

    Answer. The goal of the Complex Crises Fund (CCF) is to advance 
peace and stability through the prevention of and/or timely response to 
emerging or unforeseen complex crises overseas, and to seize 
opportunities to advance peaceful transitions, democratic governance, 
and development progress. The CCF was created in the FY 2010 Department 
of State, Foreign Operations, and Related Programs Appropriations Act 
(SFOAA) (Div. F, P.L. 111-117), consolidating what had been separate 
budget requests for a Rapid Response Fund and a Stabilization Bridge 
fund. For FY 2010, the SFOAA directs USAID to administer the $50 
million fund, in consultation with the Secretary of State. FY 2010 is 
the last year for security, reconstruction, and stabilization-related 
funding under section 1207 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2006 (P.L. 109-163), as amended, which 
authorizes DOD to transfer up to $100 million to the Secretary of State 
by September 30, 2010. These funds could be used by any agency 
undertaking appropriate foreign assistance activities at the direction 
of the Secretary of State. Section 1207 program decisions have been 
made under an interagency concurrence mechanism managed by State (the 
Office of the Coordinator for Reconstruction and Stabilization), which 
is independent of the CCF. In FY 2010, section 1207 funds total $100 
million; thus, together with CCF funds, $150 million is available 
during FY 2010 between the two accounts. USAID has established a 
standing interagency working group to help administer CCF projects and 
guide their development and execution. The administration's FY 2011 
request of $100 million for the CCF is lower than the combined total of 
section 1207 and CCF funds available in FY 2010. It is the first year, 
however, that all of the funds and authorities to prevent or respond to 
emerging or unforeseen complex crises overseas are sought to be granted 
to the Secretary of State.

    Question. On December 15, 2009, Secretary Gates sent a memo to 
Secretary Clinton in which he proposed a ``Shared Responsibility, 
Pooled Resources approach'' for DOD and State to work together on 
security assistance with funding mechanisms for security capacity-
building, stabilization, and conflict prevention overseas. What is your 
reaction to Secretary of Defense Gates' proposal to have ``shared 
responsibility and pooled resources?'' Who would be in charge of those 
funds and the personnel in the field?

    Answer. My staff is carefully reviewing this proposal, which 
touches on topics that are currently being addressed in the QDDR and 
other ongoing administration reviews. The concept of pooled resources 
is an intriguing one that has been proposed in various forms over the 
past decade. It is one of many concepts that are being evaluated in our 
ongoing reviews which contemplate a variety of implementation 
mechanisms. The outcomes of these reviews will inform the FY 2012 
budget and legislative cycle, which I expect will provide a more 
comprehensive direction on security capacity-building, stabilization, 
and conflict prevention activities overseas. It is critical that we 
find mechanisms which provide adequate funding, but also ensure that 
all assistance activities support our broader foreign policy goals.

    Question. Police Training.--There have been significant criticisms 
over the way in which the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs (INL) oversees and implements 
police training worldwide. For example, the Special Inspector General 
for Iraq (SIGIR) recently released a report asserting that the State 
Department cannot account for more than $1 billion it paid out to 
contractor DynCorp to train police during the first years of the Iraq 
war. This raises questions about whether INL has sufficient capacity to 
appropriately oversee this important function. Yet, the FY10 war 
supplemental will shift responsibility for police training in Iraq from 
DOD to State, requesting $517.4 million to fund this effort, INL is 
also responsible for an estimated 2.5 billion dollars' worth of funds 
spent on training police around the world.
    There have been significant criticisms over the manner in which the 
State Department's Bureau of International Narcotics and Law 
Enforcement Affairs oversees police training. Does INL have the 
personnel and organizational capacity to properly oversee and implement 
police training?

    Answer. The Department acknowledges that the rapidly expanding 
demand for trained police in both Iraq and Afghanistan at times 
strained our efforts to provide optimal oversight. The Department 
recognized the need to expand contract oversight for our police 
training programs and is taking all appropriate steps to add staffing 
and standardize procedures. The Department's Bureau of International 
Narcotics and Law Enforcement Affairs (INL) is in the process of adding 
significantly more contract officers on the ground and reviewing INL 
contract management business processes and management controls, and 
establishing detailed Standard Operating Procedures the contract 
officers. This will enable the successful implementation of existing 
quality assurance surveillance plans. We have learned from the 
continually evolving program demands in Iraq and Afghanistan that we 
must respond with greater oversight by adding specialized personnel 
with technical skills necessary to effectively oversee and manage INL 
police training programs.
    INL does have the personnel and organizational capacity to properly 
oversee and implement police training programs. INL has operated 
numerous successful police missions throughout the world including 
those in Bosnia, Kosovo, Liberia, Georgia, and East Timor. In each of 
these missions, INL has demonstrated the ability to work with 
multinational partners and host governments in providing effective 
police training services and facilitating police reform. INL conducted 
the first civilian police (CIVPOL) mission in Haiti in 1994. Since 
then, over 7,000 U.S. law enforcement personnel have participated in 
police development missions in 16 nations. The missions in Iraq and 
Afghanistan, conducted in hostile environments, have been particularly 
challenging as police training needs must be flexible and responsive to 
fluctuating demands driven by military operations.
    In Iraq, INL is designing the future Iraq police development 
program to include a much higher proportion of USG direct hire 
personnel--approximately one USG employee for every six contractors to 
ensure proper management and oversight. Overall INL will employ 350 
senior law enforcement officials and subject matter experts--supported 
by additional program staff in Washington and Baghdad--to focus on 
institutional development and capacity building in the Iraqi police 
services ensuring sustainability of police reform in Iraq.

    Question. What steps are being taken to strengthen INL's ability to 
oversee this function? Should we consider transferring responsibility 
of this function to another entity--such as USAID or the Coordinator 
for Stabilization and Reconstruction
(S/CRS)? Does INL rely too heavily on contractors to implement police 
training--does the State Department need to build in-house capacity to 
handle this function?

    Answer. As outlined in the response to Senator Kerry's question 
above, the Department of State Bureau of International Narcotics and 
Law Enforcement Affairs (INL) has significant experience with managing 
police training programs throughout the world. Large-scale programs in 
Iraq and Afghanistan present unique challenges and INL is responding 
with greater oversight and the addition of personnel with technical 
skills necessary to effectively oversee and manage these police 
training programs.
    INL is the only USG entity with the operational experience, 
technical expertise and the mandate to implement such foreign police 
training missions. The Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) was established to coordinate USG interagency 
resources and institutionalize USG civilian capacity to prevent or 
prepare for post-conflict situations. S/CRS has begun to build police 
and rule of law expertise within its Civilian Response Corps Active 
component. Though this is vital to U.S. efforts in reconstruction and 
stabilization around the world,
S/CRS cannot replace regional and functional bureau expertise. S/CRS 
can provide assistance but lacks the operational background and subject 
matter expertise to conduct a sustained, advanced skill-based police 
development program such as that planned for Iraq. To require S/CRS to 
perform this function would detract from its core mission.
    Likewise, the U.S. Agency for International Development (USAID) 
does not have police training as a core function, and lacks INL's depth 
of expertise to conduct broad-based international police development 
programs around the world. USAID has conducted limited training in 
community policing and INL will use lessons learned from its own 
programs and that of USAID's as it designs the curriculum for the Iraq 
police development program.
    Although the Department of State and its interagency partners 
historically have relied on contracts to secure subject matter 
expertise for its police development efforts, INL is exploring 
different mechanisms that will allow it to tap other sources of police 
training expertise, such as a recent Memorandum of Understanding signed 
with the New York City Police Department to support the police training 
mission in Haiti. Specific to Iraq, INL is designing the future police 
development program to include a much higher proportion of USG direct 
hire personnel--approximately one USG employee for every six 
contractors. In addition, INL's program offices in both Baghdad and 
Washington, DC are expanding the number of USG subject matter experts 
to manage directly the police program in the field and in Washington. 
This in-house capacity will serve as the foundation of continuing 
police development efforts in Iraq.

    Question. Turning Over Civilian Police Training to the Military in 
Afghanistan.--The President's new strategy depends heavily on training 
the Afghan army and police to defend their country. While you have been 
supportive of the President's determination to devote more resources to 
this critical task, you recently mentioned in an op-ed in Politico in 
December that meeting the objective will require more than additional 
trainers. A report sent to Congress at the end of October summarized 
the dismal state of the Afghan police. We have spent $6.2 billion on 
police and the Ministry of Interior since 2002, but only about a third 
of recruits can read and write, and roughly 1 in 10 trained units is 
capable of operating independently. Using private contractors, the 
State Department has tried for years--and spent billions of dollars--to 
train a civilian police force with limited success. Now the task is 
being handed over to the Pentagon, which is scheduled to take over 
police training this March. This is a pivotal change, and many are 
concerned that we will end up training a paramilitary adjunct for the 
counterinsurgency fight versus a civilian police force.

  <bullet> Given General McChrystal's expressed and understandable 
        desire for the police to play a counterinsurgency role and the 
        shift in training to the Pentagon, what does this mean for the 
        prospects of a real civilian police force to promote the rule 
        of law at the local level? This is something that I think we 
        both agree is vital.

    Answer. DOD has had the lead for development of Afghan security 
forces since 2005 and has transferred funding to State to implement a 
police training program on its behalf since 2007. The transfer of 
contract responsibility for police training is an effort to eliminate a 
larger management layer so that resourcing, funding and other 
management issues for this large-scale training mission are more 
efficient. The use of law enforcement experts is expected to remain a 
focal point of the program, and the Department of State will continue 
to play a role in Afghan law enforcement training through program 
policy, oversight, and overall direction for the police program through 
Ambassador Eikenberry. Instruction in human rights, women's issues, 
values, ethics, drug awareness and first responder duties all remain 
core elements of the police curriculum to provide recruits with 
essential civilian policing skills required for effective engagement 
with local populations.

    Question. There are reports that the Pentagon in on the verge of 
awarding the police training contract to Xe Services, the firm formerly 
known as Blackwater. Even though the State Department doesn't have 
jurisdiction over the awarding of this contract, does a new contract 
for a company with Blackwater's track record and reputation make sense 
from a political and public relations point of view? What kind of 
message does it send to the Afghan people?

    Answer. The State Department does not know which company will be 
awarded the police training contract by the Defense Department. The 
ability of the Afghan National Police--and the international personnel 
who support, train, and mentor them--to conduct their duties with 
professionalism and respect for others is essential to the development 
of a police force which can be trusted. We expect that the requirements 
of the police training program--which includes regular interaction with 
Afghan police and local populations--will be met by whichever company 
is awarded the contract.

    Question. The FY11 budget request and FY10 war supplemental do not 
include additional funds to support Haiti rebuilding. Thus far, all of 
the funds being used to support Haiti relief efforts have come from 
existing accounts and emergency humanitarian funds. For example, 
apparently USAID's Office of Foreign Disaster Assistance has reduced 
programming funds in all other regions by 40 percent to cover Haiti 
relief. What is the status of plans to assess and assist with 
rebuilding Haiti? Who is leading this effort in the State Department--
do you plan to assign a single coordinator to handle all aspects of the 
recovery?

    Answer. The Department of State is reviewing USG policy and 
assistance efforts in Haiti in light of the January 12 earthquake. Our 
goal is to help Haiti build back better. This will require careful 
coordination with the Government of Haiti and international donors. 
Shortly after assuming office, Secretary Clinton designated her Chief 
of Staff, Counselor Cheryl Mills, to be the lead for our policy in 
Haiti. A decision has been made to name a single coordinator to 
oversee, under Counselor Mills' direction, all aspects of our policy 
and assistance vis-a-vis Haiti.

    Question. Who is in charge of coordinating the Haiti 2020 team?

    Answer. Counselor Mills' Policy Advisor, Meghann Curtis, is the 
Policy Planning Director of Haiti 2020. Ms. Curtis has been Policy 
Advisor to Counselor Mils since April 2009. Rueben Brigety is the 
Coordinator of the Haiti 2020 team. Mr. Brigety is a Deputy Assistant 
Secretary in the Bureau of Population, Refugees and Migration.

    Question. What is the timing of the supplemental request for Haiti 
and what funding level is anticipated? What do you anticipate as the 
potential U.S. share of an international effort to support Haiti's 
recovery over the next 5 years?

    Answer. We are working with OMB to determine both dates and dollar 
amounts of a special fiscal year 2010 Haiti supplemental. Once these 
are determined, we will be in a better position to urge generous 
contributions from the international community.

    Question. According to the latest U.N. figures, over 1.3 million 
people are living in makeshift tent cities that have popped up in 
parks, public spaces, and even in a golf course by people made homeless 
by the earthquake. According to the U.N. Office for the Coordination of 
Humanitarian Affairs (OCHA), only 24 percent of people living in these 
so-called ``spontaneous settlements'' have received basic tents or 
tarpaulins that can shield them from the elements. These figures are 
especially troublesome since the rainy season comes in April--followed 
by the hurricane season in June. Will there be universal coverage by 
the time the rains start? Are there plans to put in place more 
permanent housing? What is the timeframe?

    Answer. For emergency shelter, the immediate relief goal is for 
every household in need (est. 240,000-300,000 households) to receive 
some form of assistance (two plastic sheets or one family-size tent) by 
1 May. To date, 160,000 plastic sheets and 24,500 family-size tents 
have been delivered to serve approximately 185,000 families. The 29 
humanitarian agencies reporting to the Emergency Shelter Cluster (ESC) 
lead agency are on track to deliver emergency shelter assistance (2 
plastic sheets or 1 family-size tent) to 258,000 families by May 1.
    An estimated 600,000 of the 1.29 million displaced by the 
earthquake have left Port-au-Prince; 95 percent are living with family 
or friends in other towns and cities. For the intermediate term, 
shelter programs funded to date will assist an estimated 23,000 
households with transitional shelter before hurricane season. The 
transitional shelter kits will be in-country and distributed by end of 
April; the package includes cement, timber, steel hurricane strap, roof 
nails, nails and piping. An estimated 33 percent of the total could be 
completed and occupied by beneficiaries by June 1 with the remainder to 
be completed within 6-12 months. The Shelter Cluster has set a goal of 
providing transitional shelter to 120,000 households within 12 months 
of the disaster.

    Question. An estimated 1.1 million people require access to 
emergency latrines. What steps are being taken to address this need? 
What is the timeframe? How is this being coordinated by donors--who is 
doing what? How many actual latrines need to be built in order to meet 
the need for 1.1 million?

    Answer. In water and sanitation, 1.2 million people are now 
receiving treated water; 196 IDP sites have been assessed and 46 of 
these sites require immediate sanitation interventions. The goal is to 
construct 11,000 latrines. Approximately 2,750 latrines have been 
constructed, and an additional 800-1,000 latrines should be completed 
by mid-March. An estimated 7,400 trench latrines will be completed by 
April 15. The goal is to have one latrine for every 100 people in 3 
months, one latrine for every 50 people in 6 months, and one latrine 
for every 20 people in a year. Thirty-six million dollars in OFDA 
funding has been committed to accomplish this goal. Key U.S. NGO 
partners working on hygiene issues and latrine construction include, 
Agricultural Cooperative Development International and Volunteers in 
Overseas Cooperative Assistance (ACDI/VOCA), CARE, Adventist 
Development and Relief Agency (ADRA), American Red Cross (ARC), Action 
Contra La Faim (ACF) and many others.

    Question. Your administration has announced the launching of a 
Global Health Initiative, a 6-year, $63 billion integrated plan that 
seeks to build on U.S. work in combating HIV/AIDS and malaria with a 
new emphasis on women and girls and a more holistic approach to 
fighting disease and helping countries build health systems. These are 
all welcome developments, and I look forward to continuing to work with 
you on this Initiative. The Global Health Initiative calls for 
substantially increased spending, programmatic development, and 
monitoring and evaluation. Will additional staffing, with funding, be 
provided for posts to carry out these expanded duties?

    Answer. In addition to the efficiency gains we fully expect through 
improved GHI coordination and collaboration, we are currently reviewing 
the staffing patterns at USAID to ascertain what changes are necessary 
to support the GHI in both the field and Washington. In addition, the 
GHI Plus countries will have access to the GHI Reserve Fund and can 
request funds based on what is most needed on the ground, whether that 
be additional technical assistance, management, or other staffing 
needs. Finally, we will continue building the USAID workforce through 
the Development Leadership Initiative (DLI), employing new health 
officers through this program to further strengthen the Agency's 
capacity to execute, monitor and evaluate health programming.

    Question. You have had an ambitious agenda for global women's 
issues since the beginning of your tenure. However, the Global Women's 
Issues office has had to scrape a budget together for staffing and 
travel, and their program funds come from the Human Rights Democracy 
Fund and Development Assistance funds.

  <bullet> What budget are you requesting for that office? Is that 
        level sufficient for the office to fulfill the ambitious 
        mandate you have given it? Do you envision that the budget will 
        grow in order to increase the office's capacity? Will that 
        office have specified program funds?

    Answer. We are working to increase S/GWI's capacity to meet the 
ambitious mandate that we have given it. Specifically, we are 
requesting $3.483 million in FY 2011 operating funds to support S/GWI's 
continued growth in staffing and office capacity. S/GWI is using 
funding granted for FY 2010 to purchase 8 additional slots above the 11 
that the office currently possesses. The acquisition of these eight 
slots will occur over the course of 2010 and 2011 and will be used to 
increase the number of staff with grants and programmatic expertise.
    At present, S/GWI oversees the Iraqi Women's Democracy Initiative, 
which is funded through the Human Rights Democracy Fund, to expand 
training and capacity-building for Iraqi women political leaders. We 
fully expect S/GWI will continue to administer this Initiative in the 
future. Additionally, S/GWI will continue to work with its bureau 
counterparts inside the State Department and with USAID to maximize 
programming resources for women as well as develop a strategy to 
leverage private sector resources to support programs aimed at 
combating against women and promoting women's social, economic, and 
political empowerment.

    Question. Global Engagement.--The President is requesting $100 
million to support ``Global Engagement'' that will forge ``a new 
beginning with Muslim communities around the world.'' This request 
stems from the President's speech on human rights and democracy in 
Cairo in 2009. Few details are provided as to what programs this fund 
will actually support.

  <bullet> Can you please provide greater clarity as to how this fund 
        will be used to support the broad goal of ``global 
        engagement?'' How will these programs complement those already 
        undertaken by ECA? Can you provide a list of the target 
        countries and how much money is budgeted for each? Where do 
        these funds fit into the State Department budget?

    Answer. In June 2009, President Obama delivered a speech at Al 
Azhar University in Cairo that called for engagement based on mutual 
interest and mutual respect with Muslims around the world. We plan to 
use the President's request for $100 million of ESF funds for Global 
Engagement activities in the FY 2011 budget to establish and expand 
programs that address areas in which he pledged that we would invest 
and engage and that further the goals of deepening and broadening our 
relationships with Muslim communities. Funding requested for Global 
Engagement activities will be targeted at Muslim-majority countries and 
Muslim communities. This funding will help to fill gaps in these focus 
areas for FY 2011 and we will seek to transition to base funding in FY 
2012.
    Please note that President Obama's speech was a vision statement 
for our relationship with Muslims around the world. Democracy and human 
rights were areas of emphasis in that speech, among many others. These 
programs, however, do not focus specifically on just democracy and 
human rights. They focus on building partnerships that will advance 
human development, science and technology, and economic opportunity.
    To support economic opportunity, Global Engagement plans to invest 
$35 million in FY 2011 in a Global Entrepreneurship Program (GEP). The 
GEP is focused on supporting and empowering entrepreneurs by 
marshalling partners around specific areas considered essential for 
creating a successful ecosystem for entrepreneurs. The GEP is the 
concrete, programmatic fulfillment of the Obama administration's 
commitment to use America's strength as an entrepreneurial culture to 
develop entrepreneurship around the world. Entrepreneurs are known to 
be a key ingredient in driving job growth, which underpins political 
stability and civil society. Initial partner countries include Egypt, 
Indonesia, and Turkey, with planned expansion to Pakistan next year. 
Specific program areas include Entrepreneurs in Residence, which will 
establish locally based entrepreneur/mentors to build a network of 
expertise in developing countries. Angel investing networks will be 
created in countries where no such support exists. The Entrepreneurship 
Bridge program will pair U.S. and foreign partners to structure 
appropriate incubators/accelerators/centers of commercialization to 
help take innovation from lab to main street, and E-Mentor Corps, a 
Web-based matching of mentors and entrepreneurs in developing 
countries, will be the focal point for knowledge exchange.
    With $25 million under the Human Development element, the 
Department will scale some of the most effective programs of the Bureau 
of Educational and Cultural Affairs so that they will have broader 
reach and by seeding and launching new programs in high priority 
countries that ECA does not presently have the resources to launch, 
helping to expand both the depth and range of our exchange efforts in 
high priority countries. This includes New Beginnings in Education for 
Economic Opportunity and New Beginnings in Science and Technology which 
will provide community college scholarships and faculty exchanges, 
targeting future scientists, activists, and innovators. A complementary 
New Beginnings in American English Initiative will provide English 
training, teaching and scholarships to expand access to media and 
journalist training, and to encourage civic action. Funds will also be 
used to support the Special Representative to Muslim Communities' 
initiatives to promote empowerment through education and access to 
information.
    Science and Technology (S&T) is the third focus area of Global 
Engagement, with $40 million allocated to advance scientific 
collaboration among priority countries and the United States. The 
Department and USAID, in collaboration with partner agencies and 
partners in the region, are developing four scientific Centers of 
Excellence that will serve as loci of collaboration and support for 
scientists in the region who are seeking to address the challenges 
associated with climate change, water, renewable energy, and health. 
Work on these centers is already underway, but funding is needed to 
launch them. The location of the centers will be chosen based on the 
ability to leverage existing institutions as well as support from other 
government and private partners. S&T Funding will also support a Global 
Digital Science Platform to encourage collaboration and close knowledge 
gaps around key development challenges, and build local S&T capacity 
through an International Science Partnership. Finally, S&T funding will 
target science and technical training for young women through 
University partnerships that encourage knowledge-sharing, teacher and 
administrator exchanges, and online collaboration.

    Question. The FY10 joint spending plan for the Civilian 
Stabilization Initiative includes $31.7 million for policy and plans, 
including ``extensive interagency planning and coordination.'' Can you 
please provide me in greater detail the specific activities associated 
with this figure and how much each activity and subactivity will be 
funded?

    Answer. The $31.7 million allocated to ``Policy and Plans'' in the 
FY10 joint spending plan funds the direct staff (72 fulltime FS and GS 
employees), working in the immediate Office of the Coordinator, and the 
offices of Planning, Strategic Communications, Conflict Prevention, 
Resource Management, and Knowledge Management-Information Technology. 
The $31.7 million also funds an additional 72 contractor positions (19 
for Knowledge Management-Information Technology and 53 distributed 
across the other above offices of S/CRS), and 5 of the 12 detailees 
(remaining 7 are nonreimbursable) from other USG agencies who are 
assigned to S/CRS. It also covers all operating expenses of S/CRS as 
noted below.
    The personnel of S/CRS serve as core staff actively engaged in 
whole-of-government planning and conflict assessment, international 
outreach, public and congressional affairs, and providing 
administrative and IT support to S/CRS, which forms the backbone to the 
activities of the Civilian Response Corps. The majority of these 
personnel also regularly deploy for either specialized missions and/or 
as Standby members of the Civilian Response Corps.
    The $31.7 million does not include funding for the S/CRS Office of 
Civilian Operations, which is covered under the allocation entitled 
``CRC Operations Support'' in the FY 2010 joint spending plan.
    A more specific breakdown of the $31.7 million is included in the 
following table:


------------------------------------------------------------------------
              Expense                   FY 2010            Notes
------------------------------------------------------------------------
Labor and Fringe Benefits..........   $10,665,648  Covers labor and
                                                    fringe for 72 FTE
                                                    with 28% fringe.
IRM Desktop Support................     1,000,000  Central IRM LAN
                                                    support; 3 locations
                                                    200 seats.
KMIT Contractor Support............     2,298,056  Funds 19 contractors
                                                    to augmented staff
                                                    to develop KMIT
                                                    solution, provide
                                                    internal user
                                                    support in 3
                                                    locations, and
                                                    enhance S/CRS web
                                                    presence.
IRM MOU............................       216,000  Reimbursable senior
                                                    level support.
Bandwidth for VTC..................       750,000  Usage of VTC to
                                                    support dispersed
                                                    locations.
Reserve/Detailees..................     1,000,000  For unbudgeted
                                                    requirements and
                                                    reimbursable
                                                    detailees.
PC Applications....................     1,200,000  To develop user
                                                    applications/
                                                    databases.
IT Technical Refreshment...........       400,000  Establishes the base
                                                    for periodic
                                                    refreshment of
                                                    existing equipment.
DS Security SA-18..................       484,240  A new cost associated
                                                    with Springfield
                                                    Annex.
Alterations/Space..................       100,000  To continue to tailor
                                                    SA-18 for CRC use.
Shuttle Service....................       300,000  Provides scheduled
                                                    transportation to
                                                    connect SA-18 with
                                                    other S/CRS
                                                    locations.
Contractor Support.................     7,865,480  Funds 53 contractor
                                                    support positions,
                                                    including support to
                                                    expanded S/CRS
                                                    operations. Includes
                                                    common-servicing to
                                                    CRO, e.g.
                                                    administration,
                                                    travel, facilities.
Utilities/Building Services........       274,049  Pays for billed
                                                    water, after hours
                                                    HVAC, electrical,
                                                    trash, laborers and
                                                    trucks and other
                                                    miscellaneous costs
                                                    when not included in
                                                    rental.
Telephones.........................       500,000  Basic and long
                                                    distance landlines.
Portable devices/cell phones.......       300,000  Equipment and monthly
                                                    charges for
                                                    government-issued
                                                    equipment (e.g.
                                                    Blackberries).
Travel.............................     1,015,288  Outreach and all non-
                                                    deployment travel,
                                                    including staff
                                                    development-related
                                                    travel.
Printing...........................        75,000  Supports briefing
                                                    materials and
                                                    publications,
                                                    including ``Civilian
                                                    Response.''
Rent...............................     2,500,000  Includes partial rent
                                                    due for SA-18; will
                                                    increase in FY 2011
                                                    for full year.
Overtime/Awards....................       160,000  Funds Bureau-managed
                                                    personnel costs not
                                                    funded under Central
                                                    Salaries, including
                                                    performance awards.
Staff Development..................       250,000  Provides for non-CRC
                                                    professional staff
                                                    development
                                                    training.
                                    ---------------
      Total........................   $31,653,761
------------------------------------------------------------------------


    Question. Iraq.--The administration is requesting $517m in FY 2010 
supplemental funding for the International Narcotics and Law 
Enforcement account for police training in Iraq. Please explain the 
transition of police training from the Department of Defense to the 
Department of State.
    What steps is the State Department taking to take over 
responsibility from DOD for the training of Iraqi police forces? Why 
must there be significant increases in funding for this purpose in the 
FY 2010 supplemental and FY 2011 budget, if the State Department is not 
expecting to assume responsibility until the beginning of FY 2012?

    Answer. The Department of State (State) is working closely with the 
Department of Defense (DOD) to ensure a smooth transition of 
responsibility for police development in Iraq. In March 2009, State led 
an interagency Joint Transition Planning Team (JTPT) assessment with a 
view to identify future program priorities through consultations with 
Government of Iraq (GOI) officials and USG personnel. This visit served 
as the basis for developing a new, State-led police development program 
which will be significantly smaller in size and scope than the current 
DOD program, which consists of thousands of military servicemembers. 
The State program will shift away from the previous counterinsurgency 
oriented mission toward a civilian police model focused on community 
policing. As requested by the GOI, we will no longer concentrate on 
force-generation, but will instead emphasize advanced professional, 
management, and leadership skills for senior officials that will 
further build the capability to effectively manage internal security 
operations and support the rule of law.
    State and DOD are coordinating closely to ensure a smooth 
transition of responsibility for police development from DOD to State. 
DOD's drawdown plans are taking into consideration the future police 
program structure. As the transition date nears, the current DOD 
program will closely mirror the future State program. State and DOD 
also have been working together to identify equipment and resources 
that DOD may be able to provide or leave behind in an effort to 
minimize costs and leverage the assets of each agency. To ensure 
planning efforts remain closely linked, State has deployed senior 
personnel to work within United States Forces--Iraq's (USF-I) Iraq 
Training and Assistance Mission (ITAM). ITAM, in turn, has provided a 
military planner to State.
    Although responsibility for the police training mission does not 
transfer to State until October 1, 2011, there are numerous startup 
requirements and myriad long lead-time tasks which require funding 12-
18 months in advance. These include necessary base camp and aviation 
facility upgrades, significant security infrastructure costs to meet 
the necessary Diplomatic Security standards for Chief of Mission 
personnel that are different than those under which the military 
operates, and the procurement of aircraft for transportation between 
program hubs and field locations. The FY 2010 supplemental request will 
fund these one-time, startup expenses.
    FY 2011 funds are needed to cover salary and operating expenses in 
August and September of 2011, in order to have the State, International 
Narcotics and Law Enforcement (INL) program up and running on October 
1, 2011. The remainder of the funds will be spent to cover early FY 
2012 operating expenses, and will carry the program through until INL 
receives FY 2012 funding.

    Question. When will this transition be complete? What are the goals 
of the police training program, and what are the metrics that will be 
used to assess these goals?

    Answer. The transition of Iraq police training from the Department 
of Defense (DOD) to the Department of State (State) will be complete on 
October 1, 2011.
    The goal of the police training program is to support the Iraqi 
Ministry of Interior (MOI) in its progress toward becoming a self-
sufficient organization and the primary provider of internal security, 
while protecting human rights and supporting the rule of law. As 
requested by the Government of Iraq (GOI), State will provide focused, 
high-level advising and consulting in core areas of police leadership, 
management, strategic planning, curriculum development, and other 
advanced skills.
    State is currently developing a set of metrics to assess progress 
toward these goals. The metrics will allow State to determine which 
areas within the MOI need additional focus and which are adequately 
developed, so that advisors may make adjustments to the program as 
necessary. The metrics will be a useful tool in measuring the 
effectiveness of the program and will serve as a resource for 
evaluating the success of the program. Currently being drafted, some 
key indicators of success include an improved capacity to conduct 
complex investigations, increased reliance on physical evidence, a 
strong relationship with civil society, improved public trust in the 
Iraqi police to enforce the law, a robust MOI internal affairs program 
and effective leadership and management controls.

    Question. What lessons have been learned from previous State 
Department efforts at police training, as well as the experience of the 
Civilian Police Assistance Training Team (CPATT)?

    Answer. The State Department has extensive institutional knowledge 
in police training, gained from over 15 years of experience managing, 
leading, and participating in police training missions in 16 nations 
throughout the world. State's police development experts draw on that 
extensive knowledge as they form new programs. In Iraq, we have been 
involved in police training since 2003 and have worked with the 
Department of Defense (DOD) on Civilian Police Assistance Training 
Teams (CPATT) since 2004.
    Each country, including Iraq, presents unique challenges and 
programs must be developed to address those circumstances. State 
performs assessments and conducts extensive consultations with police 
officials to develop effective training programs. We do not merely 
import existing police training models used in other countries as this 
would not adequately address host-nation civilian police training 
needs.
    Another factor we consider is the level of development within the 
police structure as that helps to determine the type of training 
program needed in a given country. For example, focusing on force 
generation and increasing the number of police officers trained is an 
inadequate strategy in many countries if the program does not also 
develop the management and leadership infrastructure to supervise those 
forces. Building organizational and personnel capacity requires that 
reform begin at the highest levels. It is also critical that all facets 
of the criminal justice system, including, police, the judiciary, and 
corrections, develop simultaneously to guarantee that reform is 
consistent and sustainable.
    Additionally, there are recurring criminal justice development 
issues throughout the world that State has experience and developed 
tools to address. Some illustrative examples include: the need to 
combat corruption within the police force; the importance of developing 
a plan to address local, informal justice systems; the need to 
delineate areas of responsibility among multiple entities with shared 
interests; developing the capacity for strategic planning; and the 
importance of increasing public trust in the police, just to name a 
few.
    The CPATT mission began with force generation and an emphasis on 
counterinsurgency operations. Although these efforts were necessary and 
successful, effective management infrastructure within the Ministry of 
Interior (MOI) is also needed and, if not developed, could result in 
short-lived progress. This situation could leave the Iraqi police 
unable to transition from a paramilitary counterinsurgency force to a 
civilian policing institution.
    The future State-led program in Iraq will build upon the success of 
CPATT efforts by instituting training that focuses on advising and 
consulting with senior MOI officials. This work will build capacity 
within the senior ranks to administer an enormous institution (with 
over 500,000 personnel) and allow the GOI to effectively sustain the 
progress made under the CPATT program.

    Question. The administration is requesting nearly $1.57 billion in 
the FY 2010 supplemental request and $1.8 billion in FY 2011 for 
diplomatic operations in Iraq.

  <bullet> How will the reduction of U.S. troop levels to 50,000 in FY 
        2010 and to zero by the end of 2011 impact diplomatic 
        operations?

    Answer. The Departments of State and Defense are working closely to 
ensure that the reduction of troops will minimally impact diplomatic 
operations in Iraq. The joint plan for reducing PRTs reflects careful 
planning between the two Departments to ensure a smooth transition 
during and after the U.S. troop drawdown and continuing to contribute 
to a sovereign, stable, and self-reliant Iraq.
    There are currently 22 Provincial Reconstruction Teams (PRTs) in 
Iraq, with one PRT in each of the 15 provinces outside of the Kurdistan 
Regional Government (KRG) area, one team for the KRG located in Erbil, 
one embedded PRT (ePRT) in Anbar and five ePRTs in Baghdad. The ePRTs 
will consolidate into 16 PRTs by the end of August 2010, when the U.S. 
military will drawdown to 50,000 troops. As the military draws down 
from 50,000, the Departments of State and Defense have determined a 
suitable drawdown plan for 11 of the 16 PRTs, with the majority of PRTs 
closing down between spring and summer 2011, as the military resources 
become unavailable. By October 1, 2011, the Department of State will 
assume full responsibility for all roles, including security and 
logistics support, previously performed by military units at the five 
remaining provincial presence posts--Kirkuk, Ninewa, Basrah, Diyala, 
and Erbil.
    PRTs slated to close will preserve and hand over key contacts so 
the five enduring provincial presences and the U.S. mission can 
maintain key engagements in these provinces. For example, the Basrah 
provincial presence post will be engaged with Muthanna, Dhi Qar, and 
Maysan provinces through a combination of visits by U.S. officials to 
meet with provincial leaders, and Iraqi staff resident in each of the 
three provinces who would take direction from the post in Basrah. The 
other posts would have similar relationships with their neighboring 
provinces to ensure the United States continues to maintain 
relationships and influence with provincial leaders and communities and 
maintains situational awareness of threats to.
    The vast majority of current military activities will transfer to 
the Iraqis with the USG only assuming responsibility where necessary. 
Ambassador Hill and General Odierno oversee this review process in 
Baghdad. In Washington, there is an interagency group, chaired by the 
Department of State, which meets to ensure appropriate coordination and 
support. The Vice President is actively engaged in overseeing the 
transition and holds regular meetings with senior staff, as well.

    Question. The administration is requesting nearly $1.57 billion in 
the FY 2010 supplemental request and $1.8 billion in FY 2011 for 
diplomatic operations in Iraq.

    How many diplomats do we currently have at Embassy Baghdad and 
roughly how many do we expect to have in January 2011 and January 2012.

    Answer. As of March 12, 2010, there are 647 American State 
Department staff at Embassy Baghdad. This number includes Foreign 
Service officers and specialists, eligible family members (EFMs), Civil 
Service employees on limited, noncareer appointments (LNA), 3161 Civil 
Service employees, and personal services contractors (PSCs). It 
excludes locally engaged staff (LES), other agency staff, and security, 
life support, and maintenance contractors. The Chief of Mission has 
ultimate authority regarding staffing size and composition. Staffing 
numbers for 2011 and 2012 are estimates only.
    At this time, utilizing the categories above, current estimates are 
595 State Department staff in Embassy Baghdad in 2011 and 588 in 2012.

    Question. According to the supplemental request, the Department 
plans to establish two consulates (in Basrah and ``northern Iraq''), 
three Provincial Diplomatic Teams (Ninewah, Diyala, Kirkuk), as well as 
maintaining the PRTs in Najaf and Anbar open through 2011.

  <bullet> (a) When are the consulates and PDTs expected to open? How 
        will the three PDTs, two consulates and two remaining PRTs 
        differ in function?

    Answer (a). There are currently 22 Provincial Reconstruction Teams 
(PRTs) in Iraq, with one PRT in each of the 15 provinces outside of the 
Kurdistan Regional Government (KRG) area, one team for the KRG located 
in Erbil, one embedded PRT (ePRT) in Anbar and five ePRTs in Baghdad. 
The ePRTs will consolidate into 16 PRTs by the end of August 2010. All 
but five PRTs will close between spring and summer 2011, with the Najaf 
and Anbar PRTs closing last on September 30, 2011. PRTs in Basrah, 
Erbil, Ninewah, Diyala, and Kirkuk will remain past October 1, 2011. 
The Department of State has committed to assume full responsibility for 
all operations related to the five enduring provincial presences, 
including logistics and security support, by that date.
    The five provincial presences will become increasingly strategic 
between now and October 1, 2011, and carry forward the most crucial 
lines of operation of their predecessor PRTs. The overall mission of 
the five enduring provincial presences will be to contribute to a 
sovereign, stable, and self-reliant Iraq by (1) mitigating and 
mediating Arab-Kurd, Sunni-Shia, and provincial-Baghdad tensions; (2) 
strengthening the capacity of provincial institutions in key flashpoint 
locations; (3) balancing foreign interference; (4) providing a platform 
for the United Nations (U.N.) and other organizations; (5) promoting 
the safe return and resettlement of displaced persons; (6) encouraging 
foreign investment and economic development; (7) reporting on strategic 
trends, events, and drivers of Iraqi instability; (8) presenting 
American policy and promoting American culture to the Iraqi people; and 
(9) providing limited services to American citizens.
    The specific mission of each provincial presence will vary and 
individual teams will emphasize different parts of the overall mission 
statement depending on particular dynamics of the province, the mix of 
destabilizing forces and the strategic opportunities presented.
    Two of the five provincial locations after October 1, 2011, will 
ultimately convert into U.S. consulates. We intend to have consulates 
in Basrah and a second location, pending discussions with and approval 
by the new Government of Iraq and U.S. congressional notification. The 
consulates will carry out the same missions as the other provincial 
presences, in addition to providing services for American citizens and 
possibly other traditional consular functions. Our goal is to have the 
two consulates inaugurated and providing limited services for Americans 
by December 31, 2011.

  <bullet> (b) What portion of the Iraq operations budget is expected 
        to be spent PDTs and PRTs in FY 2010 and FY 2011? What will the 
        security costs be?

    Answer (b). If the FY 2010 supplemental request is passed, the 
funding expected to be obligated in FY 2010 for the PDTs and PRTs is 
$897.7 million. This includes funds carried forward from the FY 2009 
supplemental, the FY 2010 enacted funding for Iraq Operations, and the 
FY 2010 supplemental request, if enacted. Of the estimated $897.7 
million, $574.1 million is expected to be for security costs.
    Based on current estimates, $1.3 billion will be obligated in FY 
2011 for PDT/PRT operations including $885.1 million for security 
related costs, if the FY 2010 supplemental is enacted.

  <bullet> (c) How will the State Department engage with the majority 
        of provinces not home to consulates, PDTs or PRTs?

    Answer (c). The United States is committed to maintaining 
nationwide reach in Iraq even as our military forces drawdown. By 
October 1, 2011, the Department of State will assume full 
responsibility for five provincial presences outside the Embassy, in 
Basrah, Erbil, Ninewah, Diyala, and Kirkuk. The Department of State 
will use these five regional diplomatic presences to monitor 
developments and maintain key relationships in their areas of 
responsibility. For example, the Basrah provincial presence will also 
be engaged with Muthanna, Dhi Qar, and Maysan provinces through a 
combination of visits by U.S. officials to meet with provincial 
leaders, and Iraqi staff resident in each of the three provinces who 
would take direction from the post in Basrah. The other posts would 
have similar relationships with their neighboring provinces to ensure 
the United States continues to maintain relationships and influence 
with provincial leaders and communities, and maintains situational 
awareness of threats to stability.

    Question. The FY 2011 budget request includes $400 million for the 
West Bank and Gaza. Please provide a breakdown of how this funding will 
be used. Also, please provide a breakdown on the assistance provided, 
as well as pledges, by other international donors.
    Secretary Clinton pledged $900 million at the ``International 
Conference in Support of the Palestinian Economy for the Reconstruction 
of Gaza'' at Sharm el-Sheikh in March 2009. Please provide the 
committee with a status update of this pledge.

    Answer. The Department's $400.4 million request in FY 2011 for the 
West Bank and Gaza ESF program provides support for the Palestinian 
Authority (PA) to build transparent, accountable, and credible 
institutions of government; encourage economic development that can 
provide jobs for the Palestinian people; deliver higher quality 
government services; promote the rule of law in areas under the PA's 
control; and continue humanitarian and recovery assistance to the 
people of Gaza. Our assistance matches the priorities in PA Prime 
Minister Salam Fayyad's 2-year reform and institution-building program, 
which aims to establish the foundations of a future independent, viable 
Palestinian state that is a responsible neighbor to Israel and that can 
meet the needs of its citizens without reliance on external donor 
support.
    The Department's FY 2011 request for ESF will support the PA's 
priorities in the following areas:

  <bullet> $200 million in direct budget support to the PA.
  <bullet> $72.5 million for the delivery of basic education, health, 
        and water services.
  <bullet> $81.4 million in programs to help develop the environment 
        for growth in the Palestinian private sector.
  <bullet> $15.5 million in food, medical, and other humanitarian 
        assistance for Palestinians in the West Bank and Gaza.
  <bullet> $31 million to enhance democratic reform, respect for human 
        rights and the rule of law, and increase civic engagement.

    Donors largely have met their commitments from the 2007 Paris 
Donors' Conference. According to conference organizers, donors have 
contributed $5.5 billion in assistance to the PA over the past 2 years 
against total pledges of $7.7 billion in support for the Palestinian 
Reform and Development Plan (2008-2010). We continue to pursue an 
aggressive outreach strategy to ensure timely delivery of assistance, 
and coordinate closely with other donors through the Ad Hoc Liaison 
Committee and local donor coordination mechanisms.
    To date, the United States has provided a total of $761 million 
against the more than $900 million pledge that Secretary Clinton made 
at the Sharm al-Sheikh donors' conference in March 2009. The pledge had 
three components:
Pledge Component: $200 million in budget support to the PA
  <bullet> The $200 million in budgetary support was transferred to the 
        Palestinian Authority in July 2009.
Pledge Component: Up to $300 million for urgent humanitarian needs
  <bullet> The United States has obligated $208 million to date for 
        assistance to the Palestinian people in the West Bank and Gaza 
        through UNRWA, the World Food Programme, and other 
        international and U.S. nongovernmental organizations.
Pledge Component: Up to $400 million in support for the Palestinian 
        Reform and Development Plan (PDRP)
  <bullet> The United States has obligated $353 million to date toward 
        project assistance and security sector reform.

    Question. Please provide to the committee, in a classified or 
unclassified format as appropriate, detailed information on the efforts 
the United States Government has undertaken to secure the release of 
four American citizens held in Iran: Shane Bauer, Joshua Fattal, Sarah 
Shourd, and Kian Tajbakhsh.

    Answer. The Department of State is committed to ensuring fair and 
humane treatment for U.S. citizens detained overseas, and we stand 
ready to assist detained citizens and their families within the limits 
of our ability and authority in accordance with international law.
    However, in countries, such as the Islamic Republic of Iran, where 
the United States does not have diplomatic or consular relations, the 
Department of State is limited in its ability to assist U.S. citizens 
who are detained or missing.
    The Swiss Government, acting through its Embassy in Tehran, serves 
as protecting power for U.S. interests in Iran and provides consular 
services to U.S. citizens detained in Iran.
    During consular visits with detained U.S. citizens, the Swiss often 
provide such items as reading material, letters from family members, 
food, changes of clothing, and toiletries.
    U.S. citizens Shane Bauer, Joshua Fattal, and Sarah Shourd were 
detained in Iran during a hiking vacation in Iraqi Kurdistan, allegedly 
for crossing the unmarked border with Iran on July 31, 2009. Since 
then, the Swiss have been granted consular access to the three on two 
occasions; the most recent visit was on October 29. On March 9, the 
hikers were permitted to phone their families in the United States. 
This marks the first time in over 7 months that the families heard the 
voices of their loved ones.
    Unfortunately, during the two consular visits with the hikers, 
Iranian officials did not permit the Swiss to present, either verbally 
or in written form, a Privacy Act Waiver, which would authorize the 
Department to share information about their cases. Without a Privacy 
Act Waiver, the Department of State is prohibited from providing 
further details on this case.
    The Swiss have not been granted consular access to Kian Tajbakhsh 
or Reza Taghavi, who are dual Iranian-American citizens. The Iranian 
Government does not recognize dual citizenship and will not permit the 
Swiss to provide protective services for U.S. citizens who are dual 
Iranian nationals. We are in frequent contact with the families of both 
Dr. Tajbakhsh and Mr. Taghavi in the United States.
    In the case of Robert Levinson, who disappeared during a business 
trip to Kish Island in March 2007, the United States continues to call 
on the Government of the Islamic Republic of Iran to provide any 
information on Mr. Levinson's whereabouts and follow through on its 
promise to share the results of its investigation with the Levinson 
family or the Swiss Embassy in Tehran.
    In these and similar cases involving American citizens abroad, we 
use a variety of diplomatic tools to ensure that the host government 
understands the U.S. Government's concern for the welfare of its 
citizens abroad. One such tool is to issue official statements; the 
most recent such statement was issued on March 9, 2010, on the third 
anniversary of Mr. Levinson's disappearance. The text of the statement 
is noted below.

U.S. DEPARTMENT OF STATE
Office of the Spokesman
----------------------------------------------
For Immediate Release
March 9, 2010
2010/279

STATEMENT BY PHILIP J. CROWLEY, ASSISTANT SECRETARY OF STATE FOR PUBLIC 
AFFAIRS
Case of Missing U.S. Citizen Robert Levinson

    Today marks the three-year anniversary of the disappearance of U.S. 
citizen Robert Levinson, who went missing in Iran during a business 
trip to Kish Island in 2007. Mr. Levinson will remain a priority for 
the United States until he is reunited with his family.
    He is the father of seven children and grandfather of two--his 
second grandchild was born in his absence. The Levinson family misses 
him desperately and hopes he will be able to walk his daughter down the 
aisle later this year.
    In December 2007, Mrs. Levinson first met with Iranian officials 
who expressed a willingness to share information about their 
investigation into her husband's disappearance with the family. We ask 
that Iran stand behind its commitment to provide full details about 
their authorities' investigation.
    The United States also calls on Iran to resolve the cases of the 
five American citizens who are unjustly detained in Iran: Joshua 
Fattal, Shane Bauer, Sarah Shourd, Kian Tajbakhsh, and Reza Taghavi.
    We ask anyone who may have information about Mr. Levinson to 
contact us or the Levinson family via their website: 
www.helpboblevinson.com

    Question. While the State Department has proposed an overall 
increase in assistance to Yemen in its FY 2011 proposal, there has been 
a significant shift in the accounts that are used. For example, the 
Global Health and Child Survival and Economic Support Fund accounts 
increase from $8m and $5m, respectively, FY 2010 to a proposed $21m and 
$34m in FY 2011, while the budget proposal eliminated the Development 
Assistance account altogether in FY 2011 from $35m in FY 2010.

  <bullet> Why were such significant shifts in the Yemen accounts 
        necessary?
  <bullet> What impact do the shifts have on program continuity?

    Answer. As part of our policy review of Yemen that began last year, 
USAID has developed a new 3-year country stabilization strategy for 
Yemen, which it will begin to implement in the coming months. The shift 
in accounts is simply to better reflect the nature of programs being 
funded. These funds will continue to go to the same programs 
articulated under the 3-year development stabilization strategy. The
shift will have no effect on program continuity. For example, the 
increase in
ESF is for USAID interventions designed to improve livelihoods and 
basic service delivery in communities in the country's most unstable 
areas. The increase in
GHCS funding for Yemen will improve health care services for vulnerable 
populations. For further information, USAID's Yemen Country Strategy is 
available online at: http://www.usaid.gov/locations/middle_east/
documents/yemen/USAIDYemen
2010-2012Strategy.pdf.

    Question. Please detail the limitations and constraints placed on 
USG personnel as a result of Yemen's challenging security context.

  <bullet> To what extent are U.S. direct-hire staff able to access and 
        oversee projects and programs, especially outside of Sana'a?

    Answer. The challenging security environment does place limits on 
the movement of U.S. Government civilian personnel. However, the U.S. 
Government is working with Yemen and its international partners to help 
implement and oversee much-needed projects that address Yemen's 
challenging economic, social, and governance issues. USAID implements 
all programs through grantees and contractors with a presence in Sana'a 
as well as in governorates where programs are active. Their local staff 
members do not face the same security constraints as U.S. Government 
personnel, and thus have considerable geographic access and mobility.
    Despite the deteriorating security situation, USAID continues to 
meet its development goals--especially in basic health and education--
in areas where it continues operations, such as Shebwa and Amran 
governorates. In other areas, however, USAID has been compelled to 
reduce operations. USAID health and education activities in Sa'ada 
governorate were reduced in recent months because of the Houthi-
Government of Yemen conflict. A similar situation exists in al-Jawf 
governorate because of ongoing tribal conflicts there.
    Due to the urgent situation in Yemen and increased levels of 
development assistance, USAID recently devised a new 3-year strategy 
focusing on stabilization and addressing drivers of instability through 
integrated local development in targeted areas. Given security 
constraints and limited staffing, USAID will effectively implement the 
new strategy by investing in a robust monitoring and evaluation (M&E) 
project. This will enable continuous monitoring of individual project 
inputs and outcomes, as well as analysis of the overall impact of USAID 
programs on stability in Yemen. We look forward to briefing you further 
on our efforts as they develop.

    Question. The United States is a party to the Vienna Convention on 
Consular Relations (VCCR), a multilateral treaty which grants 
individual foreign nationals a right of access to his or her consulate, 
and ensures that consular officials can visit their nationals and 
arrange for their legal representation. Additionally, the United States 
was a party to the VCCR Optional Protocol concerning the Compulsory 
Settlement of Disputes, which gave the International Court of Justice 
jurisdiction over disputes related to the VCCR. In Avena and other 
Mexican Nationals, the ICJ ruled that the United States must provide 
``review and reconsideration'' for a group of Mexican nationals who 
were arrested and denied their consular rights and are now on U.S. 
death rows. In October 2009, I, along with Senators Leahy, Franken, 
Feingold, and Cardin sent a letter to Secretary Clinton and Attorney 
General Holder, requesting the administration's input on how to ensure 
that the United States comply with its obligations under Avena and the 
VCCR. At the present time, we have not received a response. Please 
provide your views on what steps the administration and Congress can 
take to address this issue in a timely manner.

    Answer. The Department shares your desire to ensure that the United 
States complies fully with its international obligations to provide 
consular notification to foreign nationals, and your goal of ensuring 
compliance with the ICJ's Avena judgment. We look forward to working 
with Congress to address this issue.

    Question. Burma.--All of us are deeply concerned by a Burmese 
court's recent, politically motivated decision to sentence U.S. citizen 
Nyi Nyi Aung to 3 years of hard labor following several months of 
detention and mistreatment. The Department has made concerted efforts 
to secure Mr. Aung's release, proceeding in a manner and at a level 
that it believes holds the best chance of producing a desirable 
outcome. These exertions have regrettably not produced the results we 
all seek.
    What is your current assessment of Mr. Aung's treatment and his 
overall physical condition? Is he being afforded regular access to his 
family and consular officials?

    Answer. Consular officials have repeatedly made clear to Burmese 
officials the need to respect the rights of Kyaw Zaw Lwin (also known 
as Nyi Nyi Aung) and international conventions concerning the treatment 
of foreign prisoners.
    During a March 12 consular visit, Mr. Lwin reported the current 
prison is more relaxed than Insein prison was, as he is able to 
communicate with other inmates during his twice daily exercise, and he 
is also able to purchase food and other goods from the outside the 
prison. Mr. Lwin reported no mistreatment. Mr. Lwin reported he is in 
good health except for recurring leg pain, for which prison officials 
have assured they will provide medical attention.
    The Department of State has repeatedly requested immediate and more 
frequent consular access to Mr. Lwin. The Embassy will have consular 
access to Mr. Lwin again in 2 weeks, when his aunts will also be 
allowed to visit.

    Question. Given that ongoing departmental efforts have not secured 
Mr. Aung's release, is the Department considering pressing his case at 
a higher level to signal the priority the U.S. Government attaches to 
his freedom?

    Answer. Throughout the detention of Kyaw Zaw Lwin (aka, Nyi Nyi 
Aung), the Department of State has engaged Burmese authorities at 
senior levels to press for his fair treatment, protest reported 
mistreatment, and urge more frequent consular access. We have 
repeatedly made clear to the Burmese Government that Mr. Lwin's 
immediate release is a high priority for the United States Government, 
both within the administration and within the Congress. We will 
continue to work to secure his release in a manner that we believe has 
the best chance of achieving the outcome we all seek in this case.

    Question.Climate/Environment.--The United States recently 
associated itself with the Copenhagen Accord and pledged to reduce 
greenhouse gas emissions in the range of 17 percent by 2020. There are 
now over a hundred countries associated with the Copenhagen Accord, of 
which approximately 60 countries have voluntarily inscribed carbon 
pollution reduction pledges.

          (a) What are the next steps in implementing this Accord and 
        what role do you see the administration playing in these 
        efforts?
          (b) How does the administration plan to deliver on its 
        contribution to the global climate finance goal of $100 billion 
        annually by 2020? Recognizing that this finance goal will be 
        reached through a combination of support from both the public 
        and private sectors, what mechanisms do you find most promising 
        for mobilizing these sectors?
          (c) Do you believe that domestic legislation is necessary to 
        fulfill our mitigation commitment? How would failure to pass 
        legislation impact the implementation of the Copenhagen Accord 
        and the ability of the global community to achieve necessary 
        reductions?

    Answer (a). To date, 104 countries have associated with the 
Copenhagen Accord, accounting for more than 80 percent of global 
greenhouse emissions. We will continue to encourage countries to 
associate with the Accord and inscribe their commitments to mitigate 
their greenhouse gas emissions. At the same time, we are now working 
with partners in a variety of fora to operationalize all elements of 
the Accord, including the provisions on mitigation, transparency, and 
financing.
    Answer (b). In Copenhagen, in the context of meaningful mitigation 
actions and transparency on implementation, we committed to working 
with other developed countries to jointly mobilize USD$100 billion a 
year by 2020. We anticipate continued scaling-up of public financing 
through bilateral and multilateral channels, particularly to support 
adaptation, capacity-building, and other developing country climate 
priorities, as well as work to reduce barriers to market-based 
approaches.
    However, private sector finance driven by carbon markets is 
anticipated to account for the majority of funding flows to mitigate 
greenhouse gas emissions. While governments cannot direct private 
capital, creating the right incentive structure can help accelerate an 
already strong trend toward low-carbon investment. Domestic mitigation 
targets will be essential in directing investment flows toward low-
carbon alternatives in each sector, and efficient and liquid carbon 
markets will be important in transmitting the carbon price signal 
throughout the economy.
    Strong federal legislation with a cap-and-trade component could 
significantly assist our efforts to meet these climate finance 
objectives--in particular, through auctioning set-asides and 
international offset provisions.
    Answer (c). The administration supports the passage of 
comprehensive clean energy and climate legislation to bolster the 
American economy, enhance our national security, set the United States 
on a path to reduce our greenhouse gas emissions and be a leader in 
clean energy technology. Failure to pass legislation would negatively 
impact the leadership position of the United States in the climate 
negotiations and the ability of the global community to achieve 
necessary greenhouse gas reductions.

    Question. Black carbon soot is estimated to be a significant 
contributor to rising global temperatures, with recent studies 
estimating that it is responsible for 18 percent of the planet's 
warming, compared to 40 percent for carbon dioxide--placing it in the 
top three of the strongest climate-forcing agents. Last July, the G8 
Leaders Statement committed to addressing these soot emissions. The 
administration took a step forward in December when it announced in 
Copenhagen that it would commit $5 million to jump start international 
cooperation on a strategy to reduce black carbon emissions in the 
Arctic. What else are you doing to follow up on the G8 commitment to 
take rapid action to address black carbon and what more needs to be 
done in terms of international cooperation on black carbon?

    Answer. There are at least two important fronts for international 
cooperation on black carbon. The first is mitigation. As you note in 
your question, recent scientific studies have indicated that black 
carbon is a potent warming agent. The $5 million initiative that we 
announced in Copenhagen last December was an important step forward, 
but it was never intended to be sufficient by itself. We are working 
with our partners in the Arctic Council to build this into a broader 
initiative that will include active participation by all Arctic 
countries. We've started in the Arctic on account of its strong 
sensitivity to black carbon pollution, but we expect that United States 
and Arctic Council leadership on this issue will lead to even broader 
efforts in the very near future.
    The second front for international cooperation is in research. 
While we know that black carbon is cause for concern, we still have 
much to learn about the nature of its sources, transport, and impacts. 
We're proud of the work that U.S. scientists have done to promote 
international cooperation on these research topics, through the Arctic 
Council's Arctic Monitoring and Assessment Program and its Taskforce on 
Short-Lived Climate Forcers, as well as in an emerging effort under the 
UNECE Convention on Long-Range Transboundary Air Pollution (LRTAP). An 
expert group under LRTAP has been convened to consider whether there 
are ways to specifically address black carbon as part of ongoing 
efforts under LRTAP to look at mitigation of particulate matter 
emissions. We also continue to promote bilateral research initiatives 
involving scientists from NOAA and EPA, among others. Such research 
efforts are critical to improve our understanding of black carbon as a 
pollutant and to inform effective mitigation efforts.

    Question. In the FY 2011 budget, there is $57 million allocated to 
State Department for climate adaptation efforts and $187 million for 
USAID. Please describe the types of efforts you expect State and USAID 
to engage in that provides the best benefits to people adapting to the 
impacts of climate change. More specifically, please describe the role 
you see for ecosystem based adaptation or the use of biodiversity and 
ecosystem services as part of an overall adaptation strategy within 
State and USAID.

    Answer. Our funds will focus on helping countries adapt to and 
build resilience to the impacts of climate change. We will particularly 
target our resources to the least developed countries (LDCs), small 
island developing states (SIDS), and African countries, which will be 
the most severely affected by the impacts of climate change. FY 2011 
adaptation assistance will build on the significant new funding for 
adaptation in the enacted FY 2010 budget.
    Programming will support investments in science and analysis for 
decision making; promote governance systems that are inclusive, 
transparent, and responsive to the needs of their constituents; and 
implement climate solutions as integrated components of other 
development activities that are compromised by climate change.
    In FY 2011, we also propose to launch a new USAID program to 
benefit the Pacific islands that focuses on climate change adaptation. 
USAID programs will extend the Famine Early Warning System and other 
climate forecasting technology systems such as SERVIR to help 
vulnerable counties adapt. The State Department will make contributions 
to the multilateral Least Developed Country Fund and Special Climate 
Change Fund, which both focus on adaptation assistance for the most 
vulnerable countries, and to the U.N. Framework Convention on Climate 
Change (UNFCC) for its adaptation work.
    Ecosystem-based adaptation will play an important role in USG 
adaptation assistance. For example, climate change is expected to alter 
rainfall patterns, which will exacerbate erosion and groundwater 
retention problems in degraded ecosystems. One way to achieve the 
adaptation goals of improving water supply and quality is by improving 
the state of the watershed ecosystem services.
    A concrete example: USAID's East Caribbean Regional Mission is 
developing an adaptation program that will combat climate stresses on 
water and coastal resources through watershed restoration and the use 
of natural processes. This natural approach has the multiple benefits 
of providing shade, reducing erosion on hillsides, promoting 
groundwater recharge, and reducing pollutant discharges to reefs and 
fisheries, which provide for food and attract tourists.

    Question. Last year, the administration proposed a joint initiative 
with Mexico and Canada to use the Montreal Protocol to phase down 
hydrofluorocarbons, or HFCs, a significant greenhouse gas used in 
refrigeration, mobile air conditioning, and foam-blowing. What 
proactive steps will the administration take to promote the phase-down 
of HFCs this year?

    Answer. The administration recognizes the considerable climate 
benefits which could arise from a phase down in the consumption and 
production of HFCs. We continue to support an amendment to the Montreal 
Protocol to address HFCs, and are working with Canada and Mexico on a 
proposal for consideration in 2010. We will also work with other key 
developing countries, such as China and India, to better understand 
their concerns and find ways to make progress on this important issue.

    Question. As part of the $10 billion per year fast-start funding 
for 2010-12, specifically what types of initiatives and climate finance 
efforts do you see funded and do you envision the noncarbon dioxide 
fast-action strategies as part of this effort?

    Answer. The U.S. contribution to collectively provide, with other 
developed countries, funding approaching $30 billion for the period 
2010-12 will be composed of a mix of direct assistance programming 
through USAID and the State Department and programming (through both 
Treasury and State Department mechanisms) to multilateral funds such as 
the Climate Investment Funds, Forest Carbon Partnership Facility, Least 
Developed Countries Fund, and Special Climate Change Fund.
    The USG's approach combines bilateral assistance with multilateral 
initiatives to help ensure our developing country partners have the 
capacity to take advantage of new multilateral funds and private-sector 
financing.
    Within the U.S. climate change assistance ``pillars'' of Clean 
Energy and Sustainable Landscapes, we will place particular emphasis on 
partnering with developing countries that support the Copenhagen Accord 
and are willing to create and implement Low Carbon Development 
Strategies. USAID will also continue to partner with EPA, the UNFCCC, 
and other donors to help countries meet their new obligations under the 
Accord to complete national greenhouse gas inventories every 2 years. 
Our bilateral assistance will begin laying the groundwork that will 
enable developing countries to take part in emerging international 
carbon markets and develop new low carbon sectors of their economies.
    The Department of Treasury is the primary vehicle by which the U.S. 
Government provides contributions through multilateral delivery 
channels, including the Climate Investment Funds and the Global 
Environment Facility. Multilateral assistance promotes institutional 
structures governed jointly by developed and developing countries, 
which are needed for a coordinated, global response to climate change. 
Multilateral institutions complement bilateral assistance by leveraging 
contributions from other donors, making capital investments in 
infrastructure, providing a range of tailored financial products, and 
working across a number of countries.
    We believe that addressing noncarbon dioxide, short-lived climate 
forcers such as black carbon, methane, and tropospheric ozone is also 
an important part of the overall strategy to combat climate change. 
These types of activities are a feature of several of the programs and 
initiatives mentioned below.
    In Copenhagen, the United States announced several new initiatives. 
The United States and five other developed countries collectively 
pledged $3.5 billion over the 2010-12 periods for REDD+ (Reducing 
Emissions from Deforestation and Degradation) activities. We also 
joined four other countries in the 5-year, $350 million Renewables and 
Efficiency Deployment Initiative (Climate REDI), which will promote 
improved appliance and efficiency standards, expansion of markets for 
solar lanterns and solar home devices, the new multilateral Scaling Up 
Renewable Energy Program (SREP, one of the Climate Investment Funds), 
and a clean energy information platform. We have committed $85 million 
over 5 years to this initiative. In addition, the United States 
committed $5 million ``toward international cooperation to reduce black 
carbon emissions in and around the Arctic.'' We anticipate other 
countries will also contribute to this effort.
    In addition to the initiatives announced in Copenhagen, we intend 
to support initiatives developed under the Major Economies Forum on 
Energy and Climate (MEF) process. We also intend to continue funding 
the multilateral Methane to Markets Initiative, which focuses on 
innovative ways to capture, store, and use methane from such sources as 
landfills, mining shafts, leaking gas pipelines, agriculture, and 
flared gas.

    Question. In your talk last year to the Antarctica Consultative 
Group, you mentioned other noncarbon dioxide gases, the so called 
short-term forcers, which include black carbon, hydrofluorocarbons, 
methane, and ground-level ozone. What role do you see the United States 
playing to help develop fast-action mitigation and carbon-negative 
strategies? Have you considered the benefits of a governmentwide task 
force on fast-action mitigation strategies targeting increased use of 
biochar or promoting enhanced urban albedo, the white roofs Secretary 
Chu is calling for to reflect solar radiation back into our atmosphere? 
What other strategies could help advance this promising effort?

    Answer. On short-lived forcers, the United States has taken a clear 
leadership role internationally. From our Arctic black carbon 
initiative to our trilateral North American proposed amendment to the 
Montreal Protocol to the continuing strong work of the Methane to 
Markets partnership, we have worked to bring nations together to act on 
a broad range of short-lived forcers. This same range of strategies, 
including catalytic initiatives, international conventions, and public/
private partnerships, can be leveraged to promote additional mitigation 
strategies as they are identified.

    Question. Multilateral climate negotiations remain high on the 
international agenda. It is widely believed that increased help to the 
developing countries, to reduce their carbon emissions from forest 
destruction (REDD), will be a key to success. To what extent is the 
administration's $347 million request for sustainable landscapes 
focused on capacity-building activities for REDD as distinct from 
traditional conservation activities? Can you provide a quantitative 
breakdown of the funds for these two purposes?

    Answer. Our $347 million request for sustainable landscapes in FY 
2011 is distinct from our traditional conservation activities (AKA 
biodiversity program), although there may be a small overlap in places. 
Biodiversity and Sustainable Landscapes funds will be programmed toward 
their respective objectives, the former being conserving priority 
species and ecosystems, the latter being transitioning countries toward 
long-term emissions reductions and increased sequestration related to 
forests (REDD-plus).
    Prior to FY 10, much of our biodiversity funding was also intended 
to contribute to our climate change objectives. Beginning with FY10 and 
continuing with FY11, the President has requested funding specific to 
climate change, including Sustainable Landscapes. These requests are 
aligned with the intent of the FY 2010 Appropriations bill's Statement 
of Managers, which directed that Sustainable Landscapes funding should 
be used to support activities to maximize climate change mitigation and 
should not duplicate efforts implemented through biodiversity programs.
    The administration's formal FY 2010 guidance on implementing 
Sustainable Landscapes Programs says that such programs must not be 
attributed to other foreign assistance objectives. In addition, those 
programs should address one or more of the following policy priorities:
          1. Creation or implementation of national or subnational 
        REDD-plus strategies;
          2. Greenhouse gas inventories and accounting;
          3. Forest carbon market readiness;
          4. Targeted field demonstrations and investments.
    We anticipate that FY 2011 guidance will be similar.
    In addition to the $175 million for USAID Sustainable Landscapes 
program in the FY 2011 request, the $347 million total includes: $20 
million for the Tropical Forest Conservation Act; $95 million and $15 
million for the World Bank's Forest Investment Program and Forest 
Carbon Partnership Facility (both with a specific climate change 
focus), respectively; $32 million to the Global Environment Facility 
for projects to reduce greenhouse gas emissions from forests and 
landscapes; and an additional $10 million to international agencies, 
including the U.N. Framework Convention on Climate Change, IUCN, and 
the International Tropical Timber Organization.
    There is the potential that Sustainable Landscapes and biodiversity 
funds may be used in projects that meet the objectives of both 
programs, in which case they will be accounted for separately. The 
administration's FY 11 Congressional Budget Justification (CBJ) 
narrative (which will be posted online shortly at http://www.state.gov/
documents/organization/137936.pdf), will have break-outs for both these 
initiatives.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. The administration's FY 2011 request calls for $100 
million in new Economic Support Funds (ESF) to help fund some of the 
initiatives to reach out to the world's Muslim communities that 
President Obama articulated in his June 4, 2009 Cairo speech.
    We understand from staff briefings that the baseline funding for 
these kinds of programs in FY 2010 is about $700 million. Given the 
importance of the Cairo speech and the emphasis that the President has 
placed on forging new partnerships with the Muslim world, is an 
increase of $100 million (about 14 percent) sufficient for the 
transformative kind of engagement envisioned by the President?

    Answer. The vision that the President called for in his Cairo 
speech is to reframe our relations with Muslims around the world based 
on partnership; to seek a ``New Beginning'' based on working together 
and building alongside each other in areas of mutual interest and the 
areas that people care most about in their everyday lives. This is a 
long-term vision.
    It is also important to note that this new funding is meant to 
build upon and complement our broader engagement efforts, including our 
existing foreign assistance and development work, public diplomacy and 
our day-to-day diplomatic efforts in USAID missions and embassies 
around the world. Fully integrated with our broader efforts, new 
programming will have a much greater impact than if it were treated as 
a separate, standalone effort.
    Still, we do not expect to transform people's lives completely in 
the first year of this effort. But, we do expect to make it clear that 
we are in fact delivering on the President's words and vision with 
deeds and with tangible programs and partnerships that address peoples' 
needs and their aspirations.
    In the near-term we want to lay the foundation for our efforts and 
deliver tangible programs and partnerships that substantiate the 
President's and Secretary's vision. The $100 million of new funds 
requested will support programs we are developing in key areas of 
focus: Economic Opportunity, Science & Technology, and Human 
Development with an emphasis on youth and women and girls. Programs 
will build on local capacity and have a wide reach--both in terms of 
the people impacted and the symbolic resonance of the effort 
undertaken. We want these programs to be developed in partnership with 
local stakeholders and to have a demonstrable impact on people and 
communities in the areas where they are established.
    We expect to leverage that funding in several ways, so that it will 
have a multiplier effect. In some cases, small investments of funding 
could provide local stakeholders the tools and platforms--and attract 
other funders--to support those local efforts. In other cases, funding 
will help develop the enabling environment needed to attract other 
donor support or investment. In addition, we are bringing a ``whole-of-
government'' approach to this effort so that we can capitalize on 
resources available in other U.S. Government agencies, ranging from 
Overseas Private Investment Corporation to the National Science 
Foundation.
    By working on programs with a wide base of partners and 
stakeholders and by leveraging the expertise and capabilities of the 
private sector, we expect that these programs and partnerships will 
achieve a wider reach and produce deeper developmental results.

    Question. What kind of plans are in place to ensure the 
sustainability of any new programs that are launched?

    Answer. Sustainability will be vital to the ``New Beginning'' and 
one of our key measurements for success. There are three primary keys 
to sustainability. The first is our focus on local ownership. We will 
identify the most proven and effective local groups. These are the 
groups that are in communities: that are vested and will be there for 
the long-haul. Our aim will be to provide the most effective USG tools 
and private sector tools to support, advance, and scale their efforts. 
By supporting what is already there and has already demonstrated 
success, we will help to ensure the durability and sustainability of 
those efforts.
    For example, as part of our goal to support entrepreneurship, USAID 
recently organized an outreach ``listening session'' in Cairo with 
representatives of the local and regional private sector exploring 
issues associated with entrepreneurs' access to finance. We have 
involved USG participation across U.S. Government agencies in these 
listening sessions, and are feeding the resulting information into our 
program planning. These listening sessions are a vehicle not only to 
benefit from the perspective of local stakeholders, but to identify the 
most effective and impactful groups, who are already delivering for 
their communities. These are the groups we aim to partner with and 
support--thereby unleashing unfulfilled potential at the local level 
for long-term durability and success.
    Second, we will build on our existing approach to public-private 
partnerships. Our focus will be interest-based collaboration. We are 
spending time with key private sector partners to better understand 
their objectives and interests and attempting to forge partnerships 
based on shared interests--which will help those partnerships to endure 
and be sustainable.
    Finally, USAID, as the operating home for this effort, will work 
closely with the Department of State to ensure that the programs funded 
through Global Engagement are integrated and leveraged with existing 
programming, that these efforts are sustainable, and that they are best 
suited to enhancing our Muslim engagement policies. For example, we 
hope to implement a new holistic approach to youth programming with the 
aim to promote a responsible and successful transition to adulthood. 
Current programs typically address challenges from a single-sector such 
as Economic Growth or Health. This funding would be used instead to 
support programs that cut across sectors. For example, we will advance 
basic education linked to opportunities for higher education, 
vocational training, or employment; reduce barriers and increase 
opportunities for decent work through policy reform, skills training, 
mentoring and public-private partnerships; and support access to 
quality health and social services.
    For all the programs and activities in this area, we are working 
with our missions abroad to develop these programs to be both 
developmentally sound and responsive to local expression of priorities 
and need. We are using USAID's strategic resource management tools to 
ensure that programs are results-driven and have a strong monitoring 
and evaluation component built in from the beginning.

    Question. Is the administration seeking to develop new public-
private partnerships in this realm?

    Answer. Yes. Public-private partnerships (PPPs) are the framework 
for the vast majority of the programming in this area. The President's 
Cairo speech generated great enthusiasm from private sector actors for 
working with the USG to further the President's vision and goals. 
Funding requested will help to establish a range of programs which will 
help us to leverage and harness private sector enthusiasm both at home 
and overseas. In addition, one of the primary objectives of this effort 
is building people-to-people ties and working together--this is best 
achieved through building programs with a wide base of partners around 
a shared effort.
    We have already begun private sector outreach leveraging USAID's 
Global Development Alliance, State's Global Partnership Initiative and 
the broader interagency team's existing network of partners; in 
addition we are reaching out to and cultivating new partners, who have 
been interested in working with the USG in response to the President's 
speech. We have asked our embassies in key countries to engage with 
their host country's private sector to explore public-private 
partnerships to advance the New Beginning. As the Special 
Representative to Muslim Communities visits with civil society leaders 
in Muslim communities around the world, she is consistently seeking out 
the best civil society organizations with whom embassies can partner at 
the local level. At home, we are exploring collaboration with leading 
Silicon Valley companies, NGOs and foundations. There is very high 
interest and a wide range of exciting opportunities. Funds requested 
will help to seed and catalyze many of these partnerships.

    Question. We understand that the Director of Policy Planning (S/P) 
has the lead in coordinating ideas for implementation of vision 
articulated in the Cairo speech. Without operational capacity of its 
own, S/P will have to hand off day-to-day management of these 
initiatives, however. How do you envision this process playing out?

    Answer. S/P has the lead in coordinating the specific 
``deliverables'' of the Cairo speech, while S/SRMC has the overall 
policy lead on Muslim engagement at the Department of State. S/P, S/
SRMC and USAID work closely together, and will work jointly to ensure 
that programs meet our policy objectives. USAID has the global reach, 
technical expertise, and procurement capability to be the operational 
home for this effort. We view this as an opportunity to model State-
USAID collaboration across both agencies.
    Another key to making this a success is the effort already underway 
to develop a results-based framework. This framework will set clear 
performance objectives for all three baskets of activities and will 
include strict criteria against which proposed activities will be 
reviewed before funding decisions are made. A rigorous monitoring and 
evaluation component will also be applied in order to ensure our 
programs are having the desired measurable impact.

    Question. The administration's FY 2011 foreign assistance budget 
request highlights support for Yemen as a key foreign policy objective. 
Please elaborate on plans for increased assistance for Yemen. At the 
late January meeting in London of the ``Friends of Yemen,'' 
participants are reported to have agreed to a five-point plan to help 
address the multitude of challenges Yemen faces, including the need for 
improved coordination among international donors. How has the United 
States altered its approach to providing assistance to Yemen in the 
aftermath of this meeting?

    Answer. President Obama has recognized the need to intensify our 
efforts in Yemen, as is reflected in our increasing foreign assistance 
to Yemen. Foreign assistance has been steadily increasing, from $17.2 
million in FY 2008 to $40.3 million in FY 2009. The latter figure does 
not include approximately $67 million in FY 2009 1206 funds or other 
humanitarian funds. We estimate FY 2010 assistance will be $67.2 
million, and the President's FY 2011 budget requests $106.6 million for 
Yemen, representing a 59-percent increase over FY 2010.
    Yemen is a key foreign policy priority for this Administration. Our 
basic strategy is two-pronged. We are simultaneously working with the 
Government of Yemen to improve its capacity to combat terrorism in the 
short term while seeking longer term improvements in the government's 
capacity to govern the country and meet the population's essential 
services needs. The United States will provide assistance and support, 
but Yemen is a sovereign nation responsible for its own development and 
security.
    We are seeking to stabilize the country through a variety of 
training and development programs to improve governance, defense and 
counterterrorist forces' capabilities, and maritime and border 
security. As part of a U.S. policy review of Yemen that began last 
year, USAID has developed a new country strategy for Yemen, which it 
will begin to implement in the coming months. USAID intends to spend 
$121 million over the next 3 years, subject to the availability of 
funds, on stabilization initiatives in Yemen to increase youth 
employment and other economic opportunities (including agriculture); 
improve government service delivery in education and health care; 
support transparent, decentralized governance; and empower youth, 
women, and other marginalized groups to participate in the political 
process. Middle East Partnership Initiative (MEPI) projects address key 
administration priorities including offering positive futures for 
Yemeni youth, empowering Yemeni women, promoting job creation and 
education, and encouraging political reform and peaceful civic 
participation for all Yemeni citizens. A Bureau of Democracy, Human 
Rights and Labor (DRL) program in Yemen is increasing public awareness 
and understanding of religious freedom and tolerance with a particular 
focus on youth. New programs will support independent media and access 
to information to promote government transparency and accountability. 
Through these efforts, we intend to change the base conditions that 
make Yemen a fertile breeding ground for al-Qaeda.
    We are also increasing our multilateral efforts to help Yemen 
confront its immediate economic, social, political, and security 
challenges while paving the way for necessary long-term reforms. At 
January's London Meeting on Yemen, the international community 
reaffirmed its shared goal of a peaceful, prosperous, and united Yemen. 
This meeting was not a donor's conference, but sought to consolidate 
international support for Yemen's political and economic reform 
efforts. It launched the Friends of Yemen process, which will provide 
sustained international engagement with Yemen to address the broad 
range of challenges facing the country. The Friends of Yemen will seek 
to identify priority immediate and long-term actions for the Yemeni 
Government to take, through two working groups focusing specifically on 
(1) economy and governance and (2) justice and the rule of law. The 
Government of Yemen and the group of Friends will discuss ways and 
means of implementing Yemen's National Reform Agenda, including through 
better donor coordination on the ground.
    Neither the London meeting, nor the subsequent Friends of Yemen 
process, has altered the U.S. approach to providing assistance to 
Yemen. Increased U.S. engagement with and assistance to Yemen are the 
result of a policy review that the administration conducted in 2009; 
USAID's new stabilization strategy for Yemen, which will guide its 
programs there, predated the London meeting, as did MEPI's 
comprehensive programmatic interventions. USAID is currently reviewing 
proposals for its new program, which should be implemented in the 
coming months. While foreign assistance to Yemen is increasing, it is 
important to note that the U.S. Government will not program these funds 
directly through the Yemeni Government. The U.S. Government did not 
make any new funding commitments at the London meeting.

    Question. Three American citizens--Sarah Shourd, Shane Bauer, and 
Josh Fattal--have been imprisoned in Iran since July 2009 for illegally 
entering the country while they were trekking in the mountains along 
Iran's border with Iraq. They have since been charged with espionage. 
Separately, the Iranian regime has jailed other U.S. or dual nationals, 
including Reza Taghavi, who has been detained without charges since 
May, 2008; and Dr. Kian Tajbakhsh, who was jailed in July 2009, in a 
crackdown against protesters following the June 12 elections. 
Meanwhile, the Iranian Government has provided little information on 
the whereabouts or well-being of Robert Levinson, a U.S. citizen who 
went missing in Iran in 2007. What is the status of the 
administration's efforts to resolving these and other such cases, and 
what is the strategy for overcoming the obstacles that have thus far 
prevented their resolution.

    Answer. The Department of State is committed to ensuring fair and 
humane treatment for U.S. citizens detained overseas, and we stand 
ready to assist detained citizens and their families within the limits 
of our ability and authority in accordance with international law.
    However, in countries, such as the Islamic Republic of Iran, where 
the United States does not have diplomatic or consular relations, the 
Department of State is limited in its ability to assist U.S. citizens 
who are detained or missing.
    The Swiss Government, acting through its Embassy in Tehran, serves 
as protecting power for U.S. interests in Iran and provides consular 
services to U.S. citizens detained in Iran.
    During consular visits with detained U.S. citizens, the Swiss often 
provide such items as reading material, letters from family members, 
food, changes of clothing, and toiletries.
    U.S. citizens Shane Bauer, Joshua Fattal, and Sarah Shourd were 
detained in Iran during a hiking vacation in Iraqi Kurdistan, allegedly 
for crossing the unmarked border with Iran on July 31, 2009. Since 
then, the Swiss have been granted consular access to the three on two 
occasions; the most recent visit was on October 29. On March 9, the 
hikers were permitted to phone their families in the United States. 
This marks the first time in over 7 months that the families heard the 
voices of their loved ones.
    Unfortunately, during the two consular visits with the hikers, 
Iranian officials did not permit the Swiss to present, either verbally 
or in written form, a Privacy Act Waiver, which would authorize the 
Department to share information about their cases. Without a Privacy 
Act Waiver, the Department of State is prohibited from providing 
further details on this case.
    The Swiss have not been granted consular access to Kian Tajbakhsh 
or Reza Taghavi, who are dual Iranian-American citizens. The Iranian 
Government does not recognize dual citizenship and will not permit the 
Swiss to provide protective services for U.S. citizens who are dual 
Iranian nationals. We are in frequent contact with the families of both 
Dr. Tajbakhsh and Mr. Taghavi in the United States.
    In the case of Robert Levinson, who disappeared during a business 
trip to Kish Island in March 2007, the United States continues to call 
on the Government of the Islamic Republic of Iran to provide any 
information on Mr. Levinson's whereabouts and follow through on its 
promise to share the results of its investigation with the Levinson 
family or the Swiss Embassy in Tehran.
    In these and similar cases involving American citizens abroad, we 
use a variety of diplomatic tools to ensure that the host government 
understands the U.S. Government's concern for the welfare of its 
citizens abroad. One such tool is to issue official statements; the 
most recent such statement was issued on March 9, 2010, on the third 
anniversary of Mr. Levinson's disappearance. The text of the statement 
is noted below:

U.S. DEPARTMENT OF STATE
Office of the Spokesman
----------------------------------------------
For Immediate Release
March 9, 2010
2010/279

STATEMENT BY PHILIP J. CROWLEY, ASSISTANT SECRETARY OF STATE FOR PUBLIC 
AFFAIRS
Case of Missing U.S. Citizen Robert Levinson

    Today marks the three-year anniversary of the disappearance of U.S. 
citizen Robert Levinson, who went missing in Iran during a business 
trip to Kish Island in 2007. Mr. Levinson will remain a priority for 
the United States until he is reunited with his family.
    He is the father of seven children and grandfather of two--his 
second grandchild was born in his absence. The Levinson family misses 
him desperately and hopes he will be able to walk his daughter down the 
aisle later this year.
    In December 2007, Mrs. Levinson first met with Iranian officials 
who expressed a willingness to share information about their 
investigation into her husband's disappearance with the family. We ask 
that Iran stand behind its commitment to provide full details about 
their authorities' investigation.The United States also calls on Iran 
to resolve the cases of the five American citizens who are unjustly 
detained in Iran: Joshua Fattal, Shane Bauer, Sarah Shourd, Kian 
Tajbakhsh, and Reza Taghavi.
    We ask anyone who may have information about Mr. Levinson to 
contact us or the Levinson family via their website: 
www.helpboblevinson.com.
                                pakistan
    The FY 2010 budget for Pakistan reflects a Foreign Assistance 
amount very close to the Kerry-Lugar Pakistan bill authorization level 
of $1.5 billion. An additional $344 million is requested in the 
administration's 2010 supplemental budget request.

    Question. a. Have all FY 2009 Foreign Assistance resources for 
Pakistan been expended? What if any remain in what sectors?

    Answer. No, the majority of the FY 2009 supplemental funds have not 
yet been expended. However, they will all be obligated prior to the end 
of September 2010. Please see attached chart.

    Question. b. What have been the primary challenges in spending the 
amounts appropriated?

    Answer. Challenges to the effective implementation of U.S. and 
other donor assistance programs include: the poor security situation 
and presence of extremist elements in many parts of the country; 
Pakistan's limited capacity to absorb and effectively use external 
resources; public sector corruption; suspicion of U.S. intentions and 
long-term commitment; and the possibility that the Government of 
Pakistan may take time to implement key policy reforms that will help 
sustain U.S. and other donor assistance. These challenges underscore 
the importance of designing programs that help build implementation 
capacity and rigorous performance monitoring, and of intensifying 
diplomatic efforts to persuade Pakistan to implement much-needed policy 
reforms.

    Question. c. Would you provide the committee the amount of FY 2010 
appropriations expended to date by purpose and type of implementation 
mechanism, in percent of total and dollars? The implementation 
mechanism is intended to inform Congress of the manner in which the 
resources are channeled to implement the program--e.g., through direct 
programming through a U.S. contractor/local contractor, through a trust 
fund mechanism, through quasi-governmental Pakistani entity/NGO, 
through Pakistan Government entity Federal/Provincial/local, or other 
channel.

    Answer. We anticipate submitting the FY 2010 Spend Plan to Congress 
shortly.

    Question. d. Would you provide a similar breakdown as described 
above (b) of remaining resources expected to be expended in FY 2010 for 
Pakistan?

    Answer. Challenges faced in FY 2009 will likely remain in FY 2010. 
Security concerns will continue to prevent U.S. personnel from direct 
monitoring and evaluation in conflict-affected areas. We will rely on 
alternative mechanisms, such as monitoring and evaluation by locally 
employed staff (LES) and independent Pakistani CPA firms, as well as 
the use of a geographic information system.
    Most of our new implementation partners will have management 
capacity issues that will require USAID to provide institutional 
strengthening and collaborative oversight. As Pakistan's government 
structures and civil service, especially in the FATA, KPk, and 
Balochistan, continue down a lengthy path of reform and capacity-
building, we should expect their absorption capacity to be limited at 
first, and grow with time. Potential areas of institutional 
vulnerability include budget and procurement systems, internal control, 
accounting, and institutional policies. By investing in these areas, we 
are accepting the risk of loss of funds through inefficiency, theft, or 
general lack of capacity to handle large amounts of funding.
    It will also take time for the GOP to implement key policy reforms 
needed to accelerate transformation of the economy, and the GOP will 
require ongoing support and pressure from the international community 
to maintain its commitments. Benchmarks the GOP will need to meet by 
the next IMF review in August include: implementing the Value-Added 
Tax; meeting deficit targets and setting a sound macroeconomic 
framework for the next fiscal year; and adjusting energy prices and 
performance to eliminate subsidies.

    Question. e. Would you provide a prospective purposes, timetable, 
and implementation mechanism for the planned expenditure of the $344 
million additional resources requested in the FY 2010 supplemental 
budget request?

    Answer. Please see attached FY 2010 supplemental budget request 
which describes the purposes of the funding. Resources are needed to 
implement our civilian assistance strategy and help the Government of 
Pakistan address urgent demands for improved power supply, water 
sanitation, income support to families affected by conflict, and 
policing. The specific timetable and implementation mechanisms will be 
set upon date and level of appropriation; however, it is our intention 
to fully obligate all of these resources within the near future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              afghanistan
    The FY 2010 Foreign Assistance budget for Afghanistan is currently 
estimated to be $2.89 billion following upon $2.76 billion in FY 2009. 
An additional $1.77 billion is requested in the administration's 2010 
supplemental budget request.

    Question. a. Have all FY 2009 Foreign Assistance resources for 
Afghanistan been expended? What if any remain and in what sectors?

    Answer. The majority of the FY 2009 supplemental funds have been 
obligated but not yet expended.

    Question. b. What have been the primary challenges in spending the 
amounts appropriated?

    Answer. Challenges to the effective implementation of U.S. and 
other donor assistance programs include: the poor security situation 
and presence of insurgents in the south and the east. We have also been 
challenged by Afghanistan's limited capacity to absorb and effectively 
use external resources, and our desire to attempt to ensure that our 
resources do not contribute to the level of corruption in Afghanistan.
    These challenges underscore and highlight the importance of 
designing programs that help build sustainable implementation capacity 
and rigorous performance monitoring to ensure meaningful oversight.

    Question. c. Would you provide the committee the amount of FY 2010 
appropriations expended to date by purpose and type of implementation 
mechanism, in percent of total and dollars? The implementation 
mechanism is intended to inform Congress of the manner in which the 
resources are channeled to implement the program--e.g., through direct 
programming through a U.S. contractor/local contractor, through a trust 
fund mechanism, through quasi-governmental Afghan entity/NGO, through 
Afghan Government entity Federal/Provincial/local, or some other 
channel.

    Answer. We anticipate submitting the FY 2010 Spend Plan to Congress 
shortly.

    Question. d. Would you provide a similar breakdown as described 
above (b) of remaining resources expected to be expended in FY 2010 for 
Afghanistan?

    Answer. Challenges faced in FY 2009 will likely remain in FY 2010. 
As our military clears additional areas of Afghanistan, as we 
transition to hold-build operations, and our capacity-building begins 
to take hold, we expect to encounter fewer challenges to dispersing 
funds. Security and other concerns will, however, continue to make it 
difficult or constrain U.S. personnel from direct monitoring and 
evaluation of some of our programs and projects in conflict-affected 
areas. We will rely on alternative mechanisms, such as monitoring and 
evaluation by locally employed staff (LES) as well as the use of a 
geographic information system. For more information, please refer to 
our FY 2010 Spend Plan that will provide more details.

    Question. e. Would you provide the prospective purposes, a 
timetable, and the respective implementation mechanism for the 
requested $1.77 billion in additional resources requested in the FY 
2010 supplemental budget request?

    Answer. Please see attached FY 2010 supplemental budget request, 
which describes the purposes of the funding. Resources are needed 
urgently. The specific timetable and implementation mechanisms will be 
set upon date and level of appropriation; however, it is our intention 
to fully obligate all of these resources within the very near future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                agriculture in afghanistan and pakistan
    Question. In an attempt to accelerate development programming in 
the prime economic sector of agriculture, the administration has sought 
to employ multiple agencies, especially the U.S. Department of 
Agriculture, through additional deployment of personnel and resources 
generally associated with the U.S. Agency for International 
Development.
    Please provide the committee with a description of the activities 
that will be carried out in Afghanistan and Pakistan as part of an 
agricultural strategy. Include data on the amount of funding 
anticipated for each activity and identify the agency that will be in 
the lead with regard to implementation.

    Answer. In Afghanistan, the U.S. Government's (USG's) top 
reconstruction priority is to restore Afghanistan's once vibrant 
agriculture sector. To that end, the USG has developed an Agricultural 
Assistance Strategy for Afghanistan with two goals: (1) increase 
agricultural-sector jobs and incomes and (2) increase confidence of 
Afghans in their government. Achieving this requires a whole-of-
government approach and drawing upon the assets and capabilities of 
multiple departments and agencies.
    Activities that USAID will carry out in Afghanistan as part of the 
agricultural strategy will focus on the following objectives:

                                                            FY 2010 base
        Programmatic Focus                                   ($Millions)
Agricultural development fund (ag credit).........................   $50
Support for ag university, research, and extension................    20
Regionally focused agricultural development programs (southeast 
    and southwest at $20 million each)............................    40
Value chain development...........................................     5
Watershed and irrigation management and technology transfer.......     4
Program Support Costs.............................................     6
                                                                  ______
    Total.........................................................  $176

    In FY 2010, USDA anticipates receiving funding from State/USAID at 
the following levels for each activity:

                                                            FY 2010 base
        Programmatic Focus (Strategy Objective)              ($Millions)
Watershed management and irrigation (Obj. 1.3)....................    15
Direct assistance to MAIL (Obj. 2)................................    48
MAIL capacity building (Obj. 2)...................................    20
Agricultural Trilateral Activities................................     3
                                                                  ______
    Total.........................................................   $86

    In Pakistan, State/USAID is asking USDA to implement activities in 
accordance with the USDA investment strategy for Pakistan, developed in 
coordination with USAID in Islamabad and Washington, DC. The investment 
strategy calls for $20 million of FY10 funding in activities as 
follows:

                                                            FY 2010 base
        Programs                                             ($Millions)
Wheat Production Enhancement Imitative............................    $1
Control of Animal Diseases........................................     1
Water Management..................................................     1
U.S./Pakistan Secretariat for Strategic Initiatives on Agriculture 
    (SSIA)........................................................     1
Cotton Productivity Enhancement Program...........................     7
APHIS/NAPHIS Collaboration........................................     3
Agricultural Economic Information Agency..........................     3
Soil Salinity Reduction Program...................................     1
Aquaculture Enhancement Program...................................     1
USDA Exchange Program.............................................     1
                                                                  ______
    Total Budget..................................................   $20

    Question. How will the agriculture strategy be complemented by 
related development activities? How are these activities being 
coordinated in the field?

    Answer. USAID is the lead development agency in Afghanistan and 
Pakistan. USDA supports USAID activities in the field and Kabul by 
focusing on ministry-to-ministry support (in this case, building the 
capacity of the Ministry of Agriculture, Irrigation, and Livestock in 
Afghanistan and the Ministry of Food and Agriculture in Pakistan). In 
addition, USDA draws from land grant universities and its agencies to 
provide direct technical assistance.
    USDA is a member of the Agricultural Policy Working Group (AWPG) at 
the U.S. Embassies in Kabul and Islamabad. All agriculture projects and 
activities USDA undertakes in Afghanistan and Pakistan are vetted and 
approved by the APWG, which has members from USAID, State, and other 
U.S. Government entities working in the agricultural sector.

    Question. Please describe for the committee how function 150 funds 
that are transferred to other USG agencies will be monitored and 
evaluated for effectiveness. What agency is in charge of this M&E 
function?

    Answer. USDA will assume responsibility for monitoring and 
evaluating funds it receives from USAID via a 632(a) transfer agreement 
and place monitoring and evaluation staff in country. This staff will 
oversee projects' fiscal operations and ensure that projects are 
achieving their stated goals. USDA and USAID will provide the committee 
with regular joint reports on the use of these funds.

    Question. What is the level of funding for FY 2010 and planned for 
FY 2011 that will consist of direct support to Afghanistan and Pakistan 
Government agencies? What will be the purpose of these transfers and 
what agencies, U.S. or otherwise, will be accountable for M&E?

    Answer. In Afghanistan, USDA will provide in FY10 $48 million in 
direct support to the Afghan Ministry of Agriculture, Irrigation, and 
Livestock (MAIL). The purpose of this funding will be to support 
capacity-building efforts within MAIL, including the creation of a 
grants management unit that will enable MAIL to implement and manage 
agriculture projects. USDA will be responsible for the monitoring and 
evaluation of these funds transferred to MAIL.
    In Pakistan, none of the $20 million in funding for projects USDA 
will implement will be directly transferred to the Government of 
Pakistan. Funds will be used to implement projects in partnership 
between USDA and Pakistani agencies, such as USDA's APHIS and 
Pakistan's NAPHIS.

    Question. The budget justification indicates that funding for 
extractive industries transparency had been eliminated? What was the 
reasoning? Given that the State Department has launched an initiative 
on this front, how will that be funded and to what amount? Why is the 
administration not seeking funds for the EITI multidonor trust fund? 
Are bilateral programs a better use of limited funds? If so, why?

    Answer. The Obama administration remains a strong supporter of the 
Extractive Industries Transparency Initiative (EITI) and we will 
continue to support this important effort into the future. The 
administration sees EITI as a key part of our broader governance 
promotion and anti-corruption strategies. While the administration does 
not request specific funding for EITI, as an EITI supporting country, 
we provide ``in-kind'' political support, promote the initiative 
publically, and work with foreign governments through our Embassies to 
facilitate implementation. The State Department participates in the 
EITI Board and State and USAID participation in the World Bank's Multi-
Donor Trust Fund Facility.
    All of the $4.5 million FY 2010 funding for EITI provided by 
Congress will go into the EITI Multi-Donor Trust Fund facility (MDTF) 
that is administered by the World Bank and overseen by a Management 
Committee which includes State and USAID representation. In FY 2008 and 
FY 2009 Congress provided at total of $6 million in funding for the 
MDTF. State and USAID recently attended the annual meetings for the 
EITI and helped approve the authority to disburse MDTF resources to 
civil society groups in EITI countries to help ensure that actors 
outside of government and the extractive industry are able to play an 
active role in the EITI process.
    EITI is only one of the extractive sector governance efforts that 
the administration supports. As a complement to multilateral efforts 
like EITI, our embassies and USAID missions overseas regularly engage 
with host countries on broad governance and transparency promotion 
efforts including USG efforts to address rule of law and governance 
reforms, increase public sector capacity, and strengthen independent 
media and civil society checks and balances.
    The Department's new Energy Governance and Capacity Initiative 
(EGCI) seeks to leverage USG expertise to provide technical support to 
governments of developing countries that are on the verge of receiving 
sizable financial windfalls and that demonstrate the political will to 
build transparent and accountable energy sector governance. EGCI will 
complement EITI and other reform efforts and will be tailored to the 
specific needs of individual countries. By providing USG technical 
assistance to the next generation of energy producers, we help them 
maximize the value, efficiency, and development potential of energy 
production and revenue flows. We are providing $1.4 million in FY 2010 
to launch this initiative.

    Question. Through the Global Health Initiative, representatives 
from the administration have stated that the budget should not focus on 
specific diseases, but on integrated programs and strengthening health 
care systems. Is the administration abandoning congressional intent of 
fully funding the HIV/AIDS, malaria, and tuberculosis programs that was 
enacted in 2008?

    Answer. No. The Global Health Initiative (GHI) is an umbrella of 
management, integration, and coordination among existing U.S. 
Government health programs. PEPFAR is the cornerstone of the GHI, and 
PEPFAR and other disease-specific programs will be part of the GHI but 
remain distinct, consistent with their legislative authorizations. At 
the same time, the unified whole-of-government approach across health 
issues under the GHI will enable these disease-specific programs to 
better achieve their goals and improve the health of people living with 
HIV, tuberculosis, and malaria. The administration looks forward to 
continuing to engage and consult with Congress on the strategy and 
implementation of the GHI to ensure maximization of global health 
resources consistent with congressional intent.

    Question. During the 2009 H1N1 influenza pandemic the Federal 
Government learned a lot of lessons about emergency preparedness in 
terms of everything from monitoring and evaluation to the distribution 
of vaccines. What role do you think the State Department should play in 
addressing the shortcomings found, and is adequate resources dedicated 
to ensure that we are better prepared for future pandemics?

    Answer. The State Department plays two major roles in pandemic 
preparedness: coordinating the USG international efforts to combat 
animal and pandemic influenza and engaging political leadership in 
affected and donor nations through bilateral interactions and 
multilateral forums. Our engagement with international partners works 
to strengthen pandemic preparedness and response by promoting 
transparent efforts to share information and best practices. Our work 
also aims to maintain international commitment to this important topic 
as there is a potential for complacency resulting from the mild H1N1 
pandemic. Many of these activities are undertaken under the U.S. 
initiated International Partnership on Avian and Pandemic Influenza 
which includes a yearly ministerial meeting (see below) and a ``Core 
Group'' chaired by the Department's Special Representative for Avian 
and Pandemic Influenza (Dr. Kerri-Ann Jones, Assistant Secretary of 
State for Oceans, Environment and Science). In response to the 2009-
H1N1 outbreak, the Department initiated and continues to host a series 
of coordinating meetings with the 2009-H1N1 vaccine donor countries, 
the World Health Organization (WHO), United Nations Children's Fund 
(UNICEF), and the Office of the U.N. System Influenza Coordinator 
(UNSIC).
    In collaboration with USDA, USAID, and HHS/CDC, the Department is 
working closely with the WHO, UNSIC, the Government of Vietnam, and the 
European Commission in preparing for the International Ministerial 
Conference on Animal and Pandemic Influenza (IMCAPI), scheduled for 
April 19-21, 2010, in Hanoi, Vietnam. IMCAPI will seek to ensure 
continued action by governments, international and regional 
organizations, nongovernmental organizations, and the private sector to 
build long-term capacity to control the spread of animal influenza and 
prepare for the next influenza pandemic. This is an essential step for 
ongoing preparedness.
    The Department of State is contributing to the HHS led interagency 
2009-H1N1 After Action Review. We will also be playing a leading role 
in international efforts to assess the response to the H1N1 pandemic by 
WHO, other international bodies, and donor countries. The Department is 
committed to ensuring that governments and international and regional 
organizations continue to regard preventing and responding to outbreaks 
of H5N1 in poultry and other animals, as well as preparing for a 
potentially catastrophic human pandemic, as priorities of the highest 
order. These goals remain a key U.S. foreign policy objective in our 
efforts to strengthen international security.
    To further the Department's efforts to combat pandemic influenza, 
we have allocated $450,000 to host a series of multilateral workshops 
aimed at working toward a better understanding of how planning for 
avian influenza affected the response to the 2009 H1N1 pandemic and how 
future pandemic planning can be improved. We recently regularized 
pandemic and influenza staffing by establishing four permanent direct 
hire positions with a focus on global pandemic preparedness. USAID 
mobilized assistance during the H1N1 pandemic through its Humanitarian 
Pandemic Preparedness (H2P) initiative, taking measures to identify 
populations most at risk, train staff and volunteers, and get out 
messages to reduce disease spread. USAID is also providing technical 
and operational support to the WHO's efforts to provide vaccine to 
developing countries. USAID will continue providing support to ensure 
provision of timely data from countries across Africa, Latin America, 
the Middle East, and Asia to identify vulnerable populations; 
strengthen surveillance and laboratory capacities for rapid H1N1 
diagnosis in 26 countries (16 in Africa and 10 in South America); 
support sample transport in 17 countries to regional laboratories; 
inform local pandemic planning; and help ensure post-marketing 
surveillance of vaccination efforts.

    Question. Since the disaster in Haiti, substantial attention has 
been given the Haitian orphans. In addition to the situation in Haiti, 
it is estimated that 132 million children are orphaned worldwide due to 
HIV and other illnesses, conflict, natural disasters, severe poverty, 
and abandonment.
    As part of your confirmation last year, I asked you about the 
administration's commitment to the plight of orphans. You stated the 
orphans and vulnerable children will remain a high priority for the 
Obama administration and that six agencies were working in this area. 
You also said that an interagency task force was updating and refining 
the strategy toward orphans in light of the worldwide economic crisis 
that was making more children vulnerable. What conclusions did the 
interagency group come to in addressing the needs of this population? 
What resources has the administration committed?

    Answer. As noted in the Third Annual Report to Congress on Public 
Law 109-95, the interagency group concluded that the strategic 
priorities for FY 2010 and beyond are to collaborate across U.S. 
Government agencies to: (a) increase support for child welfare and 
child protection system strengthening; (b) increase support for the 
economic strengthening of poor households to keep families intact; (c) 
improve assistance to children living outside of family care; and (d) 
improve the monitoring and evaluation of these, and other, common 
priorities. In FY 2008, the latest year for which final figures have 
been compiled, seven USG agencies provided over $5 billion in 
assistance to highly vulnerable children and their families.

    Question. Today's papers were full of stories regarding the expense 
of the new Embassy in London. The Department has assured us in the past 
that the costs for the new building would be covered by the sale of the 
present buildings in Grosvenor Square.
    Please provide a breakdown of the costs of the new Embassy in 
London including land acquisition, site preparation, and anticipated 
construction costs. Please demonstrate how these costs will be offset 
based on sales of USG properties in London by listing the final amounts 
received for each property and who the buyer was. It is my 
understanding that a dispute still exists with the British Government 
regarding a 17 percent value added tax (VAT) charge that the United 
States is refusing to pay--what is the status of that negotiation. 
Last, how does the cost of this building compare with our Embassy in 
Baghdad?

    Answer. In 2006, the Bureau of Overseas Buildings Operations (OBO) 
developed a Long-Range Facilities Plan (LRFP) that analyzed several 
multiyear plans to renovate the existing London Chancery and compared 
those options against constructing a new embassy compound, hereafter 
referred to as the New London Embassy (NLE).
    OBO determined the cost of a complete renovation of the current 
chancery would be about $600 million and would take about 7 years; 
however, even a renovated current chancery would still not meet all 
security standards, significantly due to a lack of required setback 
that cannot be remedied. In addition, OBO did not have funding for this 
option.
    The OBO analysis concluded an NLE is the only feasible alternative 
to meet U.S. diplomatic requirements and provide a secure, safe, 
modern, and functional embassy in London. The LRFP recommended and the 
Department implemented a self-financing approach using revenue from the 
sale of Department properties in London to fund an NLE.
    It is important to note that the cost of the property plays a large 
part in project costs as well as local construction costs. Independent 
sources routinely place London as the top second or third most 
expensive real estate market in the world. Office rents and housing 
prices, regardless of the state of economy, are high--which results in 
high residual land values. This, combined with a dearth of sites for 
development plus normally high demand for land, keeps prices at a 
premium.
    The following provides a breakdown of the costs of the self-
financed NLE project. Some of these costs are estimated and may vary 
depending on the exchange rate.

New London Embassy Expenditures
Real Estate Transaction and Chancery Lease Back Costs a.    $183,000,000
Acquire Nine Elms Site b................................     184,000,000
Construction Costs c....................................     737,000,000
Value Added Tax (VAT) (Construction)....................      46,000,000
                    --------------------------------------------------------
                    ____________________________________________________
    Total...............................................  $1,150,000,000

a includes leaseback costs of $165 million and brokerage fees.
b includes VAT.
c includes construction and construction related costs (planning, 
design, supervision, security management).

Sales Proceeds
        Property and Purchaser                                    Income
Navy Annex (sold)--Grosvenor Square Limited, a private 
    consortium led by entrepreneur Richard Caring.......    $494,000,000
Chancery* (under contract)--Qatari Diar Real Estate 
    Investment Company (owned by Qatar Investment 
    Authority)..........................................     520,000,000
MSGQ* (to be sold)--The MSGQ will be sold at a later 
    date................................................      10,000,000
Chancery Leaseback Rent Refund*.........................     144,000,000
                    --------------------------------------------------------
                    ____________________________________________________
    Total...............................................  $1,168,000,000

 *Estimated; based on projected 2012 exchange rates.

    As noted above, total expenditures for the NLE and site are 
estimated at $1,150,000,000 and the total estimated income from sales 
proceeds is $1,168,000,000, resulting in an estimated net gain for the 
USG of $18,000,000.
     The Department continues to engage the British Government 
concerning the relief of all taxes associated with the acquisition and 
construction of the NLE. In December 2008, the Department requested an 
exoneration (whether through an exemption or reimbursement) of VAT 
applicable to the purchase of the new embassy site, as well as on the 
locally acquired materials and services needed to construct the 
facility. In May 2009, the Foreign and Commonwealth Office (FCO) 
informed the Embassy that Her Majesty's Government (HMG) was unable to 
accommodate this request. We have, however, successfully obtained, for 
the first time in the U.K., an exemption from the imposition of the 
stamp tax associated with this project. Additionally, because the land 
acquisition closed prior to December 31, 2009, VAT was assessed at a 15 
percent rate, rather than the standard 17.5 percent rate. On January 8, 
2010, the VAT that was required for the land purchase was paid. The 
U.S. Government will continue to pursue reimbursement of the VAT on the 
site purchase as well as exoneration of VAT on construction materials 
and services, currently at a rate of 17.5 percent.
    The Baghdad New Embassy Compound, awarded in FY 2005, cost $620.2 
million in OBO funds. In addition to OBO funds ($620.2 million), the 
Department used approximately $240 million of Diplomatic and Consular 
Program funds for follow-on projects.

    Question. In your testimony to the committee, you stated that, ``we 
have too often relied on contractors, sometimes with little oversight'' 
and that one of the intentions of the FY 2011 budget is to hire full-
time staff in order to reduce the need for such contractors.
    In which fields are you intending to replace contractors with these 
new FTE and roughly how many contract positions are you seeking to 
eliminate?
    Does the Department have an accurate count on the number of 
contractors that are working in substantive areas, both as contractors 
and as employees, and what functions they are doing? Can you share with 
the committee the number and examples of the nonpersonal security work 
that contractors perform at the Department?

    Answer. We are now conducting the first Quadrennial Diplomacy and 
Development Review (QDDR) effort at State and USAID, one area of which 
focuses on developing a more balanced workforce. As part of this 
process, the Department is preparing guidance and criteria, based on 
guidance from the Office of Management and Budget, that will enable 
bureaus to examine their workforce and make determinations as to where 
in-sourcing may be appropriate. The guidance will direct bureaus to 
review functions on a regular basis consistent with the criteria to 
ensure inherently governmental and mission critical functions are 
performed by government employees. These reviews will also aim to 
ensure that other functions are performed with an appropriate balance 
of government and third party contract personnel as necessary to 
adequately manage contractor performance and retain a sufficient degree 
of core capabilities.
    This balanced workforce initiative will transcend all domestic 
Department of State bureaus and offices; however it is too early in our 
process to identify the specific fields in which we would replace 
contractors with FTE or to estimate the overall number of positions to 
be in-sourced. To provide some perspective, the Department currently 
has 22,772 domestic employees, of which approximately 8,800 are 
contractors. Our information regarding the type of work these 
contractors perform is limited to broad job categories such as 
information technology support and language services. We are currently 
working to develop a system to better inventory the number of service 
contractors by job function, as mandated by Public Law 111-17, Division 
C, Section 743.

    Question. Would a third term for President Alvaro Uribe of Colombia 
present obstacles for support of funding Plan Colombia and for the 
ratification of a free trade agreement with Colombia? In addition, how 
would President Uribe's continuation in office affect Colombian-
Venezuelan relations?

    Answer. On February 26, Colombia's Constitutional Court ruled 7-2 
that the constitutional amendment process to allow President Alvaro 
Uribe to run for a third term could not legally go forward. As we have 
said consistently, this was an issue for the Colombian people and 
Colombian institutions to decide. This democratic process and President 
Uribe's statesmanlike response that he would abide by the Court's 
decision show why Colombia is a vibrant and mature democracy, and a 
valued partner for the United States.

    Question. Despite strong support from the United States, sustained 
international participation in Haiti is vital for its recovery. It is 
especially important that the international community provide 
governance assistance to the Haitian people. The failures and 
corruption of past Haitian governments contributed greatly to the 
stress felt by the Haitian people before the earthquake, and the 
limitations of the current government constrain the prospects for 
recovery.
    These harsh realities, compounded by the significant loss of life 
that has weakened the government and other institutions in Haiti, 
compel the international community to consider creative measures. 
Because of the devastation, Haiti's condition approximates that of a 
failed state. If the U.N. plays an increased security and recovery 
role, I believe Haitians will more quickly gather their bearings and 
begin to rebuild their lives and their country.
    Going forward the relationship between the United Nations and the 
Haitian Government should be a consensual, cooperative arrangement that 
preserves Haitian participation in recovery decisions, while ensuring 
that the resources and expertise of the international community are 
brought to bear on the daily problems of Haiti.
    In this regard, should we consider an enhanced role for the United 
Nations in the daily operations of the Haitian Government until the 
country is stable and less dislocated? This would include the provision 
of food and shelter, reconstruction activities, budgetary affairs, 
security, and other aspects of governance vital to the Haitian people. 
The United Nations has the credibility and capacity to perform this 
role.

    Answer. The undertaking to assist Haiti in recovery and rebuilding 
is massive; it will require the Government of Haiti to lead a well-
coordinated, well-funded effort assisted by the United States, the 
United Nations, other nations, international organizations, the Haitian 
diaspora, and nongovernmental organizations. Actors from across the 
U.N. system provided assistance to the government and people of Haiti 
long before the tragic January 12 earthquake, and we expect that they 
will continue their work, in close partnership with the Government of 
Haiti, for a long time to come. This includes not only efforts in the 
security sphere--where the MINUSTAH peacekeeping mission has bolstered 
and helped to train the Haitian National Police--but also the U.N.'s 
work on relief, recovery, and reconstruction.
    The relationship between the U.N. and the Haitian Government has 
been and should be a consensual, cooperative arrangement, with the U.N. 
and other international actors recognizing the Haitian Government's 
central role and authority. The Haitian Government's primacy in the 
relief effort is critical to gaining the trust and support of the 
Haitian people and diaspora. It is important to underscore that there 
has been consistent agreement among major international donors for our 
efforts to be conducted ``in cooperation with and support of'' the 
Haitian Government.
    Demonstrating its commitment, the U.N. will cohost and provide the 
venue for the ``International Donors' Conference Towards a New Future 
for Haiti'' on March 31. The donors' conference, cohosted by the U.N. 
with the United States, in cooperation with the Government of Haiti, 
and with the support of Brazil, Canada, the European Union, France, and 
Spain, will seek to mobilize international support for the development 
needs of Haiti to begin to lay the foundation for Haiti's long-term 
recovery. At the donors' conference, Haiti will present its vision for 
its future and how international support can assist. Donor countries, 
international organizations, and other partners will have an 
opportunity to pledge resources, to coordinate in support of Haiti's 
long-term recovery, and to commit to a sustained effort to support 
Haiti.

    Question. a. How does the administration plan to engage with 
recently elected President Yanukovych and what has been your approach 
to Crimea, the status of which has been an ongoing source of tension 
within Ukraine?
    b. What is the status of economic development and confidence 
building projects in Crimea, including exchange programs with the 
United States and the opening of a U.S. presence post, which was a 
component of the 2008 U.S.-Ukraine Charter on Strategic Partnership?

    Answer a. The administration looks forward to deepening our 
strategic partnership with Ukraine in collaboration with President 
Yanukovych, who was elected in a vote that international and domestic 
observers assessed as essentially free and fair. President Yanukovych 
himself has spoken publicly about implementing this strategic 
partnership. The United States fully supports Ukraine's sovereignty, 
independence, and territorial integrity, and recognizes no spheres of 
influence in the region. A strong and independent Ukraine contributes 
to the security and prosperity of Europe.
    The United States bases its friendship with Ukraine on the 
principles of the U.S.-Ukraine Charter on Strategic Partnership of 
December 2008. In addition to our support for Ukraine's independence, 
sovereignty, and territorial integrity, these principles include the 
belief that democracy is the guarantor of prosperity and freedom, and 
the importance of defense and security cooperation. To implement the 
charter, the United States and Ukraine established the U.S.-Ukraine 
Strategic Partnership Commission in July 2009. The commission's 
inaugural meeting took place last December in Washington; we look 
forward to a next session in Kyiv after the new government is in place.
    We are conducting high-level engagement with the new leadership to 
pursue U.S. priorities, including critical economic and energy sector 
reform, as well as Ukrainian cooperation on nonproliferation issues in 
the leadup to the Nuclear Security summit in Washington in April. 
President Obama raised all these issues with then-President-elect 
Yanukovych during a February 11 telephone call. National Security 
Advisor General Jones discussed these priorities further with President 
Yanukovych at the February 25 inauguration in Kyiv. President 
Yanukovych has responded positively to our contacts, indicating that he 
intends to pursue a strong relationship with the West, and that he will 
attend the Nuclear Security summit.
    In Crimea, we will continue our outreach efforts to strengthen the 
region's further integration with the rest of Ukraine, and to promote 
mutual understanding between the United States and Crimea. Ambassador 
Tefft will visit Crimea the week of March 8. The United States will 
continue its assistance efforts to support the region's development and 
contributing to stronger linkages between Crimea, other parts of 
Ukraine, and Europe.

    Answer b. The U.S. mission in Kyiv is actively leading outreach 
efforts aimed at all inhabitants of Crimea, including youth and Tatar 
audiences. We have conducted exchanges, media outreach, and cultural 
diplomacy in an effort to promote mutual understanding of U.S. society 
and values, and strengthen academia, civil society, and local 
government capacity. In addition, Embassy Kyiv recently established 
centers in Simferopol and Sevastopol to advise Crimean youth about U.S. 
educational opportunities. We have also established low-cost Internet 
centers at the main public library in Simferopol and elsewhere in 
Crimea, as well as throughout Ukraine. One-time assistance funding of 
$850,000 from a Georgia war-related supplemental has permitted this 
increased public diplomacy spending in Crimea during FY09 and FY10.
    In recognition of the region's importance, the U.S. significantly 
expanded its aid for 2009 and 2010 to Crimea. We provided $27.8 million 
in assistance to Crimea in FY 2008-09, $19. 5 million of which was part 
of an FY08 supplemental. USAID and other programs focus on promoting 
economic development, health, democracy in Crimea. The U.S. mission in 
Kyiv works with businesses, local governments, and civil society to 
provide tangible economic and social gains, including improvements in 
the delivery of key economic and public health services. Aid to improve 
the business and investment environment will help diversify the Crimean 
economy. Health programs will help control tuberculosis. Media 
assistance will strengthen the reach and effectiveness of the region's 
independent media, providing meaningful alternatives to existing 
sources. Governance initiatives will build leadership skills in key 
constituencies, including Crimean Tatar youth. Programs to improve 
Ukraine's energy security support modernization of the municipal 
heating network and assist municipalities with energy planning and 
energy efficiency strategies.
    The Obama administration is reviewing plans on opening new 
diplomatic posts abroad, including one in the Crimean capital of 
Simferopol, one of the elements of the December 2008 U.S.-Ukraine 
Charter on Strategic Partnership. Further review by both the Department 
and Ukrainian authorities would be necessary before such a presence 
post can be established. Such a post would expand exchanges and promote 
mutual understanding between the United States and Crimea.

    Question. The State Department is asking for authority to retain 
and spend all passport and consular fees, providing a new stream of 
funding for the Department outside of the regular appropriations 
process.

  <bullet> For FY 2011, what is the estimate of the amount of fees that 
        would be received? How much currently goes to the U.S. 
        Treasury, and how much would go to the Department of State?
  <bullet> If this permanent authority is provided by the Congress, 
        under the Department's suggested language, what role does the 
        Congress have in guiding the use of these fees? Does usage of 
        the funds require an appropriation, or only a notification and 
        a year-end report?

    Answer. Currently, the Department of State has authority to retain 
certain consular fees, including the Machine Readable Visa and Border 
Crossing Card fees, the border security surcharge on passport and 
immigrant visa applications, the expedited passport fee, the Western 
Hemisphere Travel Initiative surcharge on passport applications, the 
diversity visa lottery fee, the fee for an affidavit of support, and 
the fee to process requests from participants in the Department's 
Exchange Visitor Program for a waiver of the 2-year home-residence 
requirement. Other consular fees must be deposited in the general fund 
of the Treasury and may not be retained by the Department of State. 
Consular fees are based on the cost of providing consular services to 
the public, and retaining the fees will allow us to offset the expenses 
associated with these services. These expenses include the purchase of 
supplies and equipment, and the salary of personnel.
    Under the consular fee proposal in the President's FY 2011 budget 
request, the Department would be able to retain any revenues from 
passport and other consular fees that are currently deposited in the 
Treasury, including the passport application fee, the passport 
execution fee, immigrant visa application fees, and fees for other 
consular services including American Citizen Services that are provided 
primarily overseas.
    Currently, the Department expends significant appropriated 
resources to support these activities because the associated fees for 
these services are deposited in the Treasury. The total projected 
revenue for FY 2011 under the proposed authority is approximately $782 
million. Planned use of the retained fee revenue would be included in 
the Department's annual financial plans which are submitted to the 
Congress soon after the appropriations legislation for each fiscal year 
is signed into law.

    Question. During President Obama's recent State of the Union 
Address, the President stated that it would be the administration's 
goal of doubling American exports over the next 5 years under the 
``National Export Initiative.'' The goal of increasing U.S. exports is 
one that I applaud and support. Multiple governmental agencies 
including the Department of State as well as the Department of 
Commerce, the United States Trade Representative, and others have been 
designated to be involved in this effort. Yet, I struggle to see 
evidence of the National Export Initiative reflected in this proposed 
budget of the Department of State. For example, the U.S. Trade and 
Development Agency budget increases at a rate below the average 
increase for non-Frontline State spending. This is an agency whose 
primary purpose is to promote U.S. exports and reports that every 
dollar is spent by the agency results in $40 in U.S. exports.

  <bullet> Please explain how the National Export Initiative is 
        reflected in this budget and how it might be reflected in 
        future budgets.

    Answer. The National Export Initiative (NEI) is an interagency 
effort coordinated by the Trade Promotion Coordinating Committee (TPCC) 
led by the Commerce Department. We support the administration's request 
for increases in FY 2011 budget requests for the Commerce Department 
and other TPCC agencies to support export promotion efforts. In the 
USAID budget, $10 million has been allocated to the Economic Growth, 
Agriculture and Trade Bureau for this initiative. These foreign 
assistance funds will complement U.S. commercial diplomacy by helping 
our partners in key developing country markets to streamline customs 
and other import administration procedures, thereby lowering the cost 
of U.S. products to customers in those markets.
    State Department officers work in a close partnership with their 
Commerce Department colleagues, particularly in our embassies and 
consulates abroad where Commercial Service officers are part of our 
country teams. Our embassies and consulates also work to leverage the 
resources and support for exporters offered by the Export-Import Bank 
(ExIm), the Overseas Private Investment Corporation, the Small Business 
Administration and the U.S. Trade and Development Agency.
    I have sent a message to all U.S. Ambassadors to highlight the 
importance of commercial diplomacy in their support for U.S. business 
abroad. We are working closely with our TPCC colleagues to strengthen 
the advocacy process to ensure that high-level U.S. Government 
officials are prepared to discuss commercial issues with foreign 
government officials. We are working with the Commerce Department in 
support of foreign trade missions and encouraging our Chiefs of Mission 
to engage with the U.S. business community when they are in the United 
States to encourage interest in markets abroad.
    Much of what the State Department does to advocate for business 
interests abroad does not require additional resources at this time. 
This could change given the transitional nature of the domestic and 
global marketplace and scope of this initiative in the future. Our U.S. 
embassy and consulate staffs offer U.S. exporters assistance every day 
by providing country-specific expertise on markets and potential 
customers. Embassy officers assist in investment and commercial 
disputes and provide U.S. firms with critical insight into local 
political and judicial systems in foreign countries. We also work 
closely with the Office of the U.S. Trade Representative and other 
agencies to enforce international trade rules to help level the playing 
field for U.S. companies. We also support efforts to negotiate new 
balanced trade agreements that improve market access for U.S. 
manufacturing, agricultural and services exports.

    Question. During your testimony, you discussed the increased role 
of the Export-Import Bank (ExIm Bank) in this initiative. As Exim Bank 
is an independent, self-sustaining executive agency which only receives 
funds from the 150 Account for expenses of the Inspector General of 
Exim Bank, how will the Department of State increase Exim Bank's 
effectiveness in financing and increasing U.S. exports?

    Answer. The National Export Initiative is an interagency effort, 
and the Department of State and other agencies of the USG, are working 
to increase U.S. exports. As we proceed to reach out to the U.S. 
business community, in Washington and through our embassies overseas, 
we are highlighting and promoting ExIm's programs more than ever. In 
fact, the State Department's Bureau of Economic, Energy and Business 
Affairs will be hosting an Internet seminar on ExIm Bank programs in 
March for embassy officers worldwide.

    Question. Given the focus of the National Export Initiative, how is 
the Department of State working to minimize the impact on U.S. exports 
and job loss due to the ongoing cotton dispute with Brazil?

    Answer. The administration continues to prefer a resolution to the 
cotton dispute that does not include Brazil resorting to 
countermeasures. We are disappointed to learn that Brazil's authorities 
decided to proceed with countermeasures against U.S. trade in this 
dispute. Working closely with the Office of the U.S. Trade 
Representative, we are consulting with Congress and American 
stakeholders, and we plan to continue to engage Brazil on this issue.
                organizing for civilian crisis response
    While you and Secretary Gates have indicated, side by side, the 
importance of right-sizing the foreign assistance budget for our own 
national security, you have both also indicated the necessity to 
organize our civilian agencies for this role in the 21st century. As 
you well know, I have long supported such efforts, to include 
strengthening the ability of civilian agencies to deploy personnel as 
effective partners to our troops and independently where necessary. I 
am pleased to see that the Civilian Stabilization Initiative remains a 
priority in the budget and hope to see it organized and led with the 
resources and personnel appropriate to this important security-related 
response capacity.
    While the Department of Defense has embraced the clear necessity to 
organize for the deployment of civilians in crisis areas around the 
world through policy decisions (3000.5) and reorganization (creation of 
the Civilian Expeditionary Workforce-CEW), it appears the State 
Department is not moving with the same urgency or commitment.

    Question. Why has the State Department Office of the Coordinator 
for Reconstruction and Stabilization (S/CRS) lacked priority and 
emphasis within the administration in the face of growing and 
persistent requirements for civilians from State, USAID, and other 
civilian agencies to deploy to places determined to be of the highest 
priority by the President such as Iraq, Afghanistan, and Pakistan, and 
perhaps places such as Haiti or even Yemen in the future?

    Answer. Robust funding for S/CRS and further development and 
employment of the CRC and other tools continues to be a priority for 
me, for the Department as a whole, and for the President. Although it 
is true that S/CRS is not leading our civilian response efforts in 
Iraq, Afghanistan or Pakistan, its tools and personnel have been 
involved in our efforts in all three places, particularly in 
Afghanistan. Currently, S/CRS has approximately 20 members of the 
Civilian Response Corps and S/CRS staff serving in Afghanistan and who 
are central to our efforts at civil-military planning, support for the 
U.N., and strategic communications. S/CRS has assisted in our Haiti 
effort and is just finishing a civilian-led assessment and planning 
process for our Embassy and USAID mission in Sana'a.
    In the coming months, as S/CRS continues to grow, my senior staff 
and I expect that Ambassador Herbst and his team will take on a more 
central coordinating and operating role in our most important conflict 
prevention and conflict response challenges.

    Question. What are your intentions with regard to matching the 
commitment you made with Secretary Gates to lead our lead civilian 
foreign policy agency to be an effective locus of organization for 
deployment of civilians? Is it possible to innovate upon S/CRS advances 
made to date in order to organize and coordinate for reconstruction and 
stabilization missions determined by the President to be in our 
interests?

    Answer. I remain fully committed to ensuring that the State 
Department, along with USAID, has the necessary civilian capacity 
effectively to respond to the nation's most important national security 
challenges. S/CRS has made very significant strides already, and, in 
the past few months has achieved a new level of readiness and maturity. 
In connection with the QDDR process this year, I am confident that we 
will build on S/CRS's successes and make further advances to create a 
larger and even more effective State, USAID and whole-of-government 
civilian response capability.

    Question. How will you ensure the hard-fought progress made through 
S/CRS to date is not lost and that the utility of its tools, such as a 
planning capacity, its innovation and coordination across agencies, its 
collaboration with DOD, as well as critical learned lessons and 
resident knowledge are collected and maintained as civilians return 
from difficult assignments in crisis zones?

    Answer. S/CRS is continuing to develop a database of best practices 
by capturing lessons learned from reconstruction and stabilization 
operations and incorporating them in doctrine, training, and future 
operations. After Action Reviews (AARs) of individual engagements are a 
primary means of distilling lessons and best practices. Evaluations are 
conducted while operations are ongoing, and final AARs are drafted 
after consulting with a wide range of interagency experts and external 
partners in both face-to-face meetings and online surveys. Such AARs 
are studied to glean best practices and lessons learned.
    S/CRS is working closely with USAID, DOD, and the Center for 
Complex Operations at the National Defense University in the 
establishment of a ``Whole-of-Government Lessons Learned Hub.'' With S/
CRS as the policy lead, an integrated civilian-military, multiagency 
pilot project is underway on Afghanistan and Iraq Provincial 
Reconstruction Teams that will institutionalize a standing interagency 
lessons-learned capacity. This interagency collaboration includes 
participating civilian agencies (DOS, USAID, USDA, and DOJ) as well as 
the Defense Department and a number of DOD entities. In managing the 
PRT lessons-learned project, the CCO has partnered with USIP and the 
Association of Diplomatic Studies and Training to interview returning 
civilian PRT members, using an interagency-agreed questionnaire. An 
interservice team is interviewing military personnel using the same 
materials. We are looking to create direct links to the field for rapid 
implementation of best practices.

    Question. Resources are an essential element of the Civilian 
Stabilization Initiative and should be properly located to achieve 
their purpose. Although I am pleased to see my persistent call for a 
Crisis Response Fund to be housed at State rather than relying on DOD 
section 1207 funds for the same purpose I wonder how State has 
organized to continue with the proper use of such funds. Why does USAID 
appear to have a parallel account? Is it for Stabilization and 
Reconstruction purposes?

    Answer. We welcome your support for the proposed FY 2011 Complex 
Crisis Fund (CCF), which we see as the natural successor to the 1207 
funding program. While specific decisions will have to wait for the 
conclusion of the legislative process, USAID, S/CRS, and F are 
currently consulting on the best way to organize to implement the CCF, 
building on the expertise S/CRS has developed in managing the 1207 
program. While the FY 2010 CCF was appropriated to USAID, we see this 
as being used for purposes similar to 1207, or for conflict prevention 
and conflict response activities, which is also how we envision the FY 
2011 CCF.

    Question. The Office of Foreign Disaster Assistance and its agency, 
USAID, responded as they have done so well over the years in 
cooperation with the Department of Defense and others in the immediate 
humanitarian response following the earthquake. As the humanitarian 
crisis settles the U.S. must decide on the path ahead for our 
engagement which I have noted earlier should encourage an international 
effort.

  <bullet> Why was the designated Deputy Assistant Secretary within the 
        PRM Bureau for the Haiti Task Force not seconded to S/CRS in 
        order to directly employ the resident S/CRS planning and 
        coordination tools including the engagement of the nascent 
        Civilian Response Corps (CRC) mechanism?

    Answer. The 12 January earthquake in Haiti came on the heels of a 
9-month-long process to review the USG's policy and assistance on Haiti 
lead by my Counselor and Chief of Staff Cheryl Mills. The selection of 
Deputy Assistant Secretary Reuben Brigety of the Bureau of Population, 
Refugees and Migration, to lead this process under Mills allowed us to 
bridge steady state with crisis response planning, particularly given 
DAS Brigety's background linking national security, humanitarian 
affairs, human rights, and foreign assistance reform. S/CRS reached 
into its staff as well as Active and Stand-by members of the Civilian 
Response Corps to provide the majority of the staffing for Task Force 
IV, which had the lead on this effort. In addition, S/CRSs signature 
whole-of-government planning process and coordination tools were 
enlisted in the effort, which within days had successfully convened 
over 150 experts from 45 federal offices and agencies to lend their 
expertise to a complex and rapidly evolving planning environment. In 
the space of 3 weeks, Task Force IV produced a compendium of planning 
products from situation analysis and future assessment needs to policy 
issues and a supplemental budget justification in support of the USG's 
strategy for recovery and reconstruction in Haiti from immediate 
transitory measures to a 5-year horizon.

    Question. Was there a conscious decision to bypass S/CRS and the 
years of development we in Congress have encouraged since 2003? If so, 
why?

    Answer. USAID Administrator Rajiv Shah was designated the unified 
Haiti disaster coordinator by the President since the earthquake relief 
was so clearly a humanitarian task for which rapid food, medical, and 
search and rescue assistance was needed. USAID's Bureau of Democracy, 
Conflict and Humanitarian Assistance has the mandate to provide 
humanitarian assistance in natural disasters, and has extensive 
experience in rapidly and effectively coordinating with international 
and nongovernmental humanitarian assistance providers and other USG 
agencies, including the U.S. military in such situations.
    S/CRS was and continues to be important as we manage our response 
to this tragedy, primarily by supporting our forward planning efforts 
and by coordinating some of the interagency contributions to the 
effort.

    Question. How will the State Department continue to build upon the 
resources dedicated to building an effective civilian response capacity 
in the Crisis Response Corps (CRC), as well as the tools to help in the 
planning, training, and coordination of all civilian agencies providing 
personnel for deployment?

    Answer. I am confident the QDDR process will point the way forward 
for the further development of the function pioneered and practiced by 
S/CRS and funded by the Civilian Stabilization Initiative (CSI). As 
part of the QDDR process we are looking at everything--filling all the 
gaps in our ability to respond to complex challenges, possible new 
authorities needed, resource gaps, and the necessary scope and size of 
our ``tools.'' One thing is for sure; continued building of our 
response capacity will require continued funding, in 2011, 2012, and 
beyond. I would also ask you to help us recruit, train, and employ a 
robust and effective force with flexible hiring authority, an expansion 
of the definition of personnel able to serve in the CRC, and the 
ability to offer dual compensation to USG retirees who want to come 
back and contribute to this effort without losing their pension.

    Question. The administration's CSI request includes $69.6 million 
for CRC deployments. The State Department FY 2011 Congressional Budget 
Justification indicates that there is a ``growing demand for CRC 
[deployments] in sub-Saharan Africa and South Central Asia,'' and that 
the Secretary has already committed one such deployment to the 
Democratic Republic of the Congo.

  <bullet> Are deployments to these areas to be made in FY 2010 or FY 
        2011? Specifically, how many and what size deployments does 
        that administration contemplate for the remainder of FY 2010 
        and for FY 2011?
  <bullet> How many members of the CRC are currently deployed? Where 
        are they deployed, and what functions are they serving? What 
        contribution have S/CRS and the CRC made to the civilian surge 
        in Afghanistan? What contribution are they making in response 
        to the Haiti earthquake?

    Answer. The demand for CRC deployments continues to grow as we 
progress in fully staffing the CRC and the capability becomes more 
widely known throughout the government. The deployments to sub-Saharan 
Africa and South Central Asia are in FY 2010 but we expect them to 
continue into FY 2011. Unfortunately, due to the demand driven nature 
of the work, we can only provide specific numbers of CRC that we 
anticipate deploying for the remainder of FY 2010. CRC deployments 
scheduled for the next 3-6 months include: 10-15 CRC to Sudan; 5 to the 
DRC; 20-plus to Afghanistan; and a handful to a number of other 
countries. We anticipate that demand will continue to grow for CRC 
deployments in FY 2011.
    Currently, 25 CRC are deployed. In addition, 15 S/CRS staff are 
deployed to countries including Yemen and Kyrgyzstan. Afghanistan is 
the largest deployment with 13 CRC members currently supporting joint 
civilian-military planning efforts, strategic communications, and 
corrections issues. In addition, there is one CRC member embedded with 
CENTCOM to support joint planning efforts in Afghanistan. One CRC-S 
Standby member is deployed to Chad working with MINURCAT on upcoming 
elections and one CRC-A member is in Sudan. In the DRC, there are two 
CRC members who were part of a larger CRC team conducting assessments 
in a variety of areas--including gender based violence, SSR, minerals 
trade--at the request of Embassy Kinshasa. In Pakistan, one CRC member 
is strengthening strategic communications and outreach efforts of the 
Embassy. At SOUTHCOM, S/CRS has one CRC Standby member from the 
Department of Commerce working on reconstruction and stabilization 
issues in Haiti. In Haiti itself, the CRC has deployed five members to 
conduct a variety of different missions related to the post-earthquake 
reconstruction and stabilization. In Sri Lanka, one CRC member is 
supporting the ongoing DDR activities in country.

    Question. I have long sought to strengthen the institutional 
Inspector General offices and find it is especially important given the 
vast resources being dedicated to U.S. efforts in Iraq, Afghanistan, 
and Pakistan. Effective institutional oversight is the currency for 
greater confidence from Congress in our expenditures overseas. While 
Special Inspectors General were established in Afghanistan and Iraq and 
were granted authorities, such as the hiring of annuitants and 
retirees, similarly helpful authorities and significant resources were 
not provided for the oversight offices within State and USAID.

  <bullet> (a) It is not a matter of resources alone however. Please 
        explain why our institutional Inspector General offices are not 
        given the authorities and resources deemed essential to the 
        Special IG entities?

    Answer (a). OIG Response: Resources--For FY 2011, the President's 
budget request for State OIG ($63 million) will not substantially 
inhibit our audits, inspections, or investigations. In accordance with 
the Inspector General Act of 1978, as amended, the Department fulfilled 
its obligation to apprise Congress of the OIG funding request to the 
Department (FY 2011 CBJ, Vol. 1). OIG's original FY 2011 request, $76 
million, was based on our current and projected requirements. In FY 
2010, OIG's base funding ($54 million), plus all supplemental funding 
available is $68.9 million. OIG appreciates Department and 
Congressional interest in our resources and the trust placed in OIG by 
both to undertake a swift but prudent expansion of our oversight 
portfolio.
    Authorities--In 2008, the State Department delegated OIG its 
statutory authority to hire personal services contractors (PSCs) for 
international work.
    In 2009, OIG responded to SFRC questions on needed OIG authorities, 
which were undertaken by the committee, specifically for:
          (1) Expansion of PSC authority to include domestic authority, 
        and
          (2) New Civil Service and Foreign Service annuitant hiring 
        authorities, which now are being coordinated by SFRC with 
        committees with related jurisdiction.
    These personnel authorities would increase OIG's capability to 
respond to oversight needs across the globe, however, only Congress can 
provide OIG additional statutory authorities such as 5 U.S.C. 3161, the 
use of PSCs domestically, and the expanded use of Civil Service and 
Foreign Service annuitant through partial retirement offset reduction. 
Recently, OIG requested that the SFRC provide 5 U.S.C. 3161 authority 
to OIG.

  <bullet> (b) How are you building the institutional capacity within 
        State and USAID IG offices to be more responsive to the 
        significant challenges and tasks associated with our foreign 
        policy and foreign assistance commitments in places such as 
        Pakistan and Afghanistan? How are you ensuring there is no 
        dropoff in productivity across the rest of the globe as 
        resources and personnel are directed to Afghanistan and 
        Pakistan?

    Answer (b). OIG Response: OIG continues to hire and train new 
personnel to meet oversight requirements and achieve full staffing 
levels. OIG makes the best use of its limited resources by prioritizing 
its work, focusing on high-risk, high-dollar programs and placing the 
greatest emphasis for new growth on sustaining oversight in post-
conflict and crisis countries and regions. In 2008, with additional 
resources available, OIG launched new offices to address emergent 
oversight needs. These new officers are the Middle East Regional Office 
(MERO) and Middle East Investigative Branch (MEIB).
    OIG will continue to expand its oversight efforts in Pakistan, 
Afghanistan, Iraq, and West Bank/Gaza, and its focus on issues 
important to Congress such as global health initiatives, global women's 
issues, and trafficking in persons. OIG will also continue to respond 
to new areas requiring oversight as evidenced by its announced review 
of the Department's response to the disaster in Haiti.
    In Afghanistan, OIG-MERO currently has assigned four staff members 
full-time--two auditors, including the audit-director, an auditor-
analyst, and an office support specialist. This staff is supported with 
a budget of $2.5 million in FY 2010 and $3.5 million in FY 2011.
    In Pakistan, OIG-MERO has hired or identified positions for three 
staff members to be assigned full-time--an audit-director and two 
auditor-analysts. This staff is supported with a budget of $2 million 
in FY 2010 and $3.6 million in FY 2011.
    The full-time staff in Pakistan and Afghanistan is in addition to 
staff deployed from the U.S. on a temporary duty (TDY) basis from 
Washington, DC, and those assigned TDY from the MERO and MEIB hub 
offices in Cairo and Amman, respectively.
    Beyond the work of MERO and MEIB, all OIG offices have conducted 
oversight work in countries within the Middle East and South Asia 
regions in recent years. For example, the OIG recently released its 
inspection of Embassy Kabul and the inspection report on Embassy 
Islamabad will be issued this spring. In October 2009, OIG published 
its report on the Audit of the Construction and Design of the New 
Embassy Compound in Baghdad, Iraq and in June 2009, OIG's Office of 
Audits released a joint report with the Special Inspector General for 
Iraq Reconstruction on ``Joint Audit of Blackwater Contract and Task 
Orders for Worldwide Personal Protective Services in Iraq.''
    Meanwhile, OIG continues to provide oversight of programs and 
offices for the Department of State, Broadcasting Board of Governors 
and the International Boundary and Water Commission, with prioritized 
oversight activity, both domestically and overseas.
    From FY 2008 to FY 2010, the Office of Investigations increased its 
staff of criminal investigators from 10 to 36 and anticipates an 
increase to 38 by the end of FY 2010. In FY 2009, the OIG created the 
Middle East Investigative Branch (MEIB) within the Office of 
Investigations to conduct investigations in support of the Department's 
expanding Middle East and South Asia mission. MEIB's primary mission is 
to respond to criminal allegations and support investigative activities 
concerning Department programs, employees, and contractors in the 
Middle East and South Asia, with focused concentration on high-value, 
high-risk areas of Afghanistan, Pakistan, and Iraq.
    MEIB has a total of eight criminal investigators, with three 
stationed domestically and five stationed in Amman, Jordan, Baghdad, 
Iraq, and Cairo, Egypt, respectively. This translates to more than 22 
percent of INV's entire investigative staff dedicated to the Middle 
East and South Asia region. From these locations, OIG can move its 
personnel easily, as needed, throughout the region. During FY 2010, INV 
plans to add another criminal investigator to MEIB.
    This shift of resources to the Middle East and South Asia has 
corresponded with a large increase in INV's overall domestic and 
worldwide workload. The number of OIG Hotline complaints processed rose 
from 533 in FY 2007 to 1,004 in FY 2009 (an increase of 88 percent) and 
is on pace in FY 2010 to surpass last year's total by a wide margin. 
The number of cases opened also rose from 37 in FY 2007 to 126 in FY 
2009 (an increase of 240 percent).
    To adjust to the increased workload, INV has taken measures to 
enhance productivity. For example, INV has also procured a new 
electronic Case Management System (CMS), which is due to come online 
during FY 2010 and will replace an outmoded system in use since 1999 
that is not accessible remotely. This new system will, for the first 
time, enable INV personnel stationed overseas to instantly update case 
files, communicate much more efficiently with Washington and greatly 
increase productivity.

  <bullet> (c) After strong congressional pressure there are now 3 
        USAID IG staff in Afghanistan and a similar number of State IG 
        staff, while there is 20 staff on the ground working for the 
        Special Inspector General for Afghanistan (SIGAR) which was 
        established only a short while ago. Washington, DC, staff is 
        similarly overweight within the SIGAR relative to the 
        institutional IG offices.

      <all>  (i) What changes have been made or will be made to 
            strengthen the institutional IG offices?

      <all>  (ii) How will you ensure the institutional capacity for 
            audit and oversight are sufficient to each and every 
            environment within which we expect to employ foreign 
            assistance and other foreign policy resources?

      <all>  (iii) Please break out the amounts from the FY2010 and 
            FY2011 budgets intended for State IG and USAID IG use by 
            total and by region, and where possible for Afghanistan and 
            for Pakistan.iv. Why does the FY2010 Supplemental Budget 
            Request include $14 million for SIGAR on top of $30.2 
            million for FY2010 while OIG request is for only $3 
            million?

      <all>  (iv) Why does the FY2010 Supplemental Budget Request 
            include $14 million for SIGAR on top of $30.2 million for 
            FY2010 while OIG request is for only $3 million?

    Answer (i). OIG Response: OIG has received a substantial amount of 
resources since 2007, as detailed below, to increase its oversight 
capabilities. This corresponded with equal or larger increase in 
oversight responsibilities for the increasing budget and programs in 
the Department, in addition to the work on post-conflict and crisis 
regions.
    OIG has judiciously used these resources to strengthen its existing 
offices and create an overseas presence for the first time. The large 
increase in OIG oversight products and investigations in crisis and 
post conflict areas since 2007 speaks for itself. OIG also coordinates 
and deconflicts its work with other institutional and special OIGs in 
organizations such as the Southwest Asia Planning Group and the 
International Contract Corruption Task Force. As for Afghanistan, OIG 
has determined that its current mix of overseas and domestically based 
personnel best supports its oversight mission there.
    OIG personnel stationed in Amman and Cairo provide oversight of 
major U.S. Government programs in crisis and post-conflict areas, 
including Afghanistan. Staff members in these offices conduct audits, 
program evaluations, investigations and financial attestations of 
contracts and grants on performance and procurement issues, as well as 
program oversight by management. The temporary satellite office in 
Kabul, with assistance from the regional offices and Washington, DC, 
provides direct oversight of the same types of Department-funded 
programs in Afghanistan. This configuration of personnel provides OIG 
the greatest operational flexibility, while incurring substantially 
lower risk and life support costs. In addition, it avoids unnecessary 
duplication of oversight with SIGAR and reduces the administrative 
support burden on Embassy Kabul.
    In terms of strengthening OIG's resources base, since 2008 OIG has 
received an array of additional funding. In 2008, the base funding was 
$33 million. If the 2011 President's budget is enacted, the base 
funding level will be $63 million. A major part of the increase was a 
result of the need to include the MERO and MEIB offices in the base 
funding. Before 2011, these two offices were funded by supplemental 
funding, which OIG understands will not be available in FY 2011.
    In response to the question on OIG authorities, the OIG supports 
the new proposed authorities and other OIG-related provisions that SFRC 
(See page 2.) is now considering for the reauthorization of the Foreign 
Relations Act.
    On overseas staffing, MERO and MEIB provide oversight to post-
conflict and crisis locations overseas. MERO maintains 80 percent of 
its staff based overseas, and an additional 10 percent in TDY-
deployable status. MEIB maintains its entire staff overseas or in TDY-
deployable status. These offices are continuing to assign additional 
staff overseas.
    The Office of Inspections has, since its inception, deployed 
domestically based staff overseas on inspections trips that can include 
multiple-post reviews and onsite, thematic reviews of programs at work 
overseas.

    Answer (ii). OIG Response: Congress plays a key role in ensuring 
that OIG maintains sufficient institutional capacity by providing 
sufficient resources and maximum personnel authorities that permit us 
the flexibility to staff our teams with the best mix of talent and 
experience.

    Answer (iii). OIG Response:
FY 2010
    $54M = regular appropriation
    $2M = ESF Pakistan
    $2.4M = Egypt
    $2.5M = Jordan
    $2.5M = Iraq
    $2.5M = Afghanistan
    $2.0M = Pakistan
    $1.0M = Gaza
FY 2011
    $63M = regular appropriation request
    $2.0M = Pakistan ESF transfer
    $2.4M = Egypt
    $2.5M = Jordan
    $2.5M = Iraq
    $3.5M = Afghanistan
    $3.6M = Pakistan

    Answer (iv). OIG Response: OIG is not in a position to answer this 
question.

    Question. I appreciate the higher profile attention you are giving 
to international energy matters. We must work to push forward on 
cleaner and renewable energy sources for the future, while also working 
to secure the reliable oil and natural gas supplies that are so 
critical to the global economy. An area of particular importance is 
opening the Southern corridor to link Central Asian and Caucasian 
energy sources with consumers in Europe. Special Envoy Morningstar has 
put a great deal of effort into this project, and his work is 
commendable. Yet, some in the region still question U.S. commitment, 
particularly in comparison to the Clinton administration support for 
the Baku-Tblisi-Ceyhan pipeline project. Could you please update us 
progress on Nabucco, and also comment on how Nabucco progress fits with 
our efforts related to the complicated issues of Nagorno-Karabakh and 
Turkey-Armenia relations?

    Answer. We strongly support Europe's efforts to bring natural gas 
to Europe through new, diverse routes, including the Nabucco pipeline. 
Let me be clear. We strongly support Nabucco, but it will ultimately be 
built only if and when the case has been made that it makes commercial 
sense. That is why Ambassador Morningstar and his team have put so much 
effort into encouraging the parties whose interests are most directly 
engaged (Europeans, producer countries, transit countries, Turkey) to 
lay the necessary groundwork so that appropriate investment decisions 
can be made.
    There have been several positive developments regarding Nabucco. 
The Intergovernmental agreement was signed by all partner countries in 
July 2009. Since that time, the Parliaments in Hungary, Bulgaria, and 
Turkey have ratified the agreement. Commercial negotiations between the 
Nabucco partners and several gas suppliers, including Azerbaijan are 
underway. Negotiations between Turkey and Azerbaijan regarding gas 
sales and transit are nearing completion. Politics are playing a role 
in these negotiations but we believe that an agreement is in the 
commercial and strategic interests of both Turkey and Azerbaijan and 
have encouraged both countries to finalize the agreement as soon as 
possible, so that companies can make appropriate investment decisions.
    With respect to BTC, the situation today is more complex than it 
was 10 years ago. The Europeans, for example, are much more involved in 
Nabucco (and a Southern corridor) than they were in BTC. European 
companies will be buying the gas, and as much European unity as 
possible will be necessary for successful completion of the project. 
The world and the region are very different places in other ways as 
well. We will continue to work as hard as possible to guide Nabucco and 
the Southern corridor to a positive conclusion and believe that our 
efforts will be successful.

    Question. Please specify funding and personnel requests for the 
global critical energy infrastructure program and explain any 
reductions in support for this program and priorities in FY 2011.

    Answer. The Coordinator of Counterterrorism (S/CT) has the lead for 
implementing the global critical energy infrastructure protection 
(GCEIP) program within the Department of State. S/CT does not submit a 
separate budget request for GCEIP but supports this program through 
Anti-terrorism Assistance program funds. S/CT devoted approximately 1-
1.3 FTE to the implementation of GCEIP in FY 2010 and expects to 
continue this effort at a similar level in FY 2011. Most of this 
activity involves outreach to potential foreign partners. The GCEIP 
program assumes that foreign partners will pay the costs for specific 
assistance requested of the United States. This is already occurring 
with respect to a sizeable and growing program with a major energy 
producer.

    Question. G20 leaders made a pledge to phase out ``inefficient 
fossil fuel subsidies'' (CBJ p. 597). How is the efficiency, or lack 
thereof, of energy subsidies being assessed? What is the plan of action 
for implementation of this pledge outside of the United States?

    Answer. In Pittsburgh, the Leaders of the G20 countries made a 
critical commitment to phase out inefficient fossil fuel subsidies over 
the medium term while providing targeted support for the poorest. This 
groundbreaking effort will encourage the conservation of energy, 
improve our energy security, and provide a downpayment on our 
commitment to reduce greenhouse gas emissions.
    Fossil fuel subsidies displace important public investments and 
drain government finances, worsen balance of payments, lead to 
underinvestment in infrastructure, and can contribute to energy 
shortages. Eliminating fossil fuel subsidies and using some of those 
freed resources for targeted social assistance could significantly 
improve the quality of life of low-income households.
    Cutting energy subsidies leads to reduced consumption, lower import 
demand and increased availability of energy for export--all helping to 
reduce the likelihood of a future supply crunch.
    The OECD and IEA estimate that eliminating fossil fuel subsidies 
worldwide would reduce global greenhouse gas emissions by 10 percent or 
more by 2050. Removing fossil fuel subsidies helps eliminate market 
distortions, strengthening incentives for investments in energy 
efficient technologies and nonfossil energy supply.
    Following the Pittsburg summit, G20 Finance Ministers and Central 
Bank Governors called on the IEA, OPEC, OECD, and World Bank to produce 
a joint report on energy subsidies. This analysis will inform G20 
efforts to craft implementation strategies and timeframes, based on 
national circumstances, for rationalizing and phasing out inefficient 
fossil fuel subsidies, and for providing targeted assistance programs.
    The State Department is making implementation of the G20 commitment 
to phase out inefficient fossil fuel subsidies a key element our 
international energy policy. Pressing for expeditious implementation of 
the commitment will be an important part of our bilateral engagement 
with other G20 partners.

    Question. New authorizing language and new expenditure of $5 
million is being proposed for the International Renewable Energy 
Agency. What office would be the U.S. representative to IRENA? What 
role would the U.S. representative play in expenditure of proposed 
funds through IRENA? What, if any coordination, will be 
institutionalized between IRENA and the IEA and IAEA?

    Answer. The State Department's Bureau of Oceans, Environment and 
Science (OES) Assistant Secretary will serve as the U.S. focal point 
for IRENA. In this capacity, OES works closely with other Bureaus 
within the State Department, including The Bureau of Economic, Energy, 
and Business Affairs (EEB), The Office of the Legal Adviser for Ocean 
International Environmental & Scientific Affairs (L/OES), The Bureau of 
International Organizations (IO) and the various regional bureaus. 
Additionally, the State Department coordinates U.S. Government 
involvement with IRENA through an interagency process that includes the 
Department of Energy (DOE), the Environmental Protection Agency (EPA), 
the Department of Commerce (DOC), the National Security Council (NSC), 
the Export-Import Bank of the United States (EXIM), the Overseas 
Private Investment Corporation (OPIC), the U.S. Department of 
Agriculture (USDA), and the U.S. Agency for International Development 
(USAID).
    The United States currently participates in the Preparatory 
Commission that is working to establish the policies, work program, and 
organizational structure of IRENA prior to IRENA coming into force. If 
Congress authorizes U.S. participation in IRENA before it enters into 
force, then the United States is expected to be a member of the IRENA 
Council which has the authority and responsibility to ``consider and 
submit to the Assembly the draft work program and the draft budget of 
the Agency.'' It is within that capacity that the United States would 
exercise its responsibility and authority to help ensure that the 
expenditure of funds conforms to the mission and objectives of the 
organization.
    The IRENA founding statue calls on IRENA to cooperate closely with 
existing institutions to avoid unnecessary duplication of effort. The 
United States, along with other like-minded participating countries, is 
seeking to ensure that IRENA's work plan and programmatic portfolio 
complements and does not compete with or conflict with ongoing efforts. 
In State Department discussions with the leadership of the IEA and 
IRENA, both Secretariats have indicated strong interest and willingness 
to coordinate and cooperate with each other. For example, IRENA has 
included IEA representatives in a variety of the workshops that IRENA 
has sponsored, and IRENA's 2010 work program includes stocktaking of 
global renewable energy activities among multilateral fora, such as the 
IEA. As nuclear energy is not within IRENA's mandate, there is not 
expected to be any institutionalized relationship established between 
IRENA and the IAEA.

    Question. The CBJ (p.766) states: ``A primary focus of the 
Department's diplomatic efforts in the area of energy security is 
promoting the development and implementation of policies in foreign 
governments designed to foster growth in the clean energy sector.'' 
Please clarify if ``clean energy'' includes nuclear power and advanced 
coal technologies.

    Answer. In its diplomatic efforts to promote energy security (using 
State Department operational funds), the Department includes both 
nuclear power and advanced coal technologies--defined as Carbon Capture 
and Storage and Integrated Gasification Combined Cycle (IGCC) 
technologies--as technologies that have the potential to reduce global 
and national greenhouse gas emissions. With regard to international 
assistance funding, in accordance with congressional directives in the 
FY 2010 appropriations bill, we will only use FY 2010 ``clean energy'' 
funds to promote the sustainable use of renewable energy technologies 
and end-use energy efficiency technologies, carbon sequestration, and 
carbon accounting. The primary objective of these programs will be to 
reduce, mitigate, and/or sequester emissions of greenhouse gas 
emissions. We would like to have a further dialogue with Congress on 
this issue for FY 2011 and beyond.

    Question. Please explain the proposed budget reduction for 
``Caspian Basin Energy Diplomacy'' within EEB.

    Answer. In fact, it is not actually a decrease but rather shifting 
of internal accounting within a centralized budget in EEB as we were 
building the full capacity of the Office of the Special Envoy for 
Eurasian Energy.

    Question. What, if any, funds beyond assessed contributions are 
likely for the International Energy Agency given its increased role 
relative to the G20, UNFCCC negotiations, and enhanced engagement with 
China and India?

    Answer. The International Energy Agency (IEA) is an important 
vehicle to help advance our collective energy security goals and to 
reduce greenhouse gas emissions. I believe the IEA is the premier 
source for developing best practices and policies for new energy 
technologies and energy efficiency--which are integral to the 
transformation to a low carbon economy. The agency's efforts to improve 
the transparency of energy data and its wide-ranging analysis are 
laudable and enhance its global credibility.
    Given this, I have encouraged senior State officials to commit 
voluntary State funding to support the IEA's work on new energy 
technologies, more efficient energy markets and training, outreach to 
important new consumers such as India and China, and on developing low 
carbon technology platforms. Funding will also support G20 developing 
country members in meeting commitments to eliminate inefficient fossil 
fuel subsidies, and help provide training for developing country 
government officials in statistical analysis and transparent reporting 
of data concerning energy markets, fuel reserves, and energy 
consumption.

    Question. What funds and personnel are being proposed for the 
Office of the International Energy Coordinator?

    Answer. David Goldwyn was sworn in as Coordinator for International 
Energy Affairs on August 17, 2009. The office of the Coordinator 
currently has four full time personnel, with plans to increase staffing 
by an additional three full time positions, for a total of seven 
(including the Coordinator). Broken down, this includes one SES, two 
Foreign Service positions, two civil service positions, a schedule C 
and a contractor. In addition, the Department is utilizing matrix 
management so that all personnel focusing on energy matters within the 
Department of State can be called upon by the Coordinator as 
appropriate. We are currently finalizing the financial plan for FY 2010 
and the FY 2011 budget has been submitted. We expect to have sufficient 
resources to fund the operations of the Office of the International 
Energy Coordinator to ensure it can carry out its mandate.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. Secretary Clinton, as you know, defeating al-Qaeda and 
dealing with the broader problem of violent extremism requires that we 
use all of the tools at our disposal, including important nonmilitary 
tools provided by the international affairs budget. In the FY11 
function 150 budget request, some of these tools come under explicitly 
terrorism oriented budget lines, like the new countering violent 
extremism program. However, there are a number of other budget lines 
supporting activities--such as economic development, good governance, 
respect for human rights and the rule of law, and conflict resolution--
that can help to counter al-Qaeda's ability to recruit and operate. How 
do you plan to reach out across the different relevant programs to 
ensure we maximize and coordinate some of the potential benefits of 
these various initiatives with our broader counterterrorism efforts? 
Can you also tell us more about the countering violent extremism 
program--such as how a country would be determined a priority for the 
funding and how the program will relate to the wider assistance effort 
we are undertaking in a specific country?

    Answer. The Countering Violent Extremism (CVE) program uses all of 
the relevant diplomacy, development, and defense tools at our disposal 
in order to maximize and coordinate programs and potential benefits 
with broader counterterrorism efforts. The Department of State 
coordinates accounts and agencies' planning, budgeting, and 
implementation efforts to ensure that U.S. Government responses meet 
the complex challenges posed by CVE. The Department of State makes 
decisions about resource allocation in a coordinated, coherent way so 
as to maximize the leverage and effectiveness of U.S. Government 
assistance on this multifaceted problem. In budget formulation, for 
example, we examine assistance requests through both a country program 
lens as well as from a global, sectoral perspective to ensure that 
programs in each country and region complement each other, avoid 
duplication of effort, and support U.S. strategic objectives. This 
applies to counterterrorism programming just as in other areas of 
assistance.
    Various U.S. Government agencies have done an impressive job in 
recent years to further the U.S. Government's understanding of the 
radicalization process and the underlying factors that foster 
extremism. This knowledge is based on significant research and analyses 
conducted by the intelligence community as well as the many studies 
conducted by the private sector and academics. The Department of State 
then applies this knowledge in developing programs that will make a 
genuine difference in communities vulnerable to radicalization and 
recruitment toward violence.
    Before beginning new programs in any country, the Department of 
State assesses that country's radicalization problem. These assessments 
are based on polling and surveys and other means of assessing 
individual and community attitudes. The results are examined in light 
of the contextual information described above, to guide programming and 
serve as a baseline to measure program effectiveness.
    Additionally, the Department of State considers programs that are 
already in place to address CVE issues, threat assessments from the 
intelligence community, and a country's capacity and willingness to 
work with us.
    The first task is to identify the at-risk populations. To 
successfully develop and implement CVE programs, we seek to understand 
the specific dynamics of the cohorts we are focusing on, not just by 
country, but sometimes even down to the community or neighborhood 
level. Every cohort and community possesses unique demographics, 
grievances, and, in many cases, ties to overseas family members--
factors that influence the cohort's potential vulnerability to 
extremist pressures.
    The second task is to develop programs that fit the characteristics 
of the intended audience. We develop programs in concert with the 
interagency community in Washington, our missions in the field, partner 
nation governments, local community leaders, and civil society 
organizations, who are best positioned to identify points for 
intervention. CVE is also a regular subject of discussion at our 
Regional Strategic Initiative meetings. Our success depends, in part, 
on having local programs delivered by credible people who can help 
vulnerable individuals become resistant to extremist messages. We know 
that programs that are not tailored to the specific cohort or community 
are likely to have limited appeal, and, ultimately, to be ineffective.
    CVE is approached from many perspectives and organizations within 
the Department of State, including the Office of the Coordinator for 
Counterterrorism, the Office of the Under Secretary of State for Public 
Diplomacy and Public Affairs, the Office of the Special Representative 
to Muslim Communities, and regional bureaus. We also coordinate with 
several Bureaus in the U.S. Agency for International Development and 
other agencies to make sure that efforts to engage civil society and 
counter radicalizing narratives through existing programs are focused 
in the right areas.
    We have an excellent relationship with the Department of Defense 
(DOD), which informs our CVE programming. Together the State and 
Defense Departments can complement each other's strengths and efforts 
in the field, and determine which CVE efforts are best done by the 
military and which are best handled by civilians. A number of offices 
that fund CVE projects and research in the DOD and its combatant 
commands have expressed a desire to collaborate with us on new 
programs.
    We are also working with foreign CVE partners. For example, in 
November 2009 the Office of the Coordinator for Counterterrorism hosted 
a Multilateral ``Countering Violent Extremism (CVE)'' Workshop with 
Australia, Canada, Germany, Italy, the Netherlands, Spain, and the 
United Kingdom as a first step in developing a more cooperative 
multilateral approach to CVE. Participants discussed approaches, target 
audiences, specific interventions designed to counter terrorists' 
recruiting efforts, and information-sharing. Programs that gave 
participants insight into the challenges of police work with diaspora 
communities in the United Kingdom and Australia generated a lot of 
interest as possible templates. A follow-on workshop is planned for 
mid-May with the same international partners plus Denmark and France.

    Question. At the Senate Intelligence Committee's annual threat 
assessment hearing, the Director of National Intelligence testified 
that, ``looking ahead over the next 5 years, a number of countries in 
Africa and Asia are at significant risk for a new outbreak of mass 
killing . . . [and] among these countries, a new mass killing or 
genocide is most likely to occur in Southern Sudan.'' Madam Secretary, 
I know you share my concern about the rising violence in southern Sudan 
and that you are well aware of the potential for it to worsen in the 
runup to and then after the South's vote on self-determination next 
January. I know State is working hard to prevent the resumption of 
conflict between the parties of the CPA, but could you tell me, 
Secretary Clinton, what steps are being taken to prevent violence 
between communities within Southern Sudan and whether you believe our 
efforts are commensurate with the risk of mass killings and genocide as 
stated by the DNI?

    Answer. Since the implementation of the Comprehensive Peace 
Agreement (CPA) began in 2005, there has been progress in Southern 
Sudan in working to build a stable political environment devoid of the 
overt threat of violence. The United States Government (USG) has worked 
throughout the implementation process with the Government of Southern 
Sudan (GOSS) to build effective political capacity and responsible 
governance, foster the conditions and capacities for longer term 
development, and mitigate the risk of renewed conflict. However, we are 
aware of the increasing intercommunal violence in the South, and we 
share the DNI's concern regarding the escalation of violence between 
communities within Southern Sudan and the potentially destabilizing 
effect it could have on the region. This violence is especially 
troubling as the national elections and referendum on southern self-
determination draw closer.
    Since 2005, the USG has focused its assistance programs to support 
the implementation of the CPA, with a specific conflict-mitigating lens 
to address potential threats to the agreement, including providing 
peace dividends that help maintain the CPA's viability and addressing 
the root factors that fuel conflict. Currently, the USG has a program 
that is focusing on community security through a fast-starting, quick-
implementation, flexible small-grants mechanism to support southern 
Sudanese authorities, institutions, and organizations. We are utilizing 
southern Sudanese NGOs and companies in order to invoke local ownership 
of the conflict mitigation efforts. Activities are concentrated in two 
clusters of counties in Southern Sudan as well as in Abyei, Southern 
Kordofan and Blue Nile. This community security program started in 
Southern Sudan in October and is already showing early signs of success 
in terms of increasing the capacity of local authorities to manage 
conflict.
    In addition to this program, the USG is in the process of standing 
up new conflict mitigation programs in Sudan in response to the spike 
in violence seen in Southern Sudan in 2009. The aim of these programs 
will be to address the factors that contribute to conflict in order to 
prevent it while simultaneously building government and local capacity 
to prepare for and respond to conflicts when they do arise. In an 
effort to prevent and alleviate conflict effectively and appropriately, 
conflict mitigation programs will focus on addressing fundamental 
weaknesses in existing conflict mitigation and response efforts, as 
well as supporting state and local institutions to prevent breakdown of 
law and order in Southern Sudan.
    Specifically, the USG will assist institutions at the state and 
local levels to implement a conflict management communication and 
information system that enables southern Sudanese authorities in high-
risk areas to network with communities and civil society groups to 
identify and respond to destabilizing conflicts and violence. We will 
also coordinate with local and international partners to help state 
governments to develop stabilization strategies and to build up early 
warning and response capacities. Additionally, we will facilitate the 
implementation of resolutions from local reconciliation agreements 
among parties to conflicts in high risk areas. Finally, we will assist 
U.N. agencies' civil affairs partner efforts to inform and educate the 
local population on the various stabilization initiatives and planning 
processes.
    The USG is now playing a leading role in preventing violence in 
Southern Sudan and the Three Areas. Sudan is a priority for the 
administration, and we continue to work tirelessly at all levels of the 
government to ensure peace and security for all people in Sudan.

    Question. Critical to addressing this violence sustainably is 
helping the Government of South Sudan transform its army and police 
into disciplined and accountable security forces that prioritize 
civilian protection. Could you tell me what steps we're taking to help 
build this capacity, where dedicated funds will come from in the FY11 
budget, and how this effort will be coordinated with other agencies 
undertaking such work and among our other Sudan priorities, of which I 
know there are many?

    Answer. Since the signing of the Comprehensive Peace Agreement 
(CPA) in 2005, the United States Government (USG) has supported the 
transformation of the Sudan People's Liberation Army (SPLA) and 
Southern Sudan police forces into more disciplined and accountable 
security and service forces that can better respond to security 
threats.
    The USG is assisting with the transformation of the SPLA through 
unit-level training of rank-and-file soldiers, as well as a series of 
train-the-trainer courses for officer staff skills, military police, 
and noncommissioned officers. The USG is also facilitating the 
development of centralized management of army resources, including the 
establishment of procurement regulations and plans for improved 
accountability. Finally, the USG is also providing communications 
systems and training to support command and control of the SPLA between 
the General HQ outside of Juba and the SPLA's divisions throughout the 
south.
    Assistance from the USG to reform the GOSS police force, the 
Southern Sudan Police Service (SSPS), includes funding police, 
judicial, and corrections advisors to the United Nations Mission in 
Sudan (UNMIS) as they help develop local police and SSPS through 
training, advising, and mentoring. This training varies widely from 
basic policing to elections security and crowd control. UNMIS is also 
helping the SSPS establish ``cattle units'' to address cattle raids 
which are one of the instigators of tribal violence in the south. USG 
assistance also funds equipment for SSPS specialized units, which are 
intended to respond quickly to security threats during the April 2010 
elections and the referendum in 2011.
    From FY 2005-09, the USG provided $159 million of PKO funding and 
$27.326 million of INCLE funding to support security sector reform of 
the SPLA and SSPS, respectively. For FY 2010, the USG intends to 
provide $44 million of PKO funding and $11.25 million of INCLE funding 
to continue these efforts. For FY 2011, the administration requested 
$42 million of PKO funding and $24.35 million of INCLE funding.
    Coordination of security sector reform efforts is accomplished 
through weekly interagency working group meetings, weekly conference 
calls with stakeholders on the ground, Interagency Policy Coordination 
meetings, and ad hoc meetings and conference calls as needed. In 
addition, USG efforts are coordinated with other donors and 
international institutions as appropriate. Because of the destabilizing 
effects of renewed violence on CPA implementation, governance, civil 
society, and regional development, the USG has made security sector 
reform in Southern Sudan one of our highest priorities.

    Question. A large portion of our resources in the function 150 FY11 
budget request-- about 7 percent-- is directed to Afghanistan. I am 
pleased that the administration is attempting to balance our massive 
military presence in Afghanistan with a new civilian strategy, but I 
remain concerned that no matter how good a civilian strategy we have, 
with a flawed military strategy, we may be undermining our efforts. Are 
you concerned about the impact of our funding for civilian programs 
when you see that even these huge portions of our State and 
International Programs budgets for Afghanistan are dwarfed by DOD 
spending?

    Answer. Our plans rely on seamless civilian-military integration. 
Establishing security requires military engagement, which is costly in 
budgetary and human terms, but essential for the civilian elements of 
our strategy to take effect. Similarly, long-term success and drawdown 
of our troops requires success of our civilian efforts. Military and 
civilian leaders spent last year getting the inputs right in 
Afghanistan, putting into place the structures, the concepts, and 
organizations necessary for a comprehensive civil-military campaign. 
President Obama announced a more focused policy in December at West 
Point; the necessary resourcing to support our objectives, however, had 
begun months earlier, with additional troops and civilians already in 
place and many more on the way.
    The operation in Marjah is the initial step of what will be a 12- 
to 18-month civ-mil campaign. The Afghan Government, with the active 
support of the United States and United Kingdom Embassies, is already 
launching the delivery of essential public services. The rapid delivery 
of governance and development to a ``cleared'' area is essential to 
executing our new population-centric strategy of forcing the Taliban to 
work from the ``outside in,'' instead of from the ``inside out.'' Key 
development activities will include the rapid expansion of USAID's 
agricultural stabilization and cash-for-work program (2,500 residents 
will be employed immediately), technical and logistical support for the 
lead Afghan official in Marjah, resources to recruit and train 
qualified local Afghans to fill civil servant positions, and the 
construction of a highway connecting the area to the provincial 
capital.
    Civilian engagement is vital to the initial security operations and 
on-going stability, and it should be resourced sufficiently to play its 
part. The recent budget request reflects our expanded effort and the 
need for additional resources to fund our civilian activities.

    Question. Secretary Clinton, given the recent spotlight on Yemen, I 
was not surprised to see an increase of $22.5 million in FMF funding 
for Yemen--one of the largest country-specific increases in the 
function 150 budget request. Last month, State Department officials 
testified before this committee that the Houthi rebellion in the North 
and a secessionist movement in the South contribute to Yemen's 
instability and have distracted the Government of Yemen from the fight 
against al-Qaeda. I was pleased to see a cease-fire agreement with the 
al-Houthi reached last week, but we've seen cease-fires before, only to 
have a return to arms. In light of all of this, what are we doing, in 
addition to the legally required Leahy vetting, to ensure 
accountability and transparency in the use of our resources, so that 
FMF funding for Yemen isn't utilized for these conflicts, now or in the 
future, undermining our counterterrorism efforts in the country?

    Answer. The United States uses Foreign Military Financing (FMF) to 
train and assist Yemen's Central Security Forces (CSF) and other Yemeni 
Government organizations engaged in counterterrorism operations. Those 
organizations include the Ministry of Defense and the Ministry of 
Interior security forces, the Yemeni Coast Guard, Air Force, and 
Special Forces, and the Central Security Force's Counterterrorism Unit 
(CTU). They all have discrete responsibilities focused on 
counterterrorism and border control. All equipment transferred to 
Yemeni forces is covered by end-use agreements, which ensure 
transparency by requiring Yemen to grant the U.S. Government full 
access to monitor how the equipment is being used.
    The United States welcomes the cease-fire in Government of Yemen--
Houthi conflict. We understand a mediation commission representing all 
parties is monitoring compliance with the terms of the cease-fire. We 
hope efforts will begin the urgent process of reconciliation and 
reconstruction to bring the conflict to a permanent end.

    Question. Diplomatic reporting plays a critical and 
underappreciated role in keeping our government informed about what is 
going on around the world. In many situations, our Embassy officials--
through completely open channels--may be better suited to obtaining 
information than the intelligence community. Yet there is no 
interagency strategy that would ensure that the State Department's role 
in meeting our government's overall information needs is reflected in 
its budget. Do you agree that diplomats are often the eyes and ears of 
our government, and do you also agree that our capabilities in this 
area would be strengthened if there were an interagency strategy that 
identified where the need is greatest and ensured that the appropriate 
resources were provided?

    Answer. I agree that our diplomatic reporting provides crucial and 
unique insights into what is going on around the world. For example, 
we're gratified that the intelligence community regularly includes 
diplomatic reporting as one of its most credible, reliable, and 
frequent sources. The State Department hopes to appreciably increase 
our hiring to ensure that our staff overseas can not only continue to 
provide its valuable insights, but also can increase it significantly.
    State continually solicits input from foreign affairs agencies to 
highlight areas in which we're meeting their information needs, 
identify areas where more focus would be welcome, help us target our 
efforts, and support our requests for additional resources. While not 
focused exclusively on reporting, we employ a highly developed, formal 
system that annually develops strategic plans at the mission, Bureau, 
and Department level. We use that system to plan strategically, manage 
our performance, and request resources. Always produced with 
interagency input, those plans articulate multiyear, forward looking 
strategic plans and foreign policy priorities, and identify our highest 
priority funding and personnel needs. Additionally, State this year 
launched a Quadrennial Diplomacy and Development Review (QDDR) to 
ensure that State has a short-, medium-, and long-term blueprint to 
guide our diplomatic and development efforts.
    We are confident that our extensive informal and formal planning 
and feedback tools ensure that we can identify where the need for 
diplomatic reporting, personnel, and funding is greatest.

    Question. As you know, the last few months have seen political 
paralysis in Nigeria resulting from President Yar'Adua's extended 
absence. A few weeks ago the Nigerian National Assembly made the Vice 
President Acting President, an important first step in ending this 
paralysis, but regional and religious tensions persist and the 
potential for instability remains high. I held a subcommittee hearing 
on this issue just yesterday as the Nigeria situation would seem to be 
a pretty clear-cut case requiring sustained diplomatic engagement at 
very senior levels. And I certainly commend you and your colleagues at 
State as I recognize the significant outreach underway to address 
Nigeria's political crisis and ensure it doesn't worsen or turn into a 
full-blown conflict. Accordingly, as you seek to enhance our diplomatic 
capacity, how does the FY11 budget request anticipate the short-term 
needs of crisis and conflict prevention around the world as well as the 
longer term work of protecting democratic gains and mitigating 
tensions, before we've reached a crisis point?

    Answer. We are closely following developments in Nigeria. We are 
pleased that the Nigerian National Assembly took steps to address the 
political vacuum, granting the Vice President executive powers as 
Acting President. We continue to engage with our Nigerian counterparts 
at senior levels to ensure that democratic principles and rule of law 
are respected. In the FY 2011 Congressional Budget Justification (p.p. 
134-139), we have requested almost $648 million for Nigeria. Though the 
majority of funding--nearly $568 million--is for health and HIV-AIDS 
programs, the request includes $4 million for conflict mitigation and 
reconciliation, almost $5 million for other security assistance, $15 
million for education programs, $25 million for democracy and 
governance programs, and $31 million for economic growth programs.
    Conflict prevention is an important area of attention in foreign 
policy diplomacy and foreign assistance globally. Based on analysis, we 
know that some conflicts might be avoided through carefully structured 
and targeted programs, while others are perhaps unavoidable. Our FY 
2011 budget requests $824 million for conflict mitigation and 
reconciliation activities in 22 countries with ongoing problems, 
including over $600 million for Afghanistan. Our request for USAID's 
Bureau of Democracy, Conflict and Humanitarian Assistance (DCHA) 
includes $38 million to help missions assess the risk of future 
conflict and how to address conflict prevention or mitigation. In 
addition, since our budget requests are made too far in advance to know 
for certain where crises will emerge, we have requested FY 2011 
resources under the Complex Crises Fund ($100 million) and the 
Transition Initiatives account ($48 million) to address emergent 
situations. Of course, in such situations, existing funds are also 
examined to see if reprogramming is a possibility to address new, high 
priority needs.
    In addition to conflict prevention and mitigation, the State 
Department and USAID implement a broad range of foreign assistance 
programs that build the foundations for stable, prosperous, and well-
governed states that meet the needs of their populations by advancing 
democracy and good governance, broad-based economic growth, and 
investing in people. In FY 2011, the President requested nearly $20 
billion for these programs throughout the world.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                          by Senator Jim Webb

    Question. Despite the administration's stated intent to reengage 
Asia, a comparative examination of regional spending does not reflect 
this commitment. Of the six regional Bureaus in the State Department, 
the Bureau of East Asian and Pacific Affairs has the smallest FY11 
budget request, totaling $169 million. Additionally, Foreign Military 
Financing for East Asia is 1.3 percent of the overall FMF request ($70 
million out of $5.4 billion). East Asia also has the lowest 
International Military Education and Training (IMET) allocation with 
only $9.3 million, compared to Europe with $30.5 million, Africa with 
$16 million and the Near East with $18.6 million. In contrast, funding 
for Frontline States (Afghanistan, Pakistan, and Iraq) accounts for 18 
percent of the overall budget and 60 percent ($6.1 billion) of the 
budget's growth.

  <bullet> How much funding did the Bureau of East Asian and Pacific 
        Affairs (EAP) initially request during the State Department's 
        internal budget deliberations?

    Answer. The FY 2011 budget request balances the many pressing needs 
for increased staffing and programs at our overseas posts. The 
strategic importance of the East Asia and Pacific region to U.S. 
national security, economic prosperity, support of human rights, and 
environmental initiatives was carefully considered as part of this 
process, and the FY 2011 request reflects the Secretary's and the 
President's priorities for this region within the global context. The 
ongoing Quadrennial Diplomacy and Development Review is continuing to 
look at how we can better implement foreign policy initiatives 
worldwide and may identify further enhancements for our activities in 
this vital region.

  <bullet> Given the administration's goal of reengaging Asia, please 
        provide a detailed rationale for providing EAP with the lowest 
        level of funding among regional bureaus.

    Answer. The United States has made a substantial commitment and 
investment in Afghanistan, Pakistan, and Iraq, and we must ensure that 
commitment is fully supported. Any tradeoffs are applied worldwide, not 
only to the East Asia and Pacific region.

  <bullet> To what extent does the comparatively low level of funding 
        for State Department activities and foreign assistance in East 
        Asia reflect a tradeoff in favor of activities in Afghanistan, 
        Pakistan, and Iraq?

    Answer. The United States has made a substantial commitment and 
investment in Afghanistan, Pakistan, and Iraq, and we must ensure that 
commitment is fully supported. Any tradeoffs are applied worldwide, not 
only to the East Asia and Pacific region.

    Question. Of the 565 new Foreign Service and Civil Service 
positions requested in the budget, how many of these positions will be 
dedicated to EAP?

    Answer. Of the 565 new Foreign Service and Civil Service positions 
for which funding was requested in the Department's FY 2011 budget, 292 
are for the regional bureaus. Of the 292 regional positions requested, 
130 are for Afghanistan and Pakistan, and 27 are intended for EAP.

    Question. Why does East Asia have the lowest IMET allocation? Does 
this low funding prevent the United States from expanding military-to-
military relations in the region? How does it impact regional military 
capacity?

    Answer. IMET is allocated by country and is based on the training 
requirements and absorptive capacity of each recipient country. Since 
training requires a certain level of English proficiency, we are 
limited in the amount and types of courses we can offer to several 
countries in this region. For those countries, a major component of our 
IMET program is English language training, which increases the pool of 
students eligible for a broader range of IMET-funded opportunities.
    The amount of IMET funding allocated for the East Asia and Pacific 
region for FY 2008 through FY 2010 increased by 44 percent. The request 
for FY 2011, while a more modest percentage increase than in previous 
years, is still an increase in absolute terms over FY 2010 levels.
    IMET funding is only one of many security cooperation programs and 
activities that we use to enhance our military-to-military relations in 
the region. Other security assistance funding, such as Foreign Military 
Financing and Peacekeeping Operations/Global Peace Operations 
Initiative, as well as a wide range of DOD programs such as ship 
visits, exercises, and visits/meetings between senior DOD officials and 
military leaders of those countries strengthen our relationships and 
improve regional military capacity.

    Question. Does the Department of State have a plan to address the 
need for a new Embassy in Hanoi? How high does the Department rank this 
project in terms of our various embassy construction priorities around 
the world?

    Answer. Hanoi is on the Bureau of Overseas Buildings Operations 
(OBO) Top 80 list for new construction.
    Congress directed the Department to follow the Secure Embassy 
Construction and Counterterrorism Act of 1999 (SECCA) for replacement 
of facilities at vulnerable posts. The process for identifying and 
prioritizing projects begins with review of the Vulnerability List 
mandated by SECCA. This list, published each year by the Bureau of 
Diplomatic Security (DS), ranks facilities according to their 
vulnerability across a wide variety of security threats.
    The Vulnerability List is then used to establish the Top 80 list of 
posts where new embassies (NEC), new consulates (NCC), new office 
buildings (NOB), and new annex buildings (NOX) are needed to reduce 
security vulnerability. The Department last updated the Top 80 list in 
2008. Embassy Hanoi is ranked No. 58 on the Top 80 list. The list will 
again be updated in summer 2010, after DS releases a revised 
Vulnerability List.
    From FY 2010 through FY 2019, the Department plans to construct, on 
average, six capital projects (NECs, NCCs, etc.) each year. 
Accordingly, the Department expects to award contracts for about 60 
capital projects over the next 10 years. Consistent with Embassy 
Hanoi's current ranking at No. 58 on the Top 80 list, the Department is 
on track to award an NEC contract there in FY 2020.
    Regardless of post's ranking on the Top 80 list, the construction 
of an NEC in Hanoi is predicated on acquiring a site. While the 
Department has identified an appropriate site, it has not been able to 
reach an agreement with the Government of Vietnam (GOV) on reciprocal 
property rights. The GOV wants the right to acquire property in the 
United States; however, the GOV is not willing to extend equivalent 
property rights to the United States. The Department continues to raise 
this reciprocity issue with the GOV, with Under Secretary for 
Management Patrick Kennedy due to visit Hanoi in April 2010 to address 
the issue with the GOV.

                                  <all>

</pre></body></html>
